<html>
<title> - ABANDONED MINES AND MERCURY IN CALIFORNIA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
               ABANDONED MINES AND MERCURY IN CALIFORNIA

=======================================================================



                        OVERSIGHT FIELD HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

              November 23, 2009, in Sacramento, California

                               __________

                           Serial No. 111-42

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
53-883                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                


              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    JIM COSTA, California, Chairman
           DOUG LAMBORN, Colorado, Ranking Republican Member

Eni F.H. Faleomavaega, American      Don Young, Alaska
    Samoa                            Louie Gohmert, Texas
Rush D. Holt, New Jersey             John Fleming, Louisiana
Dan Boren, Oklahoma                  Jason Chaffetz, Utah
Gregorio Sablan, Northern Marianas   Cynthia M. Lummis, Wyoming
Martin T. Heinrich, New Mexico       Doc Hastings, Washington, ex 
Edward J. Markey, Massachusetts          officio
Maurice D. Hinchey, New York
John P. Sarbanes, Maryland
Niki Tsongas, Massachusetts
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on November 23, 2009................................     1

Statement of Members:
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     1
        Prepared statement of....................................     5
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Abbott, Jim, Acting California State Director, Bureau of Land 
      Management, U.S. Department of the Interior................     9
        Prepared statement of....................................    10
        Map......................................................    13
    Adams, Hon. Linda, Secretary, State of California 
      Environmental Protection Agency, Opening remarks of........    43
    Alpers, Dr. Charles, Research Chemist, U.S. Geological 
      Survey, U.S. Department of the Interior....................     9
        Appendix: Mercury Contamination in California Watersheds 
          Affected by Abandoned Mine Lands--Reference Cited and 
          Publications by the U.S. Geological Survey, 1999-2009..    13
    Baggett, Arthur G., Jr., Board Member, State Water Resources 
      Control Board, State of California Environmental Protection 
      Agency.....................................................    44
        Prepared statement of....................................    46
    Feinstein, Hon. Dianne, a U.S. Senator from the State of 
      California, Statement submitted for the record.............    23
    Isham, Julian<plus-minus> C., PG, CEG, CHG, Geology Manager, 
      Shaw Environmental Inc., on behalf of the Northwest Mining 
      Association................................................    81
        Prepared statement of....................................    82
    Luther, Bridgett, Director, Department of Conservation, State 
      of California..............................................    51
        Prepared statement of....................................    52
    Martin, Elizabeth, Chief Executive Officer, The Sierra Fund..    88
        Prepared statement of....................................    90
    Meer, Daniel, Assistant Superfund Division Director, Region 
      9, U.S. Environmental Protection Agency....................    32
        Prepared statement of....................................    33
    Moore, Randy, Pacific Southwest Regional Forester, Forest 
      Service, U.S. Department of Agriculture....................    25
        Prepared statement of....................................    27
    Schneider, Bob, Board Member and Senior Policy Director, 
      Tuleyome...................................................    75
        Prepared statement of....................................    77
    Wilensky, Hon. Steve, Supervisor, 2nd District, Calaveras 
      County Board of Supervisors, State of California...........    71
        Prepared statement of....................................    74
        Map of...................................................    75

Additional materials supplied:
    List of documents retained in the Committee's official files.   101
    Map of Abandoned Mines in Calaveras County, California.......    75
    Map of ``Abandoned Mines on Bureau of Land Management Lands''    13
    Map of ``California's Abandoned Mercury Producing Mines''....    62
    Map of ``California Abandoned Mines: Potential, Inventoried, 
      and Remediated Mine Feature Locations''....................    63
    Norris, Sherri, Executive Director, California Indian 
      Environmental Alliance, Letter submitted for the record....   100
                                     


  OVERSIGHT HEARING ON ``ABANDONED MINES AND MERCURY IN CALIFORNIA.''

                              ----------                              


                           November 23, 2009

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                         Sacramento, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 4202 at the State Capitol in Sacramento, California, Hon. 
Jim Costa, [Chairman of the Subcommittee] presiding.
    Present: Representative Costa.
    Also Present: Representative McClintock.

STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. The Subcommittee on Energy and Mineral Resources 
will now come to order on this Monday morning, the 23rd of 
November.
    The subject of today's oversight field hearing is abandoned 
mines and mercury in California and its impact, not just on the 
watersheds and the waters of California, but its application as 
it relates to abandoned mines throughout the entire country. It 
is a challenge that we face based upon norms and conditions 
that existed in the 19th Century and early on in the 20th 
Century. Many of these abandoned mines have been left in 
various conditions, which in many cases have seriously created 
an environmental nightmare for the watersheds in those areas, 
not only for our drinking water but a host of other issues that 
are important as well.
    Chairman Rahall has a measure that attempts to address this 
issue. He introduced it in the last Congress, and he 
reintroduced it in this Congress. It would, for the first time, 
re-examine the whole framework of hardrock mining in this 
country.
    Often we are accused of writing too much law in our 
Nation's Capitol. This is a law that was introduced in 1872, I 
believe, and signed by President Grant, and it has not changed 
since that time. Obviously, a lot of other factors have changed 
in this country. Whether or not we are able to get any action 
on this that would provide additional remedies, remedies to 
deal with not only the case of the abandoned mines that we will 
see in the testimony here this morning as we look at a snapshot 
of the picture in California, but also as we apply it 
throughout the country, especially in the West where a great 
deal of extraction of minerals took place in the 19th and early 
20th Century.
    But I can say that, for me, it is a pleasure to be here, 
and I suspect Congressman Tom McClintock feels the same.
    I actually need to ask unanimous consent that Congressman 
Tom McClintock serve as the Ranking Member for today's 
Subcommittee hearing. Since it is just he and I, I suspect we 
will get unanimous consent.
    Mr. McClintock. No objection.
    Mr. Costa. Actually, Congressman McClintock serves as the 
Ranking Member on the Subcommittee on Water and Power in the 
Natural Resources Committee, but his district obviously is 
close by, and he is interested in the subject, and we are glad 
that you are here this morning as we look at moving on with 
this hearing. So without objection, so ordered.
    For some of you out there or those of you who do not know 
me, I am Congressman Jim Costa, and for both Tom and I, as I 
noted when we walked in here, it is deja vu all over again. I 
had the wonderful opportunity and privilege to serve the people 
of California in the State Legislature for 24 years--16 years 
in the Assembly and 8 years in the State Senate, as did Tom. It 
is nice to walk around here, Tom, this morning and see staff. 
Members do not know you because of term limits, but staff 
people still do, and they refer to you as ``Senator,'' a real 
title. But it is great to be here and just see Marvin Unruh.
    I used to say ``Ways and Means'' Committee room, but now I 
am dating myself. It is now the ``Appropriations Committee'' 
room, I guess. They have changed the title, but it shows the 
breadth and the width of our wonderful State of California and 
the challenges, of course, that we face.
    Jess Unruh was one of my mentors, and it obviously gives me 
double pleasure to be here this morning.
    We have three panels that will, I think, give us a good 
descriptive on the subject of today's hearing, people that 
combine expertise at the Federal, State and local levels, 
people with experience and background on the potential 
contamination risk, in this case, of abandoned mines. We will, 
I suspect, hear primarily about mercury contamination, but 
there are other types of contamination, as well, as a result of 
these abandoned mines. There are other stressors that impact 
the waters of the State of California.
    The Legislature, I think courageously, with the Governor 
acted on a water package just a couple of weeks ago. A lot of 
the debate is how you restore the Sacramento-San Joaquin River 
Delta system. I maintain that there are a host of factors that 
really have not been examined that are contributing to the 
decline of the fishery, as well as the impacts of water 
quality. They are not examined at the same level of scrutiny 
and importance, in my view, as we look at these two biological 
opinions that are creating great, great challenges, as we look 
at trying to allow California's water system to operate in 
these below-average rainfall years the last three years.
    When you look at the over 26 million pounds of mercury that 
were used, it is believed that 16 million pounds are still 
within the sediments of the Sacramento River systems, along 
with Cache Creek and other tributaries and streams. You look at 
the impacts of 120,000 gallons of ammonia being emitted into 
the Sacramento-San Joaquin River systems monthly, 120,000 
gallons. Fish do not like to swim in ammonia, I don't think. 
When you look at all of the other contributing stressors as it 
relates to runoff from streets and roads in an area that has 
quadrupled in population in the last two decades and, of 
course, non-native species, there are a lot of factors that are 
contributing to the decline of our waters and our fisheries in 
California.
    Today's subject of abandoned mines will highlight the 
impacts of a number of those areas that are impacting the 
waters. But before we get into that, let me first do a couple 
of thank-you's. Congresswoman Matsui wanted to be here today. 
We thank her staff for her generous support and her concern 
about the water quality in the Sacramento-American River 
Systems and their watersheds. Clearly, many of her constituents 
are among the first to be impacted.
    Also, Assemblywoman Cathleen Galgiani and her staff, Darin 
Walsh, for helping put this together. We really appreciate 
that.
    We want to thank Mr. Payne and his Staff of Sergeants and 
Brent. Did he come in? He went back out.
    Mr. Pawnee, come over. We want to thank the Assembly 
Sergeants, Mr. Payne, and thank Brent and all of them for their 
support in making this happen. Before you walked in, I said 
this is like deja vu all over again. So we appreciate the good 
work you have always done.
    When was the last time you were recognized by any of the 
legislative staff or legislators?
    Mr. Pawnee. A long time.
    Mr. Costa. All right. See, some of us never forget.
    Anyway, let me just briefly give my statement, and then I 
will allow the Ranking Member to make his statement, and we 
will hear our witnesses. How does that sound?
    Obviously, mercury can be harmful. It can be harmful to the 
body functions, whether it be our brain, our kidneys, our 
hearts, or our lungs. Exposure to its most toxic form, 
methylmercury, can also have devastating impacts on women who 
are pregnant and their babies.
    Earlier this month, the Environmental Protection Agency 
warned that about half of the 500 lakes and reservoirs it 
sampled throughout the country contained fish with potentially 
harmful levels of mercury for those who are eating average 
amounts of fish.
    As we will hear from the witnesses today, many of these 
waters in California sadly contain fish with potentially 
harmful levels of mercury content. While we have made efforts 
in California and elsewhere around the country to reduce those 
levels, we also need to know that at home we have our own 
responsibilities. Many of us have purged our old mercury 
thermometers in our bathroom cabinet. Dentists today, I think, 
have almost given up the use of mercury in fillings.
    But there is bad news for Californians, as there is for the 
rest of the country. As I noted in my earlier comment, 26 
million pounds of mercury were used to extract gold in the 
State during the gold rush. Those were the '49er days. And 
mercury pollution from those mines in the Sierra and the 
coastal range sadly continue today.
    This hearing is an opportunity to learn about the fate of 
the mercury used a century ago--as well as mercury in old mines 
that still discharge--and, more importantly, what sort of 
strategies the State, working with local government and the 
Federal agencies, can collaborate on, in effect, to remedy much 
of this runoff.
    According to the Department of Conservation, and they will 
be testifying here, there are 47,000 abandoned mines in 
California. Sixty-seven percent are on Federal lands. We have a 
number of these maps here and in your booklets which 
demonstrate that.
    Not all sites, obviously, are causing toxic problems. A lot 
of them are contained within areas that limit their impacts. So 
how do we prioritize those that are creating the greatest 
amount of problems? And how we protect the water and the people 
is a huge challenge.
    I expect most of us will agree that we do need to provide 
funding and, of course, the State faces difficult challenges 
these days as it relates to its own budget problems. In 
Washington, we have tremendous deficits as well. So how we in 
the most cost effective way are able to prioritize and target 
is really part of the subject of this morning's hearing.
    In the House of Representatives, I am a co-sponsor of 
Chairman Rahall's bill, H.R. 699. It is the Hardrock Mining and 
Reclamation Act of 2009. It would create a reclamation fund 
from a royalty on hardrock mining for public lands. Some of us 
who have been in Nevada and elsewhere, to the gold mines and 
the incredible amount of activity that is taking place there 
and in talking with many of the people in the gold mining 
industry believe that you could raise a modest amount from that 
royalty as a source of funding to clean up abandoned mines. 
That is the proposal in Chairman Rahall's measure.
    Whether or not there will be any action taken in this 
Congress still remains to be seen.
    We will also hear from Federal and State agencies involved 
in the management of these abandoned mines and water, and other 
organizations from the private sector, some of them are here 
this morning, who are trying to help solve these problems.
    There are three questions that I want all of you to think 
about that I will continue to ask in different ways. First of 
all, how much mercury is coming from the abandoned mines? What 
are the impacts of the mercury? How do we fix the problem?
    And a fourth question that I am really looking at is what 
is the overall level of contribution to the mercury problems, 
stressing the Sacramento-San Joaquin River systems through 
those mines that we see listed there, to the other stressors I 
mentioned, i.e., the discharge of ammonia from tertiary 
treatment, i.e., the runoff from streets and roads on cities 
that now have quadrupled their population in the area, i.e., 
the impacts of the plumbing system of the State and Federal 
water projects, i.e., the non-native species that are all 
stressing the waters of the state.
    We have not done any sort of qualitative review to really 
examine from a biological standpoint how all of these 
contributions are contributing to the decline of fisheries and 
to the water quality of the Sacramento-San Joaquin River 
systems.
    So those are the questions that I am going to be asking in 
a host of different ways. I look forward to everybody's input. 
Today the Subcommittee will try to shine a light on this issue 
in its larger context, not only its impacts to the State of 
California, but its impact as it relates to abandoned mines 
throughout the country.
    I would now like to recognize the Ranking Member, Mr. 
McClintock. He and I, as I said, both had the wonderful 
opportunity to serve in the State Legislature and now we are 
both in Congress and we are both pleased to be here.
    Congressman McClintock.
    [The prepared statement of Mr. Costa follows:]

            Statement of The Honorable Jim Costa, Chairman, 
              Subcommittee on Energy and Mineral Resources

    At the outset of this hearing, I want to take a moment to thank 
Congresswoman Matsui, whose wonderful district we are in, and the 
generous support of her staff.
    I also want to express our gratitude to Assemblywoman Cathleen 
Galgiani, and her staffer, Darin Walsh, for helping our Committee staff 
to put this hearing together.
    There is a growing awareness of the dangers of mercury. Mercury can 
harm the brain, kidney, heart, and lungs, and can accumulate in the 
tissues of fish and wildlife. Exposure to its most toxic form, 
methylmercury, can have devastating impacts on pregnant women and their 
babies. Earlier this month the EPA warned that about half of the 500 
lakes and reservoirs it sampled contained fish with potentially harmful 
levels of mercury for those eating average amounts of fish.
    Some sources of mercury have been reduced. Many of us have purged 
the old mercury thermometer in our bathroom cabinet. Batteries and 
paints are now typically mercury free. Many dentists have given up the 
use of mercury in fillings.
    But for Californians, there is bad news. 26 million pounds of 
mercury were used to extract gold in this state during the Gold Rush. 
The legacy of mercury pollution from both gold mines in the Sierra 
Nevada and mercury mines in the Coastal Range continues today.
    This hearing is an opportunity to learn about the fate of the 
mercury used a century ago, the mercury that old mines are still 
contributing, and strategies for remediation.
    According to the Department of Conservation, there are 47,000 
abandoned mines in California, 67% on federal lands. Not all sites are 
causing toxic mercury problems, but getting a handle on which sites 
are--and how to prioritize and clean them up to protect water and 
people--is a huge challenge.
    I expect most of us will agree that we need more funding for 
abandoned mine cleanup. In the House of Representatives, I am a co-
sponsor of H.R. 699, the Hardrock Mining and Reclamation Act of 2009, 
which would create an abandoned mine reclamation fund from a royalty on 
hardrock mining on public lands.
    Today, we will hear from federal and state agencies involved in 
managing mines and water, as well as people and organizations directly 
impacted by or involved in trying to solve the mercury and historic 
mining problem.
    From my perspective, I hope they can help answer three questions:
    <bullet>  How much mercury is coming from abandoned mines?
    <bullet>  What are the impacts of that mercury?
    <bullet>  How do we fix this problem?
    I look forward to their input on this serious and long-neglected 
issue.
                                 ______
                                 

      STATEMENT OF HON. TOM McCLINTOCK, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman.
    It is, indeed, a pleasure to be here in such familiar 
surroundings with such familiar company, and it was a 
particularly wonderful surprise to enter the building and 
realize it has not been boarded shut yet and the lights are 
still on. So I guess it is something to be grateful for.
    And it is a pleasure to join you on behalf of Congressman 
Doug Lamborn, who is the Ranking Member of the Subcommittee who 
was unable to be here today.
    But, Mr. Chairman, as we address water quality issues that 
date back 160 years, I would be remiss in not raising the 
concern that I know that you share over the immediate water 
quantity crisis caused by the deliberate diversion of 200 
billion gallons of water from the Central Valley. This manmade 
drought has resulted in 40,000 unemployed San Joaquin Valley 
workers who have urgently pleaded with Congress to turn the 
Delta pumps back on.
    I just want to note that I requested the Natural Resources 
Committee a month ago to hold a field hearing on that crucial 
subject, a crisis that cannot wait 160 years or even 160 days 
for redress, and I have not yet received an answer from the 
Committee.
    That said, I welcome the opportunity to sit on the 
Subcommittee today since many of the gold mines that gave birth 
to California's prosperity are in my Fourth Congressional 
District. In fact, I just came from a speech in Placerville, 
California, which began with the name ``Dry Diggins.'' Indeed, 
Sutter's Mill, where the gold rush started, is not far from 
there.
    Today we are discovering that the legacy of California's 
gold rush came with a price, that of mercury contamination of 
our streams and watersheds. Unfortunately, so many years have 
passed since the closure of these mines that the owners 
responsible are no longer alive to clean up their long 
abandoned sites. Indeed, most of the abandoned mine lands found 
throughout the western United States were operated in the 1800s 
and early 1900s.
    I hope that today's testimony follows a formula that 
Abraham Lincoln laid down in 1858 when he observed, ``If we 
could first know where we are and whither we are tending, we 
could best judge what to do and how to do it.''
    With respect to where we are and whither we are tending, I 
hope that the testimony today can give us a clear and 
dispassionate perspective of the actual scale and complexity of 
the problem we face.
    We are fortunate that the practices that caused this 
contamination were halted many decades ago. So I presume that 
the problem is at least not worsening.
    Next, I hope that we will receive guidance on how the 
residue of these mines compares with the natural mercury 
contamination, which should give us some perspective on the 
magnitude of the manmade portion of that equation.
    And, finally, since the contamination has been with us for 
over a century and is only now being assessed, it is important 
to ask what damage has already been done, either to human 
health or to the animal population. For example, have we 
recorded fish die-offs or high mortality rates among natural 
predators whose diet includes significant amounts of those 
fish?
    With respect to what to do and how to do it, I believe that 
we must be mindful of cost-benefit issues as well as 
opportunities that may exist for natural remediation. For 
example, one of the best legislative initiatives in our 
Committee's jurisdiction is H.R. 3203, the Cleanup of Inactive 
and Abandoned Mines Act, also known as the Good Samaritan Act, 
sponsored by the Subcommittee's Ranking Member, Mr. Lamborn. 
This bill establishes provisions to encourage the partial or 
complete remediation of inactive and abandoned mine sites for 
the public good by Good Samaritans.
    H.R. 3203 is designed to limit Clean Water Act liability 
for entities that voluntarily clean up these abandoned sites. 
The specific authority would allow a Good Samaritan program for 
a mine remediation project if it is determined that it will 
improve the environment to a significant degree. Now, this may 
prove particularly useful in promoting clean-up of sites in 
conjunction with mine reopenings as the demand for gold 
increases.
    I hope we will also examine what activities and mandates 
may be threatening a new round of mercury contamination. An 
example would be the Federal and state mandates for fluorescent 
light bulbs which threaten tons of new mercury contamination 
each year. It would be a pity if while addressing mercury 
contamination dating back a century or more, we ignored new 
sources of mercury contamination prompted by our own actions.
    So, Mr. Chairman, I want to thank you again for the 
opportunity to participate in today's hearing, and I look 
forward to hearing from our witnesses.
    [The prepared statement of Mr. McClintock follows:]

      Statement of The Honorable Tom McClintock, a Representative 
                in Congress from the State of California

    Mr. Chairman:
    It is a pleasure to join you on behalf of Congressman Doug Lamborn, 
the Ranking Member of the Sub-committee who was unable to be here 
today.
    But, Mr. Chairman, as we address water QUALITY issues that date 
back 160 years, I would be remiss in not raising the concern that I 
know you share over the immediate water QUANTITY crisis caused by the 
deliberate diversion of 200 billion gallons of water from the Central 
Valley. This man-made drought has resulted in 40,000 unemployed San 
Joaquin Valley workers who have urgently pleaded with Congress to turn 
the Delta pumps back on. I just want to note that I requested the 
Natural Resources Committee a month ago to hold a field hearing on that 
crucial subject--a crisis that cannot wait 160 years--or even 160 
days--for redress. I have not yet received an answer.
    That said, I welcome the opportunity to sit on the committee today 
since many of the gold mines that gave birth to California's prosperity 
are in my district. I just came from a speech in Placerville, which 
began with the name, ``Dry Diggins.'' Indeed, Sutter's Mill, where the 
Gold Rush started, is not far from there.
    Today we are discovering that the legacy of California's Gold Rush 
came with a price: that of mercury contamination of our streams and 
watersheds. Unfortunately, so many years have passed since the closure 
of these mines that the owners responsible are no longer alive to clean 
up their long-abandoned sites. Indeed, most of the abandoned mine lands 
found throughout the Western United States were operated in the 1800's 
and early 1900's.
    I hope that today's testimony follows the formula that Abraham 
Lincoln laid down in 1858 when he observed, ``If we could first know 
where we are and whither we are tending, we could better judge what to 
do and how to do it.''
    With respect to where we are and whither we are tending, I hope 
that the testimony today can give us a clear and dispassionate 
perspective of the actual scale and complexity of the problem we face. 
We are fortunate that the practices that caused this contamination were 
halted many decades ago, so I presume that the problem is at least not 
worsening.
    Next, I hope that we will receive guidance on how the residue of 
these mines compares with natural mercury contamination, which should 
give us some perspective on the magnitude of the man-made portion of 
the equation.
    Finally, since the contamination has been with us for over a 
century and is only now being assessed, it is important to ask what 
damage has it already done, either to human health or to the animal 
population. For example, have we recorded fish die-offs or high 
mortality rates among natural predators whose diet includes significant 
amounts of fish.
    With respect to what to do and how to do it, I believe that we must 
be mindful of cost-benefit issues, as well as opportunities that may 
exist for natural remediation.
    For example, one of the best legislative initiatives in our 
committee's jurisdiction is H.R. 3203, the ``Cleanup of Inactive and 
Abandoned Mines Act,'' also known as the ``Good Samaritan Act,'' 
sponsored by this sub-committee's Ranking Member, Mr. Lamborn. This 
bill establishes provisions to encourage the partial or complete 
remediation of inactive and abandoned mine sites for the public good by 
``good Samaritans.'' H.R. 3203 is designed to limit Clean Water Act 
liability for entities that voluntarily clean up these abandoned sites. 
The specific authority would allow a Good Samaritan Program for a mine 
remediation project if it is determined that it will improve the 
environment to a significant degree. This may prove particularly useful 
in promoting cleanup of sites in conjunction with mine re-openings as 
the demand for gold increases.
    I hope we will also examine what activities and mandates may be 
threatening a new round of mercury contamination. An example would be 
federal and state mandates for fluorescent light bulbs, which threaten 
tons of new mercury contamination each year. It would be a pity if, 
while addressing mercury contamination dating back a century or more we 
ignored new sources of mercury contamination prompted by our own 
actions.
    Mr. Chairman, I want to thank you again for the opportunity to 
participate in today's hearing and I look forward to hearing from our 
witnesses.
                                 ______
                                 
    Mr. Costa. Thank you very much, Congressman McClintock, and 
I look forward to hearing the testimony as well.
    I appreciate your noting the challenges that we are facing 
with the current regulatory drought and the three years of 
below-average rainfall and its impact on the state. Just as we 
are looking at financial challenges impacting the state, the 
drought crisis clearly is now impacting the San Joaquin Valley. 
If it, God forbid, continues a fourth year, it will impact 
Southern California as well as the Bay Area, and as you know, 
my constituency is kind of ground zero where the unemployment 
is taking place, and every day I am trying to do everything I 
possibly can to find various remedies both at the Federal as 
well as state level, and I appreciate your concern and interest 
and will continue to work very hard on that front.
    Let's begin with the witnesses. We have Mr. Jim Abbott, the 
Acting Director of the California Office of the Bureau of Land 
Management within the Department of the Interior. Mr. Abbott 
will present a joint testimony with Dr. Alpers, a research 
chemist for the U.S. Geological Survey, also part of the 
Department of the Interior. It is my understanding, Mr. Abbott, 
that you will present the PowerPoint, and both you and Dr. 
Alpers will be available for questions as we pursue your 
testimony when we get to the Q&A part.
    Mr. Randy Moore, from Region 5, is a Forester of the U.S. 
Forest Service under the Department of Agriculture, and you 
will have your testimony and then we will follow with Mr. 
Daniel Meer, the Assistant Superfund Division Director of 
Region 9 for the United States Environmental Protection Agency.
    I think all of you are familiar with the Federal tradition 
in hearings. Any lengthy testimony will be submitted for the 
record, without objection. Your testimony will be guided by the 
five-minute rule. I do not know if some of you can see, but 
right beyond that laptop computer, and we will have to bend it 
down after your PowerPoint presentations so that the other 
witnesses can see it, but the green light stays on for four 
minutes, and then when you hit your fifth minute the yellow 
light goes on, and then when it turns red, then there is an 
ejection seat where you are sitting, and you disappear.
    Not really, but the Chair does appreciate if you stay 
within the five minutes. It is helpful.
    So without further ado, Mr. Abbott, Director of the 
California Office of Bureau of Land Management within the 
Department of the Interior, you have a PowerPoint; is that 
correct?
    Mr. Abbott. No, I do not have a PowerPoint.
    Mr. Costa. Oh, then who has the PowerPoint? Oh, the next 
panel. OK. Well, why don't we bend that lid there? There we go; 
perfect. See if I had listened more carefully to my staff, I 
would know that you did not have a PowerPoint.
    Mr. Abbott, please begin.

     STATEMENT OF JIM ABBOTT, ACTING STATE DIRECTOR OF THE 
   CALIFORNIA STATE OFFICE, BUREAU OF LAND MANAGEMENT, U.S. 
 DEPARTMENT OF THE INTERIOR, WITH DR. CHARLES ALPERS, RESEARCH 
    CHEMIST, U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Abbott. Good morning, Mr. Chairman and Mr. Congressman 
and Committee staff. My name is Jim Abbott. I am the Acting 
State Director for the Bureau of Land Management, and I am 
pleased to be joined this morning by my colleague, Dr. Charles 
Alpers, representing our sibling Interior agency, USGS.
    I would like to especially thank you for holding this 
hearing and especially thank you for holding it here in 
Sacramento this morning. Sacramento is a geographic area well 
known and commonly associated with the discovery of gold in 
California and the ensuing changes in history that that 
discovery led to.
    A little less known were the unexpected consequences and 
the unexpected costly impacts associated with remediation of 
the ensuing 160 years of history where mining activity across 
not only California, but the West has left a legacy for us to 
address in terms of remediating human health hazards.
    I have submitted to you written testimony, but I would like 
to briefly summarize from that for you the size and scope of 
the problem that we face on BLM land here in California, the 
progress we are making, and to summarize for you some prognosis 
for the future in terms of what we face.
    As you mentioned, there are estimated to be 47,000 
abandoned mines here in the State of California. Twenty 
thousand of those are estimated to be on the 15 million acres 
of public land that we in the Bureau of Land Management 
administer.
    Of that 20,000, to date we have identified over 1,000 mine 
sites that have environmental hazards. Those are the hazards 
associated with, as you have mentioned, mercury and some of the 
other chemical workings that were used in mining activity, and 
over 3,000 mines that create serious physical safety hazards as 
a result of tunnels added and mine working that all too often 
lure unsuspecting public to explore a very dangerous physical 
setting causing injury and sometime death.
    Despite the fact that we have this large number of sites, 
we are making progress. We are currently working in eight 
watersheds to address environmental safety hazards, including 
the watersheds of the American and Sacramento River. In the 
testimony that I have submitted, I have provided you and there 
are some on the board overhead, some examples of before and 
afterward for the progress that we have been making.
    In addition to the eight watersheds that we are currently 
working in, we are characterizing other mine sites in the 17 
priority watersheds throughout the State of California to 
continue to evaluate where best to make our next investments.
    In addition, over the past two years, we have remediated 
over 300 physical safety hazard risks and continue to expect 
this year to be adding significantly to that number.
    The prognosis for the future, the size of the task and cost 
of the task is, indeed, daunting, but we have to date 
established a network of partnerships here in the State between 
Federal agencies, State agencies, local agencies, and 
nonprofits who have been working shoulder to shoulder to 
evaluate how best to address the various resources, issues that 
we face, and decide upon a joint deployment of how to begin and 
where to invest to address the highest priority issues.
    We are thankful to Senator Dianne Feinstein for two years 
ago she asked that partnership to come up with a joint priority 
list of projects, and that joint list, which was developed 
cooperatively by the partnership agencies, has been an 
invaluable tool in terms of helping us to direct where our 
resources should be best spent.
    To date, we have seen increases in our budget here in 
California, doubling up to $4 million to address physical and 
environmental hazards. Here in California we are benefiting 
from $8.75 million in stimulus funding this year to address the 
risks that we face.
    We are continuing to work in the highest priority areas to 
continue to inventory and characterize the risks that remain to 
ensure that we are leaving behind us a legacy, a proud history, 
not just of the importance of the discovery of gold in 
California, but the work that successive generations are doing 
to ensure that that discovery is not leaving a legacy of 
chemical and physical dangers for the future.
    Thank you.
    [The prepared statement of Mr. Abbott follows:]

      Statement of Jim Abbott, Acting California State Director, 
       Bureau of Land Management, U.S. Department of the Interior

Introduction
    Mr. Chairman, members of the subcommittee and guests, welcome to 
California and thank you for the opportunity to appear here today. I am 
Jim Abbott, Acting State Director for the Bureau of Land Management 
(BLM) in California and am pleased to be here to discuss the BLM's 
Abandoned Mine Lands (AML) program.
    Nationally, the AML program is one of the BLM's most challenging 
due to the sheer number of AML sites, their associated safety and 
environmental hazards, and uncertainties surrounding these estimates. 
However, the agency is committed to continuing to address these 
hazardous sites. It has taken a number of steps to build a 
comprehensive and aggressive AML program, including a substantive 
effort in identifying sites. Together with the collaborative efforts of 
the agency's AML partners, the BLM is making progress to remove these 
hazards left from the nation's mining legacy.
BLM's AML Program
    To date, the BLM's AML inventory contains over 25,000 sites across 
the country with approximately 66,000 ``AML features'' such as portals 
(mine entrances) or rock dumps (piles of rock dumped by miners digging 
the mine). The inventory number will increase as BLM updates the 
inventory with field data that is continuously collected about 
additional sites and features. A majority of these sites pose safety 
hazards while 5 to 10 percent pose environmental hazards. Environmental 
and human health hazards include mercury contamination in discharge 
from placer gold mines and mercury mines, and sediment from asbestos 
mines; arsenic and lead contamination from mine tailings; deadly gases 
within the mines; and acidic mine drainage from large sulfide mines. 
AML sites also contain physical hazards, such as open mine shafts and 
pits; unstable rock and decayed support beams; and explosive and toxic 
chemicals. We would like to emphasize that the sites with the highest 
potential for harm to public health and safety have already been 
identified by the various Federal, State, and Tribal partners and are 
being addressed with existing resources.
    The BLM AML funding comes from a variety of funding streams, such 
as the AML Program appropriations, DOI's Central Hazardous Material 
Fund, the Special Clean Up Fund, and Natural Resource Damage Assessment 
program. The BLM prioritizes which sites receive funding based upon AML 
National Level Evaluation Criteria found in the BLM AML Program's 
Strategic Plan, which weighs several different criteria for both 
environmental and physical safety sites.
    Currently, 20 percent of the identified AML sites have been 
remediated, or are undergoing remediation. BLM is in the process of 
updating its AML Strategic Plan with a projected completion date of 
2010. The Strategic Plan will provide additional, long-term direction 
for the AML remediation program.
    The BLM environmental cleanup or remediation activities cover a 
broad spectrum, and are guided by important public laws such as: the 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA), the Federal Land Policy and Management Act (FLPMA), and 
theNational Environmental Policy Act (NEPA). AML environmental sites 
can include those adversely affected by poor water quality and by 
substances such as arsenic, mercury, and base metals. AML environmental 
sites include tunnels that may discharge contaminated water, or tailing 
piles that may discharge various hazardous materials or substances. 
Through the application of those laws, the agency addresses the impacts 
from the associated hazards along with the proposed mitigation work 
necessary to remediate a site.
    The Office of the Inspector General (OIG) found in a 2008 report 
entitled, Abandoned Mine Lands in the Department of Interior, that 
``...BLM and NPS are putting the public's health and safety at risk by 
not addressing hazards posed by abandoned mines on their lands.'' The 
OIG audit concluded, ``As it stands, public safety is at risk because 
physical and environmental hazards at abandoned mine lands have been 
ignored by DOI for decades. Abandoned mine lands programs in DOI are in 
need of a firm commitment to protect the public, sustained funding, and 
dedicated staff.''
    The BLM takes seriously the findings and recommendations of the 
OIG, along with its responsibility to protect both public health and 
safety, as well as the environment. As a result, the agency has taken a 
number of steps to build a comprehensive and aggressive AML program 
that include: initiating a revision of the BLM AML Strategic Plan; 
initiating an AML Inventory Feasibility Study; implementing the ``Fix a 
Shaft Today'' program to encourage volunteers to participate in 
inventory and safety closure projects; and developing guidance to 
encourage increased stakeholder involvement and improved coordination 
with AML partners at the Federal, state and local level.
California's Mining Legacy
    In California, the BLM faces a particularly challenging situation 
due not only to its historic mining legacy, but also to its growing 
population, which now stands at 38 million. Gold was discovered not far 
from here at Coloma, starting the famous California Gold Rush. For over 
a century and a half, miners scoured hillsides and mountains, dug 
mines, and subsequently abandoned them with little or no reclamation, 
creating the pollution and public safety issues we face today. Over one 
hundred years of mining have left thousands of dangerous shafts, 
portals, and other hazards. Most of these hazards are located in the 
Sierra Nevada Mountain and Klamath Mountain Provinces of Northern 
California and the Mojave and Colorado Desert Regions in Southern 
California. The historic use of mercury in gold mining operations has 
led to the pollution we see today in scores of watersheds and even in 
some of our major waterways in the Sierra Nevada Range, the Central 
Valley, and even the San Francisco Bay Delta. Abandoned mercury mines 
in the Coast Range are also a significant source of mercury 
contamination. The Sacramento watershed is the BLM's highest priority 
for clean-up, followed by the American, Bear, Nacimiento, Salinas, 
Trinity, Yuba, and Russian River watersheds. AML remediation work is 
either underway or proposed for all eight areas.
    The BLM and the California Department of Conservation's Office of 
Reclamation estimate there are approximately 47,000 abandoned mines in 
California, two-thirds of them on Federal lands. The BLM-administered 
public lands in California have an estimated 20,000 abandoned mines, of 
which 1,000 likely affect water quality, and over 3,000 contain 
hazardous mine openings. However, much of the data comprises legacy 
records which are often incomplete. BLM-California has not completed 
its AML inventory; many of these estimated sites are not included in 
the national AML inventory total. Of the 20,000 estimated abandoned 
mines, BLM-California has characterized or evaluated 1,820 abandoned 
mine sites, including 60 mines affecting water resources within 17 
priority watersheds, and over 120 mining districts with physical safety 
hazards. BLM AML program funding is being used to further efforts at 
identifying AML sites, and addressing the highest priority remediation 
work.
    The problem of physical hazards is equally important given 
California's large population. Urban sprawl and increased recreation on 
public lands have put more people at risk from AML hazards. The sites 
with the highest potential for harm to public health and safety have 
already been identified by the various Federal, State, and Tribal 
partners and are being addressed with existing resources. In California 
during 2009, there have been at least two AML-related deaths on the 
public lands. However, significant progress is being made to address 
physical hazards as well. Nearly 300 priority physical safety hazard 
sites in California have been secured in the past few years, and dozens 
more are scheduled to be closed in 2010.
USGS Study of Mining-Related Mercury Contamination in California
    The principal types of abandoned mines responsible for mercury 
contamination in California are mercury mines and gold mines.
    California's Coast Range was the location of several of the most 
productive mercury mines in North America. Mercury mining took place in 
California between 1846 and 1981, resulting in production of about 75% 
of the total mercury production in North America.
    The processing of gold ores by mercury amalgamation prior to 1920, 
when cyanide treatment became the dominant method used for gold 
extraction, led to the release of additional millions of pounds of 
mercury to the environment.
    A key aspect of mercury geochemistry is the formation of 
methylmercury, a potent neurotoxin. Methylmercury concentrations tend 
to increase systematically as one moves up the food chain. A 
potentially harmful pathway of mercury exposure for people and wildlife 
is through consumption of top predator fish, such as freshwater bass 
species.
    A major focus of the research done by USGS on mercury in California 
and elsewhere in the United States in the past decade has been 
determining the environmental factors that control the methylation of 
mercury in various environments. Wetland environments are well known to 
be important places for mercury methylation, and the USGS, in 
cooperation with State partners, has studied this phenomenon. A theme 
that has emerged from these studies and related work elsewhere is that 
methylmercury concentrations tend to be higher in seasonal wetlands, 
such as floodplains and high marsh areas that are only wetted a few 
times per year, compared with permanent wetlands and low marsh areas 
that do not dry out completely. Additional research is needed to 
improve understanding of mercury cycling in wetlands, which should help 
resource managers to manage mercury in the context of wetland 
restoration efforts in sensitive ecosystems.
California's Partnerships
    The BLM and other public agencies recognize that AMLs create 
numerous hazards and the BLM is working cooperatively with our partners 
to address them. BLM-California collaborates with more than 20 Federal, 
state and local agencies, as well as private organizations and industry 
to address AML hazards. One of our primary partners is the California 
Department of Conservation's Office of Reclamation. As part of the 
BLM's 2009 National Reclamation and Sustainable Mineral Development 
Awards, the Department of Conservation's efforts were recognized by BLM 
Director Robert Abbey recently in Washington, D.C. as a recipient of 
the BLM's 2009 ``Fix a Shaft Today'' award.
    Through partnerships such as these, the BLM has achieved several 
successes in California. For example, the remediation of the Boston 
Mine's sluice tunnel in Northern California, identified by the U.S. 
Geological Survey as a mercury contamination site, was recognized with 
an ``Environmental Achievement Award'' from the U.S. Department of the 
Interior's Office of Environmental Policy and Compliance. Agency 
efforts to identify and mitigate physical safety hazards at Red 
Mountain in Kern County have progressed significantly over the past two 
years. With the help of an industry partner, the BLM has completed 
fencing, backfilling, and building covers to secure over 80 mine shafts 
and deep trench sites near this populated and high-use recreational 
area.
    The BLM meets frequently with the State Water Board, the Department 
of Conservation AML Unit, the U.S. Forest Service AML Program, the 
California Department of Toxic Substance Control, and others to 
discuss, collaborate on, and rank AML sites. In addition, the BLM has 
worked with Federal and State partners, as well as locally based 
organizations, to hold public workshops to promote AML awareness.
Conclusion
    Mr. Chairman, the challenges presented by abandoned mines are 
immense, both here in California and across the nation. The BLM 
recognizes and understands these challenges and has made it a priority 
to continue to improve its AML program. With the help of our partners 
in California, who are known for innovative solutions, we are making 
progress and are committed to making the AML program in California a 
success. Thank you and I am happy to answer any questions.
[GRAPHIC] [TIFF OMITTED] 53883.012

                                 .eps__
                                 
 Appendix: Mercury Contamination in California Watersheds Affected by 
        Abandoned Mine Lands--Reference Cited and Publications by the 
        U.S. Geological Survey, 1999-2009
Outline:
A.  General Reports on Mercury and Abandoned Mine Lands in California
B.  Abandoned Mercury Mines--California Coast Ranges and Trinity 
Mountains
        1)  Upper Cache Creek watershed (Clear Lake and Sulphur Bank 
        Mercury Mine)
        2)  Lower Cache Creek watershed (Yolo County)
        3)  Other North Coast watersheds (Lake, Napa, Solano, and 
        Trinity Counties)
        4)  Central Coast watersheds (including New Idria Mine)
C. Abandoned Gold Mines--Sierra Nevada and Klamath Mountains
        1)  American River watershed (Sierra Nevada)
        2)  Bear River watershed (Sierra Nevada)
        3)  Yuba River watershed (Sierra Nevada)
        4)  Clear Creek watershed (western Shasta County)
D.  Downstream Environments--Mercury Loads, Methylation, and Toxicity 
to Wildlife
        1)  Sacramento River
        2)  Sacramento-San Joaquin Delta and Yolo Bypass
        3)  San Francisco Bay
E.  General USGS Publications on Mercury Geochemistry, Speciation, 
Bioaccumulation, and Ecotoxicology
F.  USGS Web Sites with Information on Mercury and Abandoned Mine Lands
/______________________________________________________________________
A.  General Reports on Mercury and Abandoned Mine Lands in California

Alpers, C.N., Eagles-Smith, C., Foe, C., Klasing, S., Marvin-
        DiPasquale, M.C., Slotton, D.G., and Windham-Myers, L., 2008, 
        Mercury conceptual model. Sacramento, Calif.: Delta Regional 
        Ecosystem Restoration Implementation Plan, 62 p.: 
        http://www.science.calwater.ca.gov/pdf/drerip/
        DRERIP_mercury_conceptual_model_final_012408.pdf
Alpers, C.N., Hunerlach, M.P., May, J.T., and Hothem, R.L., 2005, 
        Mercury contamination from historical gold mining in 
        California, U.S. Geological Survey Fact Sheet 2005-3014, 6 p. 
        http://water.usgs.gov/pubs/fs/2005/3014/
Ashley, R.P., 2002, Geoenvironmental model for low-sulfide gold-quartz 
        veins, In Seal, R.R. II, and Foley, N.K., eds., Progress on 
        Geoenvironmental Models for Selected Mineral Deposit Types. 
        U.S. Geological Survey Open-File Report OF 02-195, p. 176-195. 
        http://pubs.usgs.gov/of/2002/of02-195/
Balistrieri, L.S., Foster, A.L., Gough, L.P., Gray, Floyd, Rytuba, 
        J.J., and Stillings, L.L., 2007, Understanding metal pathways 
        in mineralized ecosystems: U.S. Geological Survey Circular 
        1317, 12 p. http://pubs.usgs.gov/circ/2007/c1317/
Hunerlach, M.P, and Alpers, C.N., 2003, Mercury contamination from 
        hydraulic gold mining in the Sierra Nevada, California, in 
        Gray, J.E., ed., Geologic Studies of Mercury by the U.S. 
        Geological Survey, U.S. Geological Survey Circular 1248, p. 23-
        27. http://pubs.usgs.gov/circ/2003/c1248/
Rytuba, J.J., 2000, Mercury mine drainage and processes that control 
        its environmental impact: Science of the Total Environment, v. 
        260, p. 57-71.
Rytuba, J.J., 2000, Sources of mercury from mineral deposits, In 
        Grosse, D., ed., Assessing and managing mercury from historic 
        and current mining activities, U.S. EPA Office of Research and 
        Development, Proceedings, November 28-30, 2000 p. 11-16.
Rytuba, J.J., 2002, Mercury geoenvironmental models, In Seal, R.R. II, 
        and Foley, N.K., eds., Progress on Geoenvironmental Models for 
        Selected Mineral Deposit Types. U.S. Geological Survey Open-
        File Report OF 02-195, p. 161-175. http://pubs.usgs.gov/of/
        2002/of02-195/
Rytuba, J.J., 2003, Environmental impact of mercury mines in the Coast 
        Ranges, California, In Gray, J.E., ed., Geologic Studies of 
        Mercury by the U.S. Geological Survey, U.S. Geological Survey 
        Circular 1248, p. 13-17. http://pubs.usgs.gov/circ/2003/c1248/
Rytuba, J.J., 2003, Mercury from mineral deposits and potential 
        environmental impact: Environmental Geology, v. 43, p. 326-338. 
        http://link.springer-ny.com/link/service/journals/00254/
        contents/02/00629/paper/ s00254-002-0629-5ch110.html
Rytuba, J.J., 2005, Geogenic and mining sources of mercury to the 
        environment, In Parsons M.B., and Percival J.B., eds., Mercury: 
        Sources, Measurements, Cycles, and Effects: Mineralogical 
        Association of Canada Short Course, v. 34, p. 21-41.
Rytuba, J.J., and Enderlin, D.A., 1999, Geology and environmental 
        geochemistry of mercury and gold deposits in the northern part 
        of the California Coast Range mercury mineral belt: California 
        Division of Mines and Geology Special Publication 119, p. 214-
        234.
B.  Abandoned Mercury Mines--California Coast Ranges and Trinity 
Mountains

        1)  Upper Cache Creek watershed (Clear Lake and Sulphur Bank 
        Mercury Mine)

Anderson, D.W., Suchanek, T.H., Eagles-Smith, C.A., and Cahill., T., 
        2008, Mercury residues in ospreys and grebes in a mine-
        dominated ecosystem: Clear Lake, California: Ecological 
        Applications, v. 18(8) Supplement, p. A227-A238. http://
        www.esajournals.org/toc/ecap/18/sp8
Eagles-Smith, C.A., Suchanek, T.H., Colwell, A.E., Anderson, N.L., and 
        Moyle, P.B., 2008, Changes in fish diets and food web mercury 
        bioaccumulation induced by an invasive planktivorous fish: 
        Ecological Applications, v. 18(8) Supplement, p. A213-A226. 
        http://www.esajournals.org/toc/ecap/18/sp8
Eagles-Smith, C.A., Suchanek, T.H., Colwell, A.E., and Anderson, N.L., 
        2008, Mercury trophic transfer in a eutrophic lake: the 
        importance of habitat-specific foraging: Ecological 
        Applications, v. 18(8) Supplement, p. A196-A212. http://
        www.esajournals.org/toc/ecap/18/sp8
Lowry, G.V., Shaw, S., Kim, C.S., Rytuba, J.J., and Brown Jr., G.E., 
        2004, Macroscopic and microscopic observations of particle-
        facilitated mercury transport from New Idria and Sulphur Bank 
        mercury mine tailings: Environmental Science and Technology, v. 
        38(19), p. 5101-5111.
Osleger, D.A., Zierenberg, R.A., Suchanek, T.H., Stoner, J.S., Morgan, 
        S., and Adam, D.P., 2008, Clear Lake sediments: anthropogenic 
        changes in physical sedimentology and magnetic response: 
        Ecological Applications, v. 18(8) Supplement, p. A239-A256. 
        http://www.esajournals.org/toc/ecap/18/sp8
Richerson, P.J., Suchanek, T.H., Zierenberg, R., Osleger, D., Heyvaert, 
        A., Slotton, D., Eagles-Smith, C.A., and Vaugh, C., 2008, 
        Anthropogenic stressors and changes in the Clear Lake ecosystem 
        as recorded in sediment cores: Ecological Applications, v. 
        18(8) Supplement, p. A257-A283. http://www.esajournals.org/toc/
        ecap/18/sp8
Suchanek, T.H., 2008, Special Issue - Mercury cycling and 
        bioaccumulation in a mine-dominated aquatic ecosystem: Clear 
        Lake, California: Ecological Applications, v. 18(8) Supplement, 
        p. A1-A2. http://www.esajournals.org/toc/ecap/18/sp8
Suchanek, T.H., Cooke, J., Keller, K., Jorgensen, S., Richerson, P.J., 
        Eagles-Smith, C.A., Harner, E.J., and Adam, D.P., 2009, A mass 
        balance mercury budget for a mine-dominated lake: Clear Lake, 
        California: Water, Air and Soil Pollution, v. 196, p. 51-73. 
        http://www.esajournals.org/toc/ecap/18/sp8
Suchanek, T.H., Eagles-Smith, C.A., Slotton, D.G., Harner, E.J., 
        Colwell, A.E., Anderson, N.L., Mullen, L., Flanders, J., Adam, 
        D., and McElroy, K., 2008, Spatio-temporal trends of mercury in 
        fish from a mine-dominated ecosystem at Clear Lake, California: 
        individual, species, and population trends: Ecological 
        Applications, v. 18(8) Supplement, p. A177-A195. http://
        www.esajournals.org/toc/ecap/18/sp8
Suchanek, T.H., Eagles-Smith, C.A., Slotton, D.G., Harner, E.J., Adam, 
        D., Colwell, A.E., Anderson, N.L., and Woodward, D., 2008, 
        Mine-derived mercury: effects on lower trophic species in Clear 
        Lake, California. Ecological Applications, v. 18(8) Supplement, 
        p. A158-A176. http://www.esajournals.org/toc/ecap/18/sp8
Suchanek, T.H., Eagles-Smith, C.A., Harner, E.J., and Adam, D., 2008, 
        Mercury in abiotic compartments of Clear Lake, California: 
        human health and ecotoxicological implications. Ecological 
        Applications, v. 18(8) Supplement, p. A128-A157. http://
        www.esajournals.org/toc/ecap/18/sp8
Suchanek, T.H., Eagles-Smith, C.A., Harner, E.J., 2008, Is Clear Lake 
        methylmercury decoupled from bulk mercury loading? Implications 
        for lake management and TMDL implementation: Ecological 
        Applications, v. 18(8) Supplement, p. A107-A127. http://
        www.esajournals.org/toc/ecap/18/sp8
Suchanek, T.H., Richerson, P.J., Nelson, D.C., Eagles-Smith, C.A., 
        Anderson, D.W., Cech, Jr., J.J., Zierenberg, R., Schladow, G., 
        Mount, J.F., McHatton, S.C., Slotton, D.G., Webber, L.B., 
        Swisher, B.J., and Sexton, M., 2003, Evaluating and managing a 
        multiply stressed ecosystem at Clear Lake, California: A 
        holistic ecosystem approach. In: D.J. Rapport, W.L. Lasley, 
        D.E. Rolston, N.O. Nielsen, C.O. Qualset, and A.B. Damania 
        (eds.) Managing for Healthy Ecosystems, Lewis Publishers, Boca 
        Raton, Florida USA, Chapter 121, p. 1239-1271,
Suchanek, T.H., Richerson, P.J., Zierenberg, R.A., Eagles-Smith, C.A., 
        Slotton, D.G., Harner, E.J., Osleger, D.A., Anderson, D.W., 
        Cech Jr., J.J., Schladow, S.G., Colwell, A.E., Mount, J.F., 
        King, P.S., Adam, D.P., and McElroy, K.J., 2008. The legacy of 
        mercury cycling from mining sources in an aquatic ecosystem: 
        from ore to organism: Ecological Applications, v. 18(8) 
        Supplement, p. A12-A28. http://www.esajournals.org/toc/ecap/18/
        sp8
Weiner, J.G., and Suchanek, T.H., 2008, The basis for ecotoxicological 
        concern in aquatic ecosystems contaminated by historical 
        mercury mining: Ecological Applications, v. 18(8) Supplement, 
        p. A3-A11. http://www.esajournals.org/toc/ecap/18/sp8

        2)  Lower Cache Creek watershed (Yolo County)

Domagalski, J.L., Alpers, C.N., Slotton, D.G., Suchanek, T.H., Ayers, 
        S.M., 2003, Mercury and methylmercury concentrations and loads 
        in the Cache Creek Watershed, California, January 2000 through 
        May 2001: U.S. Geological Survey Water-Resources Investigations 
        Report 03-3047, 105 p. http://loer.tamug.tamu.edu/calfed/
        Report/Final/USGSCacheloadings.pdf
Domagalski, J.L., Alpers, C.N., Slotton, D.G., Suchanek, T.H., Ayers, 
        S.M., 2004, Mercury and methylmercury concentrations and loads 
        in the Cache Creek Watershed, California: Science of the Total 
        Environment. v. 327, p. 215-237. http://loer.tamug.tamu.edu/
        calfed/Report/Publications/Cachestoen.pdf
Domagalski, J.L, Slotton, D.G., Alpers, C.N., Suchanek, T.H., 
        Churchill, R., Bloom, N., Ayers, S.M., and Clinkenbeard, J., 
        2003, Summary and synthesis of mercury studies in the Cache 
        Creek watershed, California, 2000-2001: U.S. Geological Survey 
        Water--Resources Investigations Report 03-4355, 30 p. http://
        water.usgs.gov/pubs/wri/wri034335/
Holloway, J.M., Goldhaber, M.B., and Morrison, J.M., 2009, Geomorphic 
        controls on mercury accumulation in soils from a historically 
        mined watershed, Central California Coast Range, USA: Applied 
        Geochemistry, v. 24, p. 1538-1548.
Labiosa, W.B., Leckie, J.O., Mumley, T., Rytuba, J.J., and Bernknopf, 
        R., 2003, A decision analysis approach to TMDL implementation 
        decisions: mercury TMDLs in the San Francisco Bay Area: 
        Proceedings of TMDL 2003 Specialty Conference, 23 p.
Labiosa, W.B., Leckie, J.O., Shachter, R., Freyberg, D., and Rytuba, 
        J.J., 2005, Incorporating uncertainty in watershed management 
        decision-making: a mercury TMDL case study. ASCE Watershed 
        Management Conference, Managing Watersheds for Human and 
        Natural Impacts: Engineering, Ecological, and Economic 
        Challenges, Williamsburg, VA, July19-22, 2005.
Marvin Di-Pasquale, M., Alpers, C.N., and Fleck, J.A., 2009, Mercury, 
        methylmercury, and other constituents in sediment and water 
        from seasonal and permanent wetlands in the Cache Creek 
        Settling Basin and Yolo Bypass, Yolo County, California, 2005-
        06: U.S. Geological Survey, Open File Report 2009-1182, 69 p. 
        http://pubs.usgs.gov/of/2009/1182/
Slowey, A.J., and Rytuba, J.J., 2008, Mercury release from the Rathburn 
        Mine, Petray Mine, and Bear Valley saline springs, Colusa 
        County, California 2004-2006, U.S. Geological Survey Open-File 
        Report 2008-1179, 49 p. http://pubs.usgs.gov/of/2008/1179/
Wood, A.W., Bernknopf, R., Rytuba, J.J., Labiosa, W.B., Singer, D.A., 
        and Kapla, R., Champion, R., 2004, Incorporating uncertainty 
        into mercury-offset decisions with a probabilistic network for 
        National Pollutant Discharge Elimination System permit holders: 
        An interim report: U.S. Geological Survey Open-File Report 
        2004-1408, 75 p. http://pubs.usgs.gov/of/2004/1408/
Wood, A.W., Bernknopf, R., Rytuba, J.J., Singer, D.A., and Champion, 
        R., 2005, Offset-based decision support models for mitigating 
        mercury sources in the Cache Creek watershed, north central 
        California: Proceedings of the Water Environment Federation, 
        no. 3, p. 1496-1516.

        3)  Other North Coast watersheds (Lake, Napa, Solano, and 
        Trinity Counties)]

May, J.M., Hothem, R.L., and Alpers, C.N., 2005, Mercury concentrations 
        in fishes from select water bodies in Trinity County, 
        California, 2000-2002, U.S. Geological Survey Open-File Report 
        2005-1321, 14 p. http://pubs.usgs.gov/of/2005/1321/
Rytuba, J.J., Hothem, R.L., May, J.T., Kim, C.S., Lawler, D., 
        Goldstein, D., and Brussee, B.E., 2009, Environmental impact of 
        the Helen, Research, and Chicago mercury mines on water, 
        sediment, and biota in upper Dry Creek watershed, Lake County, 
        California: U.S. Geological Survey Open-File Report 2008-1382, 
        59 p. http://pubs.usgs.gov/of/2008/1382/
Rytuba, J.J., Hothem, R.L., May, J.T., Kim, C.S., Lawler, D., and 
        Goldstein, D., 2009, Environmental impact of the Contact and 
        Sonoma mercury mines on water, sediment, and biota in Anna 
        Belcher and Little Sulphur Creek watersheds, Sonoma County, 
        California: U.S. Geological Survey Open-File Report 2008-1381, 
        76 p. http://pubs.usgs.gov/of/2008/1381/
Slowey, A.J., Rytuba, J.J., Hothem, R.L., and May, J.T., 2007, Mercury 
        at the Oat Hill extension mine and James Creek, Napa County, 
        California: Tailings, sediment, water, and biota, 2002-2004: 
        U.S.Geological Survey Open-File Report 2007-1132, 60 p. http://
        pubs.usgs.gov/of/2007/1132/

        4)  Central Coast watersheds (including New Idria Mine)

Lowry, G.V., Shaw, S., Kim, C.S., Rytuba, J.J., and Brown Jr., G.E., 
        2004, Macroscopic and microscopic observations of particle-
        facilitated mercury transport from New Idria and Sulphur Bank 
        mercury mine tailings: Environmental Science and Technology, 38 
        (19), 5101-5111.
Rytuba, J. J., Kotlyar, B.B., Wilkerson, G., and Olson, J., 2001, 
        Geochemistry of selected mercury mine-tailings in the Parkfield 
        Mercury District, California U.S. Geological Survey Open-File 
        Report OF 01-336 15 p. http://wrgis.wr.usgs.gov/open-file/of01-
        336/
Rytuba, J.J., Miller, W.R., Crock, J.G., and Kim, C.S., 2000, Transport 
        and deposition of mercury from mine drainage and tailings in 
        watersheds with serpentinite bedrock, New Idria, California, In 
        Nriagu, J., ed., 11th Annual International Conference on Heavy 
        Metals in the Environment, University of Michigan, School of 
        Public Health, Ann Arbor, MI (CD-ROM) 6 p.

C. Abandoned Gold Mines - Sierra Nevada and Klamath Mountains

        1)  American River watershed (Sierra Nevada)

May, T.W., and Brumbaugh, W.G., 2007, Determination of total mercury in 
        fillets of sport fishes collected from Folsom and New Melones 
        Reservoirs, California, 2004: U.S. Geological Survey Open-File 
        Report 2007-1077, 8 p. http://pubs.usgs.gov/of/2007/1077/pdf/
        OFR07-1077.pdf
Saiki, M.K., Slotton, D.G., May, T.W., Ayers, S., and Alpers, C.N., 
        2004, Summary of total mercury concentrations in fillets of 
        selected sport fishes collected during 2000-03 from Lake 
        Natoma, Sacramento County, California. U.S. Geological Survey 
        Data Series 103, 21 p. http://pubs.usgs.gov/ds/ds103/
Saiki, M.K., Martin, B.A., May, T.W., and Alpers, C.N., 2005, Total 
        mercury concentrations in fillets of bluegill, redear sunfish, 
        largemouth bass, and other fishes from Lake Natoma, Sacramento 
        County, California: California Fish and Game, v. 91, no. 3, p. 
        193-206.

        2)  Bear River watershed (Sierra Nevada)

Alpers, C.N., Hunerlach, M.P., May, J.T., Hothem, R.L., Taylor, H.E., 
        Antweiler, R.C., De Wild, J.F., and Lawler, D.A., 2005, 
        Geochemical characterization of water, sediment, and biota 
        affected by mercury contamination and acidic drainage from 
        historical gold mining, Greenhorn Creek, Nevada County, 
        California, 1999-2001, U.S. Geological Survey Scientific 
        Investigations Report 2004-5251, 278 p. http://pubs.usgs.gov/
        sir/2004/5251/
Alpers, C.N., Stewart, A.R., Saiki, M.K., Marvin-DiPasquale, M.C., 
        Topping, B.R., Rider, K.M., Gallanthine, S.K., Kester, C.A., 
        Rye, R.O., Antweiler, R.C., and De Wild, J.F., 2008, 
        Environmental factors affecting mercury in Camp Far West 
        Reservoir, 2001-03. U.S. Geological Survey Scientific 
        Investigations Report 2006-5008, 358 p. http://pubs.usgs.gov/
        sir/2006/5008/
Hunerlach, M.P. Rytuba, J.J., and Alpers, C.N., 1999, Mercury 
        contamination from hydraulic placer-gold mining in the Dutch 
        Flat mining district, California, in Morganwalp, D.W., and 
        Buxton, H.T., editors, U.S. Geological Survey Toxic Substances 
        Hydrology Program--Proceedings of the Technical Meeting, 
        Charleston, South Carolina, March 8-12, 1999, U.S. Geological 
        Survey Water-Resources Investigations Report 99-4018B, p. 179-
        189. http://ca.water.usgs.gov/mercury/dutch/wrir994018b.pdf
Kuwabara, J.S., Alpers, C.N., Marvin-DiPasquale, M., Topping, B.R., 
        Carter, J.L., Stewart, A.R., Fend, S.V., Parchaso, F., Moon, 
        G.E., and Krabbenhoft, D.P., 2003, Sediment-water interactions 
        affecting dissolved-mercury distributions in Camp Far West 
        Reservoir, California, U.S. Geological Survey Water-Resources 
        Investigations Report 03-4140, 64 p. http://water.usgs.gov/
        pubs/wri/wri034140/
May, J.T., Hothem, R.L., Alpers, C.N., and Law, M.A., 2000, Mercury 
        bioaccumulation in fish in a region affected by historic gold 
        mining: The South Yuba River, Deer Creek, and Bear River 
        watersheds, California, 1999. U.S. Geological Survey Open-File 
        Report 00-367, 30 p. http://ca.water.usgs.gov/archive/reports/
        ofr00367/index.html
Saiki, M.K., Martin, B.A., May, T.W., and Alpers, C.N., 2009, Mercury 
        contamination in fish from a Sierra Nevada foothill reservoir 
        located downstream from historic gold-mining operations. 
        Environmental Monitoring and Assessment, 14 p. doi:10.1007/
        s10661-009-0836-6.
Stewart, A.R., Saiki, M.K., Kuwabara, J.S., Alpers, C.N., Marvin-
        DiPasquale, M., and Krabbenhoft, D.P., 2008, Influence of 
        plankton mercury dynamics and trophic pathways on mercury 
        concentrations of top predator fish of a mining-impacted 
        reservoir. Canadian Journal of Fisheries and Aquatic Sciences, 
        v. 65, p. 2351-2366. doi:10.1139/F08-140

        3)  Yuba River watershed (Sierra Nevada)

Alpers, C.N., Hunerlach, M.P., Marvin-DiPasquale, M.C., Antweiler, 
        R.C., Lasorsa, B.K., De Wild, J.F., and Snyder, N.P., 2006, 
        Geochemical data for mercury, methylmercury, and other 
        constituents in sediments from Englebright Lake, California, 
        2002: U.S. Geological Survey Data Series 151, 95 p. http://
        pubs.usgs.gov/ds/2006/151/
Hunerlach, M.P., Alpers, C.N., Marvin-DiPasquale, M., Taylor, H.E., and 
        De Wild, J.F., 2004, Geochemistry of fluvial sediment impounded 
        behind Daguerre Point Dam, Yuba River, California, U.S. 
        Geological Survey Scientific Investigations Report 2004-5165, 
        66 p. http://pubs.usgs.gov/sir/2004/5165/
May, J.T., Hothem, R.L., Alpers, C.N., and Law, M.A., 2000, Mercury 
        bioaccumulation in fish in a region affected by historic gold 
        mining: The South Yuba River, Deer Creek, and Bear River 
        watersheds, California, 1999. U.S. Geological Survey Open-File 
        Report 00-367, 30 p. http://ca.water.usgs.gov/archive/reports/
        ofr00367/index.html
Slotton, D.G., Ayers, S.M., Alpers, C.N., Goldman, C.R., 2004, 
        Bioaccumulation legacy of Gold Rush mercury in watersheds of 
        the Sierra Nevada of California. Third Biennial CALFED Bay-
        Delta Program Science Conference Abstracts; 2004 Oct 4-6, 
        Sacramento (CA). p. 388.

        4)  Clear Creek watershed (western Shasta County)

Ashley, R.P., and Rytuba, J.J., 2008, Mercury geochemistry of gold 
        placer tailings, sediments, bedrock, and waters in the lower 
        Clear Creek area, Shasta County, California; Report of 
        investigations, 2001-2003: U.S. Geological Survey Open-File 
        Report 2008-1122 http://pubs.usgs.gov/of/2008/1122/
Ashley, R.P., Rytuba, J.J., Rogers, R., Kotlyar, B.B., and Lawler, D., 
        2002, Preliminary report on mercury geochemistry of placer gold 
        dredge tailings, sediments, bedrock, and waters in the Clear 
        Creek Restoration Area, Shasta County, California: U.S. 
        Geological Survey Open-File Report 2002-401, 47 p. http://
        geopubs.wr.usgs.gov/open-file/of02-401/
Slowey, A.J., Rytuba, J. J., and Brown, G.E. Jr., 2005, Speciation of 
        mercury and mode of transport from placer gold mine tailings: 
        Environmental Science and Technology, v. 39, p. 1547-1554.

D.  Downstream Environments--Mercury Loads, Methylation and Toxicity to 
Wildlife

        1)  Sacramento River

Alpers, C.N., Antweiler, R.A., Taylor, H.E., Dileanis, P.D., and 
        Domagalski, J.L., 2000, Metals transport in the Sacramento 
        River, California, 1996-97. Volume 2. Interpretation of metal 
        loads. U.S. Geological Survey Water-Resources Investigations 
        Report 00-4002, 106 p. http://pubs.usgs.gov/wri/wrir00-4002/
Alpers, C.N., Taylor, H.E., and Domagalski, J.L. (eds.), 2000, Metals 
        transport in the Sacramento River, California, 1996-97. Volume 
        1. Methods and data. U.S. Geological Survey Water-Resources 
        Investigations Report 99-4286, 428 p. http://pubs.usgs.gov/wri/
        wrir_994286/
Cain, D.J., Carter, J.L., Fend, S.V., Luoma, S.N., Alpers, C.N., and 
        Taylor, H.E., 2000, Metal exposure to a benthic 
        macroinvertebrate, Hydropsyche californica, related to mine 
        drainage in the Sacramento River: Canadian Journal of Fisheries 
        and Aquatic Sciences, v. 57 (2), p. 380-390.
Domagalski, J., 1998, Occurrence and transport of total mercury and 
        methyl mercury in the Sacramento River Basin, California: 
        Journal of Geochemical Exploration, v. 64, p. 277-291.
Domagalksi, J., 2001, Mercury and methylmercury in water and sediment 
        of the Sacramento River Basin, California: Applied 
        Geochemistry, v. 16, p. 1677-1691.
Domagalski, J.L., Knifong, D.K., Dileanis, P.D., Brown, L.R., May, 
        J.T., Alpers, C.N., and Connor, V., 2000, Water Quality in the 
        Sacramento River Basin, California, 1995-98. U.S. Geological 
        Survey Circular 1215, 36 p. http://water.usgs.gov/pubs/circ/
        circ1215/
Domagalski, J.L., Dileanis, P.D., Knifong, D.L., Munday, C.M., May, 
        J.T., Dawson, B.J., Shelton J.L., and Alpers, C.N., 2000, 
        Water-quality assessment of the Sacramento River Basin, 
        California--Water-quality, sediment and tissue chemistry, and 
        biological data, 1996-1998. U.S. Geological Survey Open-File 
        Report 00-391. http://ca.water.usgs.gov/sac_nawqa/
        waterindex.html
Roth, D.A., Taylor, H.E., Domgalaski, J., Dileanis, P., Peart, D.B., 
        Antweiler, 
        R.C., and Alpers, C.N., 2001, Distribution of inorganic mercury 
        in Sacramento 
        River water and suspended colloidal sediment material. Archives 
        of 
        Environmental Contamination and Toxicology, v. 40 (2), p. 161-
        172. 
        http://www.springerlink.com/(0t302445gzv1iyjigylggx55)/app/
        home/
        contribution.asp?referrer=parentandbackto=issue,3,18;journal,45,
        221;
        linkingpublicationresults,1:100119,1

        2)  Sacramento-San Joaquin Delta and Yolo Bypass

Ackerman, J.T., Miles, A.K., and Eagles-Smith, C.A., in press, 
        Invertebrate mercury bioaccumulation in permanent, seasonal, 
        and flooded rice wetlands within California's Central Valley, 
        Science of the Total Environment.
Marvin-DiPasquale, M., and Agee, J.L., 2003, Microbial mercury cycling 
        in sediments of the San Francisco Bay-Delta: Estuaries, v. 26 
        (6), p.1517-1528.
Marvin Di-Pasquale, M., Alpers, C.N., and Fleck, J.A., 2009, Mercury, 
        methylmercury, and other constituents in sediment and water 
        from seasonal and permanent wetlands in the Cache Creek 
        Settling Basin and Yolo Bypass, Yolo County, California, 2005-
        06: U.S. Geological Survey, Open File Report 2009-1182, 69 p. 
        http://pubs.usgs.gov/of/2009/1182/

        3)  San Francisco Bay

Ackerman, J.T., and Eagles-Smith, C.A., 2006, A collaborative project 
        to study mercury levels in San Francisco Bay Waterbirds. Bay 
        Bird Review, Winter, p. 4-5.
Ackerman, J.T., and Eagles-Smith, C.A., 2007, Mercury contamination in 
        waterbirds breeding in San Francisco Bay. Sound Waves, October 
        2007, Vol. FY 2008, No. 98: 4-5.
Ackerman, J.T., and Eagles-Smith, C.A., 2007, Mercury contamination in 
        waterbirds breeding in San Francisco Bay. Tideline 27(2), p. 1-
        3.
Ackerman, J.T., Eagles-Smith, C.A., 2008, A dual life-stage approach to 
        monitoring the effects of mercury concentrations on the 
        reproductive success of Forster's terns in San Francisco Bay: 
        Administrative Report, U.S. Geological Survey, Western 
        Ecological Research Center: Davis, CA, 47 p.
Ackerman, J.T., and Eagles-Smith, C.A., 2009, Integrating toxicity risk 
        in bird eggs and chicks: using chick down feathers to estimate 
        mercury concentrations in eggs. Environmental Science and 
        Technology. v. 43, p. 2166-2172.
Ackerman, J.T., Eagles-Smith, C.A., Heinz, G.H., Wainwright-De La Cruz, 
        S.E., Takekawa, J.Y., Adelsbach, T.L., Miles, A.K., Hoffman, 
        D.J., Schwarzbach, S.E., Suchanek, T.H., and Maurer, T.C., 
        2007, Mercury in birds of the San Francisco Bay-Delta: trophic 
        pathways, bioaccumulation, and ecotoxicological risk to avian 
        reproduction. 2006 Annual Administrative Report, U.S. 
        Geological Survey, Western Ecological Research Center, Davis, 
        CA, and U.S. Fish and Wildlife Service, Environmental 
        Contaminants Division, Sacramento, CA, 44 pp.
Ackerman, J.T., Eagles-Smith, C.A., Takekawa, J.Y., Bluso, J.D., 
        Adelsbach, T.L., 2008, Mercury concentrations in blood and 
        feathers of pre-breeding Forster's terns in relation to space 
        use of San Francisco Bay habitats. Environmental Toxicology and 
        Chemistry, v. 27, p. 897-908. http://www.werc.usgs.gov/
        pubbriefs/ackermanpbmar2008b.pdf
Ackerman, J.T., Eagles-Smith, C.A., Takekawa, J.Y., Demers, S.A., 
        Adelsbach, T.L., Bluso, J.D., Miles, A.K., Warnock, N., 
        Suchanek, T.H., and Schwarzbach, S.E., 2007, Mercury 
        concentrations and space use of pre-breeding American avocets 
        and black-necked stilts in San Francisco Bay. Science of the 
        Total Environment, v. 384, p. 452-466.
Ackerman, J.T., Eagles-Smith, C.A., Takekawa, J.Y., Iverson, S.A., 
        2008, Survival of postfledging Forster's terns in relation to 
        mercury exposure in San Francisco Bay. Ecotoxicology, v. 17, p. 
        789-801.
Ackerman, J.T., Marn, C.M., and Takekawa, J.Y., 2005, Life and death on 
        a salt pond: avocets and stilts survive amidst mercury 
        pollution and invasive gulls. Tideline, v. 25(4), p. 1-3.
Ackerman, J.T., Takekawa, J.Y., Eagles-Smith, C.A., and Iverson, S.A., 
        2008, Mercury contamination and effects on survival of American 
        avocets and black-necked stilt chicks in San Francisco Bay. 
        Ecotoxicology, v. 17, p. 103-116.
Davis, J.A., Yee, D., Collins, J.N., Schwarzbach, S.E., and Luoma, 
        S.N., 2003, Potential for increased mercury accumulation in the 
        estuary food web: San Francisco Estuary and Watershed Science, 
        v. 1(1):1-36 (art 4).
Eagles-Smith, C.A., and Ackerman, J.T., 2007, Mercury poses risks to 
        waterbirds in San Francisco Bay. Regional Monitoring Program 
        Update, December 2007, p. 1-4.
Eagles-Smith, C.A., and Ackerman, J.T., 2007, Mercury may pose 
        substantial risks to breeding birds in San Francisco Bay. In: 
        San Francisco Estuary Institute. 2007. The Pulse of the 
        Estuary: Monitoring and Managing Water Quality in the San 
        Francisco Estuary. SFEI Contribution 532. San Francisco Estuary 
        Institute, Oakland, CA.
Eagles-Smith, C.A., and Ackerman, J.T., in press, Rapid changes in 
        small fish mercury concentrations in estuarine wetlands: 
        implications for wildlife risk and monitoring programs: 
        Environmental Science and Technology.
Eagles-Smith, C.A., Ackerman J.T., Adelsbach, T.L., Takekawa, J.Y., 
        Miles A.K., and Keister R.A., 2008, Mercury correlations among 
        six tissues for four waterbird species breeding in San 
        Francisco Bay: Environmental Toxicology and Chemistry., v. 27, 
        p. 2136-2153.
Eagles-Smith, C.A., Ackerman, J.T., De La Cruz, S.W.D., and Takekawa, 
        J.Y., 2009, Mercury bioaccumulation and risk to three 
        waterbirds foraging guilds is influenced by foraging ecology 
        and breeding stage: Environmental Pollution, v. 157, p. 1993-
        2002.
Eagles-Smith, C.A., Ackerman, J.T., Yee, J., and Adelsbach, T.L., 2009, 
        Mercury demethylation in waterbird livers: dose-response 
        thresholds and differences among species: Environmental 
        Toxicology and Chemistry, v. 28, p. 568-577.
Hornberger, M.I., Luoma, S., Van Geen, A., Fuller, C., and Anima, R., 
        1999, Historical trends of metal in the sediment of San 
        Francisco Bay, CA: Marine Chemistry, v. 64, p. 39-55.
Leatherbarrow, J.E., McKee, L.J., Schoellhamer, D.H., Ganju, N.K., and 
        Flegal, A.R., 2005, Concentrations and loads of organic 
        contaminants and mercury associated with suspended sediment 
        discharged to San Francisco Bay from the Sacramento-San Joaquin 
        River Delta, California RMP Technical Report. SFEI Contribution 
        405: San Francisco Estuary Institute, p. http://www.sfei.org/
        rmp/Technical_Reports/MallardIslandReport_2002_03.pdf
Marvin-DiPasquale, M., Agee, J.L., Bouse, R., and Jaffe, B., 2003, 
        Microbial cycling of mercury in contaminated pelagic and 
        wetland sediments of San Pablo Bay, California: Environmental 
        Geology, v. 43, p. 260-267.
Marvin-DiPasquale, M., and Cox, M.H., 2007, Legacy mercury in Alviso 
        Slough, South San Francisco Bay, California: Concentration, 
        speciation and mobility. U.S. Geological Survey, Open-File 
        Report 2007-1240, 98 p. http://pubs.usgs.gov/of/2007/1240/
Schwarzbach, S.E., Suchanek, T.H., Heinz, G.H., Ackerman, J.T., Eagles-
        Smith, C.A., Adelsbach, T.L., Takekawa, J.Y., Miles, A.K., 
        Hoffman, D.J., Wainwright-De La Cruz, S.E., Spring, S.E., 
        Ricca, M.A., and Maurer, T.C., 2005, Mercury in birds of the 
        San Francisco Bay-Delta: trophic pathways, bioaccumulation and 
        ecotoxicological risk to avian reproduction. 2005 Annual 
        Report, U.S. Geological Survey, Western Ecological Research 
        Center, and U.S. Fish and Wildlife Service, Sacramento Fish and 
        Wildlife Office, 17p.
Topping, B.R., Kuwabara, J.S., Marvin-Dipasquale, M., Agee, J.L., Kieu, 
        L.H., Flanders, J.R., Parchaso, F., Hager, S.W., Lopez, C.B., 
        and Krabbenhoft, D.P., 2004, Sediment remobilization of mercury 
        in South San Francisco Bay, California: U.S. Geological Survey 
        Scientific Investigations Report 2004-5196, 59 p. http://
        pubs.usgs.gov/sir/2004/5196/
Windham-Myers, L, Marvin-DiPasquale, M, Krabbenhoft, DP, Agee, JL, Cox, 
        MH, Heredia-Middleton, P, Coates, C, Kakouros, E., 2009, 
        Experimental removal of wetland emergent vegetation leads to 
        decreased methylmercury production in surface sediment: Journal 
        of Geophysical Research, v. 114, G00C05, doi:10.1029/
        2008JG000815
Yee, D., Collins, J., Grenier, L., Takekawa, J., Schwarzbach, S., 
        Marvin-DiPasquale, M., Krabbenhoft, D., Evens, J., 2007, 
        Mercury and methylmercury processes in North San Francisco Bay 
        tidal wetland ecosystems. Final report for project #ERP-02D-
        P64, submitted to the California Bay-Delta Authority.

E.  General USGS Publications on Mercury Geochemistry, Speciation, 
Bioaccumulation, and Ecotoxicology

Bloom, N., Bollen, A., Briscoe, M., Hall, G., Horvat, M., Kim, C., 
        Lasorsa, B., Marvin-DiPasquale, M., and Parker, J., 2006, 
        International Solid Phase Mercury Speciation Exercise (ISPMSE): 
        Introduction and preliminary results. In: Mercury 2006 
        Abstracts Book; Eighth International Conference on Mercury as a 
        Global Pollutant; 2006 Aug 6-11; Madison (WI).
Brigham, M.E., Wentz, D.A., Aiken, G.R., and Krabbenhoft, D.P., 2009, 
        Mercury cycling in stream ecosystems. 1. Water column chemistry 
        and transport: Environmental Science and Technology, v. 43 (8), 
        p. 2720-2725.
Chasar, L.C., Scudder, B.C., Stewart, A.R., Bell, A.H., and Aiken, 
        G.R., 2009, Mercury cycling in stream ecosystems. 3. Trophic 
        dynamics and methylmercury bioaccumulation: Environmental 
        Science and Technology, v. 43 (8), p. 2733-2739.
Coolbaugh, M.F., Gustin, M.S., and Rytuba, J.J., 2002, Annual emissions 
        of mercury to the atmosphere from natural sources in Nevada and 
        California: Environmental Geology, v. 42, p. 338-349.
Engle, M.A., Gustin, M.S., Goff, F., Counce, D.A., Janik, C.J., 
        Bergfeld, D., and Rytuba, J.J., 2006, Atmospheric mercury 
        emissions from substrates and fumaroles associated with three 
        hydrothermal systems in the western United States: Journal of 
        Geophysical Research, v. 111, D17304, doi: 10.1029/
        2005JD006563.
Gustin M.S., Coolbaugh M.F., Engle M., Fitzgerald B., Lindberg S., 
        Nacht D., Rytuba, J.J., and Zehner, R., 2000, Atmospheric 
        mercury emissions from mine wastes, U.S. EPA Office of Research 
        and Development, Assessing and managing mercury from historic 
        and current mining activities, Proceedings, p. 119-124.
Gustin, M.S., Coolbaugh, M., Engle, M., Fitzgerald, B. Keislar, R., 
        Lindberg, S.E., Nacht, D., Quashnick, J., Rytuba, J.J., Sladek, 
        C., Zhang, H., and Zehner, R., 2003, Atmospheric mercury 
        emissions from mine wastes and surrounding geologically 
        enriched terrains: Mercury special issue, Environmental 
        Geology, 43, 339-351 http://link.springer-ny.com/link/service /
        journals/00254/contents/02/00629/paper/ s00254-002-0629-
        5ch110.html
Haitzer, M., Aiken, G.R., Ryan, J.N., 2002, Binding of mercury(II) to 
        dissolved organic matter: the role of the mercury-to-DOM 
        concentration ratio: Environmental Science and Technology, v. 
        36, p. 3564-3570.
Haitzer, M, Aiken, G.R., Ryan, J.N., 2003, Binding of mercury(II) to 
        aquatic humic substances: influence of pH and source of humic 
        substances: Environmental Science and Technology, v. 37, p. 
        2436-2441.
Harris, R., Krabbenhoft, D.P., Mason, R., Murray, M.W., Reash, R., and 
        Saltman, T., (eds.), 2007, Ecosystem Responses to Mercury 
        Contamination: Indicators of Change; CRC Press: Boca Raton, FL.
Harris, R.C., Russ, J.,W., Amyot, M., Babiarz, C.L., Beaty, K.G., 
        Blanchfield, P.J., Bodaly, R.A., Branfireun, B.A., Gilmour, 
        C.C., Graydon, J.A., Heyes, A., Hintelmann, H., Hurley, J.P., 
        Kelly, C.A., Krabbenhoft, D.P., Lindberg, S.E., Mason, R.P., 
        Paterson, M.J., Podemski, C.L., Robinson, A., Sandilands, K.A., 
        Southworth, G.R., St. Louis, V.L., and Tate, M.T., 2007, Whole-
        ecosystem study shows rapid fish-mercury response to changes in 
        mercury deposition. Proceedings of the National Academy of 
        Sciences, v. 104, 16586-16591.
Heinz, G.H., Hoffman D.J., Klimstra J.D., Stebbins K.R., Kondrad S.L., 
        and Erwin C.A., 2009, Species differences in the sensitivity of 
        avian embryos to methylmercury: Archives of Environmental 
        Contamination and Toxicology, v. 56, p. 129-138.
Henny C.J., Hill E.F., Hoffman D.J., Spalding M.G., and Grove R.A., 
        2002, Nineteenth century mercury: Hazard to wading birds and 
        cormorants of the Carson River, Nevada: Ecotoxicology, v. 11, 
        p. 213-231.
Kim, C.S., Bloom, N.S., Rytuba, J.J., and Brown Jr., G.E., 2003, 
        Mercury speciation by X-ray Absorption Fine Structure 
        spectroscopy and sequential chemical extractions: A comparison 
        of speciation methods: Environmental Science and Technology, 37 
        (22), 5102-5108.
Kim, C.S., Brown, Jr., G.E., and Rytuba, J.J., 2000, Characterization 
        and speciation of mercury-bearing mine wastes using X-ray 
        absorption spectroscopy (XAS): Science of the Total 
        Environment, v. 261, p. 157-168.
Kim, C.S., Brown Jr., G.E., and Rytuba, J.J., 2004, Geological and 
        anthropogenic factors influencing mercury speciation in mine 
        wastes: an EXAFS spectroscopy study: Applied Geochemistry, 19 
        (3), 379-393.
Kim, C.S., Brown Jr., G.E., and Rytuba, J.J., 2004, EXAFS study of 
        mercury (II) sorption to Fe- and Al-(hydr)oxides I. Effects of 
        pH: Journal of Colloid and Interface Science, v. 271, p. 1-15
Kim, C.S., Brown Jr., G.E., and Rytuba, J.J., 2004, EXAFS Study of 
        mercury (II) sorption to Fe- and Al-(hydr)oxides II. Effects of 
        chloride and sulfate: Journal of Colloid and Interface Science, 
        v. 270, p. 9-20.
Kim, C.S., Rytuba, J.J., and Brown, G.E. Jr., 1999, Utility of EXAFS in 
        speciation and characterization of mercury-bearing mine wastes: 
        Journal of Synchrotron Radiation, v. 6, p. 648-650.
Krabbenhoft, D.P., and Schuster, P.F., 2002, Glacial ice cores reveal a 
        record of natural and anthropogenic atmospheric mercury 
        deposition for the last 270 years: U.S. Geological Survey Fact 
        Sheet FS-051-02, 2 p. http://toxics.usgs.gov/pubs/FS-051-02/
Krabbenhoft, D.P., Wiener, J.G., Brumbaugh, W.G., Olson, M.L., De Wild 
        J.F., and Sabinal, T.J., 1999, A national pilot study of 
        mercury contamination of aquatic ecosystems along multiple 
        gradients. In: Morganwalp, D.W., and Buxton, H.T., editors. 
        U.S. Geological Survey Toxic Substances Hydrology Program--
        Proceedings of the Technical Meeting; Charleston (SC); 1999 Mar 
        8-12; Volume 2 of 3--Contamination of Hydrologic Systems and 
        Related Ecosystems, U.S. Geol Surv Water-Resources Invest 
        Report 99-4018B. p. 147-160. http://toxics.usgs.gov/pubs/wri99-
        4018/Volume2/sectionB/2301_Krabbenhoft/
Marvin-DiPasquale, M., Agee, J., McGowan, C., Oremland, R.S., Thomas, 
        M., Krabbenhoft, D., and Gilmour, C., 2000, Methyl-mercury 
        degradation pathways: a comparison among three mercury-impacted 
        ecosystems: Environmental Science and Technology, v. 34 (23), 
        p. 4908-4916.
Marvin-DiPasquale, M., Hall, B.D., Flanders, J.R., Ladizinski, N., 
        Agee, J.L., Kieu, L.H., Windham-Myers, L., 2006, Ecosystem 
        investigations of benthic methylmercury production: a tin-
        reduction approach for assessing the inorganic mercury pool 
        available for methylation. In: Mercury 2006 Abstracts Book; 
        Eighth International Conference on Mercury as a Global 
        Pollutant; 2006 Aug 6-11; Madison (WI).
Marvin-DiPasquale, M., Lutz, M.A., Brigham, M.E., Krabbenhoft, D.P., 
        Aiken, G.R., Orem, W.H., and Hall, B.D., 2009, Mercury cycling 
        in stream ecosystems. 2. Benthic methylmercury production and 
        bed sediment--pore water partitioning: Environmental Science 
        and Technology, v. 43 (8), p. 2726-2732.
Ravichandran, M., Aiken, G.R., Ryan, J.N., and Reddy, M.M., 1999, 
        Inhibition of precipitation and aggregation of metacinnabar 
        (mercuric sulfide) by dissolved organic matter isolated from 
        the Florida Everglades: Environmental Science and Technology, 
        v. 33, p. 1418-1423.
Reddy, M.M., and Aiken, G.R., 2000, Fulvic acid-sulfide ion competition 
        for mercury ion binding in the Florida Everglades: Water Air 
        and Soil Pollution, v.132, p. 89-104.
Schuster, P.F., Krabbenhoft, D.P., Naftz, D.L., Cecil, D., Olson, M.L., 
        DeWild, J.F., Susong, D.D., Green, J.R., and Abbott, M.L., 
        2002, Atmospheric mercury deposition during the last 270 years: 
        a glacial ice core record of natural and anthropogenic sources: 
        Environmental Science and Technology, v. 36, 2303-2310.
Schuster, P.F., Shanley, J.B., Marvin-DiPasquale, M., Reddy, M.M., 
        Aiken, G., Roth, D.A., Taylor, H.E., Krabbenhoft, D.P., and 
        DeWild, J.F., 2008, Mercury and organic carbon dynamics during 
        runoff episodes from a Northeastern USA watershed: Water, Air, 
        and Soil Pollution, v. 187, p. 89-108.
Scudder, B.C., Chasar, L.C., Wentz, D.A., Bauch, N.J., Brigham, M.E., 
        Moran, P.W., and Krabbenhoft, D.P., 2009, Mercury in fish, bed 
        sediment, and water from streams across the United States, 
        1998-2005: U.S. Geological Survey Scientific Investigations 
        Report 2009-5109, 74 p.
Slowey, A.J., and Brown Jr., G.E., 2007, Transformations of mercury, 
        iron, and sulfur during the reductive dissolution of iron 
        oxyhydroxide by sulfide: Geochimica et Cosmochimica Acta, v. 71 
        (4), p. 877-894.
Slowey, A.J., Johnson, S.B., Rytuba, J.J., and Brown, G.E. Jr., 2005, 
        Role of organic acids in promoting colloidal transport of 
        mercury from mine tailings: Environmental Science and 
        Technology, 39 (20), 7869-7874.
Smith, C.N., Kesler, S.E., Blum, J.D., and Rytuba, J.J., 2008, Isotope 
        geochemistry of mercury in source rocks, mineral deposits and 
        spring deposits of the California Coast Ranges, USA: Earth and 
        Planetary Science Letters, v. 269, p. 398-406.
Waples, J.S., Nagy, K.L., Aiken, G.R., Ryan, J.N., 2005, Dissolution of 
        cinnabar (HgS) in the presence of natural organic matter: 
        Geochimica et Cosmochimica Acta, v. 69, p.1575-1588.
Wiener, J.G., Gilmour, C.C., and Krabbenhoft, D.P., 2003, Mercury 
        Strategy for the Bay-Delta Ecosystem: A Unifying Framework for 
        Science, Adaptive Management, and Ecological Restoration: Final 
        Report to the California Bay Delta Authority, 67 p. http://
        science.calwater.ca.gov/pdf/MercuryStrategyFinalReport.pdf
Wiener, J.G., Krabbenhoft, D.P., Heinz, G.H., and Scheuhammer, A.M., 
        2003, Ecotoxicology of mercury. In Handbook of Ecotoxicology, 
        Hoffman, D.J., Rattner, B.A., Burton, G.A., and Cairns, J. 
        (eds.); Lewis: Boca Raton, FL, p. 409-463.

F.  USGS Web Sites with Information on Mercury and Abandoned Mine Lands

Mercury

USGS Mercury Research: http://www.usgs.gov/mercury
Mercury in Stream Ecosystems: USGS National Water-Quality Assessment 
        (NAWQA) Program: http://water.usgs.gov/nawqa/mercury/
Mercury Toxicity and Bioaccumulation in Fish and Wildlife: http://
        biology.usgs.gov/contaminant/mercury.html
Mercury Research, USGS California Water Science Center: http://
        ca.water.usgs.gov/mercury
USGS Mercury Studies Team: http://wi.water.usgs.gov/mercury/index.html
USGS Mercury Research Laboratory: http://wi.water.usgs.gov/mercury-lab/
Abandoned Mines
USGS Abandoned Mine Lands Initiative: http://amli.usgs.gov
Mineral Resources Data System (MRDS): http://tin.er.usgs.gov/mrds/
                                 ______
                                 
    Mr. Costa. Thank you. Almost within the time constraints. I 
do appreciate your reflection of the collaboration.
    Senator Feinstein did tell me that she wanted to be here. 
She has also, beyond her involvement that you noted, introduced 
legislation that would attempt to address part of this. She has 
a statement that, without objection, I would like to submit for 
the record to the Subcommittee that indicates her views on the 
challenges facing these abandoned mines and her efforts to try 
to remedy them through her legislation. We thank Senator 
Feinstein for her leadership on this and many other issues that 
she is very involved with. So I appreciate your noting that.
    [The prepared statement of The Honorable Dianne Feinstein 
follows:]

 Statement of The Honorable Dianne Feinstein, a U.S. Senator from the 
                          State of California

    Chairman Costa, thank you for holding this hearing on mercury 
contamination caused by abandoned hardrock mines. This is a serious 
problem of which few people are aware. Much more needs to be done to 
understand the scope of the impacts to public health and the 
environment--and this hearing is an important part of that effort.
    In total, there are 47,000 abandoned mines in California and 
approximately 550 are old mercury mines--more than in any other state.
    These hazardous mines pose a serious threat to public safety with 
deep holes, unstable ground, and dilapidated structures.
    But equally serious is the threat to environmental health and 
groundwater pollution.
    Environmental impact studies have shown that important watersheds 
are being polluted by high levels of mercury and toxic runoff. Reports 
have found that mercury from historic mining is a primary source of 
contamination in the Sacramento-San Joaquin Delta and San Francisco 
Bay, where people regularly fish.
    A recent study conducted by Dr. Fraser Shilling of U.C. Davis 
reported a disturbing statistic. It found that approximately 100,000 
anglers and fisherman in the Central Valley regularly eat fish tainted 
with unsafe levels of mercury.
    This problem is vast in scope with serious consequences. I believe 
a comprehensive strategy must be developed to clean up the hazards and 
contamination caused by hundreds of thousands of abandoned hard rock 
mines.
    Funding for cleanup programs is only one part of the puzzle--but 
it's an essential part. As our country faces record budget deficits, 
it's clear that we will not be able to simply appropriate the necessary 
funds.
    I've authored a bill to establish a dedicated funding source to 
clean up abandoned hardrock mines.
Abandoned Mine Reclamation Act (S. 140)
    The legislation that I have introduced would:
    Create a hardrock abandoned mine fund that would be supported by 
fees and royalties on the hardrock mining industry.
    The bill would create a reclamation fee of 0.3 percent on the gross 
value of all hardrock mining on Federal, State, tribal, local and 
private lands. This fee could raise approximately $50 million annually 
for cleanup.
    The legislation would also establish an 8 percent royalty on new 
mining operations located on Federal lands, and a 4 percent royalty for 
existing operations. The Congressional Budget Office estimates that 
these new royalties could generate $160 million over four years. All of 
this goes to mine cleanup.
    In order to fund the new program, the bill would increase certain 
hardrock mining fees that are already in place. The fee increases will 
pay for administration and any excess money will be deposited in the 
cleanup fund.
    The legislation would also establish priorities for the cleanup 
fund based on the severity of risk to public health and safety and the 
impact on natural resources.
    Finally, the bill would direct the Secretary of the Interior to 
create an inventory of all abandoned mines on Federal, State, tribal, 
local, and private land.
    The condition of abandoned coal mines has greatly improved since 
the Surface Mining Control and Reclamation Act of 1977 established a 
fee to finance restoration of land abandoned or inadequately restored 
by coal mining companies.
    This fund has been able to raise billions of dollars for coal mine 
reclamation--and I believe that a similar program could be part of the 
solution to the hardrock abandoned mine cleanup.
    I continue to urge my colleagues in Congress to move hardrock 
mining legislation that addresses abandoned mines--before more damage 
is done.
Impacts of Abandoned Mines
    Now I would like to take a moment to talk more about why abandoned 
mines are so problematic.
    First, members of the public are in danger of getting seriously 
hurt or killed by falling down old mine shafts or crushed by decaying 
structures.
    Abandoned mines have caused at least 37 deaths between 1999-2007 
throughout the United States. In the past two years, eight accidents at 
abandoned mine sites were reported in California.
    Earlier this month, a woman died while exploring the historical 
Tungsten Peak mine in Kern County. The lock on the gate had been 
broken, and officials report that the abandoned site was a popular 
location for youth to explore. The woman entered an underground tunnel, 
the unstable ground gave way, and tragically she fell at least 50 feet 
to her death.
    Thousands of abandoned sites like Tungsten Peak can be found in 
popular recreation areas, off highways, and increasingly near 
populations as communities expand. These physical hazards must be 
secured to prevent more accidents.
    Another great threat comes from the danger of groundwater 
pollution.
    The Bureau of Land Management reports that abandoned mines have 
contaminated 17 major watersheds in California, which supply water for 
millions of people or provide habitat for species like salmon and other 
fish that are caught and consumed by the public.
    Although mercury mining ended in 1990, this metal continues to 
enter rivers and streams from the tailings and waste of historic sites. 
Mercury contamination also occurs at former gold mining operations. It 
was used to extract gold from sediment or rock and much of it was lost 
to the environment in the process, resulting in highly contaminated 
sediments. Storm flows and other runoff carry the sediment downstream.
    In turn, people who drink this water are exposed to dangerous 
chemicals like mercury and acid in drinking water--and the fish that 
swim in streams fed by these waters are likewise contaminated.
    Mercury, a potent neurotoxin, can cause permanent damage to the 
brain and harm the skin, kidneys and cardiovascular system. The most 
toxic form of mercury, methylmercury, poses the greatest risk to 
pregnant women and children. Consumption of contaminated fish is the 
primary route of exposure to methylmercury for people in the United 
States.
    Fisherman and anglers, who live off what they catch in the rivers, 
often do not know that their daily catch may be harmful to themselves 
and their families.
    Comprehensive studies and public education on the long term health 
effects of consuming tainted fish are necessary.
Conclusion
    The fact is that abandoned mines are public hazards and they need 
to be addressed.
    As Chairman of the Senate Appropriations Subcommittee on the 
Interior, Environment, and Related Agencies, I will continue to seek 
resources at the Federal level to address abandoned mines.
    For Fiscal Year 2008, I added $1.9 million into the Department of 
the Interior's budget to identify and remediate hazardous abandoned 
mines in California. For Fiscal Year 2009, I added $8.1 million, and 
under the American Recovery and Reinvestment Act, the Department was 
allocated a total of $52 million for mine clean-up.
    I acknowledge the ongoing efforts carried out by Federal agencies 
including the U.S. Forest Service, National Park Service, Bureau of 
Land Management, U.S. Geological Survey, and U.S. Environmental 
Protection Agency; State Agencies such as the California Department of 
Conservation and California Environmental Protection Agency; local 
governments; and nonprofit organizations to inventory and cleanup 
abandoned mines.
    I look forward to working with these Federal, State, and local 
agencies; and with my colleagues in Congress, to continue our efforts 
to protect the public from hazardous sites and to find a solution to 
this long outstanding public safety issue.
    Thank you.
                                 ______
                                 
    Mr. Costa. We will move on to our next witness, Mr. Randy 
Moore from the U.S. Forest Service, under the Department of 
Agriculture. Mr. Moore, please begin your testimony.

STATEMENT OF RANDY MOORE, REGIONAL FORESTER, REGION 5, PACIFIC 
SOUTHWEST, U.S. FOREST SERVICE, U.S., DEPARTMENT OF AGRICULTURE

    Mr. Moore. Mr. Chairman, Congressman McClintock, thank you 
for the opportunity to testify on the Abandoned Mine Lands 
reclamation program and mercury contamination in California.
    As you have indicated, my name is Randy Moore. I am the 
Regional Forester of the Pacific Southwest Region. This 
includes California, Hawaii and affiliated Pacific Islands.
    California has 18 national forests. Much of these lands are 
in areas that have experienced significant historic mining 
activities, including hardrock, and also pit mines of gold, 
mercury, copper and asbestos. Many of these mines were opened, 
operated and abandoned before any environmental regulations 
were in place to ensure sustainable operations.
    The State of California estimates that approximately 47,000 
abandoned mine sites exist statewide. There are approximately 
7,500 abandoned mine sites located on national forests in 
California.
    Since the early 1900s, the Forest Service has implemented 
programs to mitigate abandoned mine hazards, restore land and 
water contaminated or disturbed by abandoned mines, and 
enhanced fish and wildlife habitat through reclamation of 
abandoned mines.
    Mr. Costa. Mr. Moore, you might speak a little more 
directly into your microphone there. I want everybody to hear 
you.
    Mr. Moore. Thank you, Chairman.
    The sheer quantity of historic abandoned mine lands 
crossing multiple jurisdictional boundaries make addressing and 
solving the impacts of these mines difficult, expensive, and 
complex. Mercury, lead, arsenic and other contaminates from 
abandoned mine sites are impacting drinking water and other 
water resources throughout the state.
    Drainage from acid rock is causing fish kill and it is 
degrading critical habitat and high concentration of toxic 
metals. Visitors camping, fishing or hiking on our public lands 
are being exposed to contaminated mill tailings and waste rocks 
from abandoned mines on Federal and state lands and with 
historic mining communities.
    Mercury contamination from historic mining activities 
differ from other abandoned mine lands' contamination issues. 
Historic gold mining activities released approximately 13 
million pounds of mercury into the environment in California. 
Much of the mercury used in the former hydraulic mine sites 
during the gold rush era has traveled from the original mines 
to contaminate downstream sediment, river gravels, and water 
bodies.
    No longer confined to the historic mining sites, mercury 
contamination issues now cross many jurisdictional boundaries 
on Federal, State, and private lands. Federal and State 
agencies and private partners must continue to cooperate to 
effectively address the hazards posed by mercury released 
throughout the various sites and ecosystems in the state.
    Solutions to the health, safety, and environmental impacts 
of abandoned mine lands lie in our cooperation and partnership 
with other Federal and State agencies, as well as private land 
owners. We have closed 193 mine openings on 12 national forests 
throughout California since the 1990s in partnership with the 
State Abandoned Mine Lands Unit.
    Mr. Costa. Repeat that number once again.
    Mr. Moore. One hundred and ninety-three hazard mine 
openings on 12 national forests, and this has been since the 
1990s, and we have done that in partnership with the state.
    From 2004 to 2005, the Forest Service partnered with EPA 
and the Bureau of Land Management. Approximately 4,770 tons of 
contaminated mercury material was sent offsite for disposal. 
The abandoned Altoona mercury mine was one of the primary 
sources of mercury to Trinity Lake. Site remediation work was 
completed in 2009, and combined EPA and Forest Service site 
costs to date are in excess of $7 million.
    I commend my fellow agencies and other partners for their 
hard work in addressing the human health and environmental 
hazards created by historic mining operations, and while we 
have made progress, there is still much work to do ahead of us.
    We see this as a long term commitment in a coordinated 
statewide program as consisting of three key parts. First, we 
need to consolidate and reconcile the abandoned mine land 
inventories maintained by various agencies into a statewide 
abandoned mine land site inventory.
    Second, we need a common site screening and ranking process 
and a common protocol for site investigations, characterization 
and remediation.
    And, finally, we need to establish and implement a process 
for improving and maintaining data transfer, communications and 
coordination among Federal and State agencies.
    Mr. Chairman, the Forest Service stands ready to assist and 
participate in a more coordinated approach. I thank you for the 
opportunity to talk about abandoned land mines and mercury 
poisoning in California, and I would be happy to answer any 
questions now or later.
    [The prepared statement of Mr. Moore follows:]

    Statement of Randy Moore, Pacific Southwest Regional Forester, 
             Forest Service, U.S. Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on the Abandoned Mine Land (AML) reclamation 
program and mercury contamination in California. I am Randy Moore, 
Regional Forester of the Pacific Southwest Region of the Forest Service 
which includes California, Hawaii, and the Pacific Islands. I am 
pleased to be here with you today.
    Since the early 1990s the Forest Service has implemented programs 
to address the safety, human health and environmental hazards posed by 
abandoned mine lands throughout the nation and state. Key elements of 
these programs include protecting human health and safety by mitigating 
abandoned mine hazards; restoring land and water contaminated or 
disturbed by abandoned mines; and enhancing fish and wildlife habitat 
through reclamation of abandoned mines.
    The human health and environmental impacts caused by abandoned mine 
lands cross many jurisdictional boundaries and affect federal, state 
and private lands across the nation and state. Despite the effort of 
federal and state agencies and other parties, abandoned mine lands 
continue to pose both physical safety hazards to the public and threats 
to human health and the environment from hazardous contaminants.
    According to the State of California Department of Conservation, 
Abandoned Mine Lands Unit (AMLU) at least 15 adults have died and 23 
adults and children have been injured in abandoned mines in California 
since 2000 <SUP>1</SUP>. Contaminants from AML sites such as mercury 
and lead continue to affect drinking water and other water resources 
throughout the state. Acid rock drainage has caused fish kills and 
continues to degrade habitat and contribute to high concentrations of 
toxic metals to many streams in California. The recreating public is 
exposed to contaminated mill tailings and waste rock from AML sites on 
federal and state public lands and within historical mining communities 
<SUP>2</SUP>.
---------------------------------------------------------------------------
    \1\ ``California's Abandoned Mine Lands Program Fact Sheet, 
November 2009''. California Department of Conservation Office of Mine 
Reclamation, Abandoned Mine Lands Unit
    \2\ ``California's Abandoned Mines--A Report on the Magnitude and 
Scope of the Issue in the State, 2007 Update'', and ``The Abandoned 
Mine Lands Unit (AMLU) Frequently Asked Questions, March 2009'' 
California Department Of Conservation Office of Mine Reclamation, 
Abandoned Mine Lands Unit
---------------------------------------------------------------------------
Abandoned Mines on National Forest System Lands in California
    The eighteen (18) national forests in California cover 
approximately 20 million acres of land. Much of the lands managed by 
the Forest Service in California are in areas that have had significant 
historic activities such as hard rock and open pit gold, mercury, 
copper, and asbestos mining.
    The California AMLU estimates that more than 47,000 abandoned mine 
sites exist statewide; that 84 percent of these sites present some form 
of physical safety hazards to the public and approximately 11 percent 
present human health and environmental hazards from contaminants 
<SUP>3</SUP>. The state also estimates that federal lands contain 
approximately 67 percent of the abandoned mines in the state (primarily 
on lands managed by the Bureau of Land Management (BLM), National Park 
Service (NPS), and Forest Service.
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    As shown on the attached statewide AML map, every National Forest 
in California has abandoned mine sites. Based on the Department of 
Conservation's abandoned mine database, there are approximately 7,500 
abandoned mine sites located on the National Forests in California, 
with the number of sites per National Forest ranging from 14 on the 
Lake Tahoe Basin Management Unit to over 1,780 on the Inyo National 
Forest.
    The Forest Service estimates that approximately 65-70 percent of 
the abandoned mine sites on National Forest System lands in the State 
of California pose some form of physical safety hazard to the public 
from hazardous mine openings (adits and shafts), and decaying 
structures and equipment <SUP>4</SUP>. It is also estimated that 
approximately 20 percent pose some level of human health and 
environmental hazard and threat from hazardous substances associated 
with abandoned chemicals and explosives, acid mine drainage, and heavy 
metal (lead, mercury, etc.) contamination in mine waste rock and 
tailings.
---------------------------------------------------------------------------
    \4\ Forest Service estimates are based on the professional 
experiences and knowledge of the agency AML staff and On-Scene 
coordinators in dealing with AML sites on NFS lands in California.
---------------------------------------------------------------------------
    Mercury impacts from historic gold mining operations are only one 
of the human health and environmental threats being addressed by the 
Forest Service's abandoned mine program. Visitor and wildlife exposure 
to heavy metals related to hazardous levels of other contaminants such 
as lead in waste rock and tailings piles is a key concern for the 
agency. Acid mine drainage and heavy metal discharges into surface 
water bodies and drinking water sources is another key concern as are 
the significant hazards posed by abandoned chemicals and explosives at 
AML sites. For example, on the Sierra National Forest, near Yosemite 
National Park the Forest Service discovered over 3,200 pounds of 
ammonium nitrate and 660 pounds of dynamite abandoned at one site that 
was routinely visited by the public.
Forest Service's Regional and National Abandoned Mine Program
    The Forest Service addresses AML hazards primarily through two 
programs; the AML Safety program which focuses on the mitigation of 
safety hazards posed by abandoned and/or inactive mines on National 
Forest System lands, and the Environmental Compliance and Protection 
program which utilizes authorities under the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA) to 
address human health and environmental hazards posed by hazardous 
substances and contaminants such as mercury <SUP>5</SUP>.
---------------------------------------------------------------------------
    \5\ Executive Order 12580 provided federal agencies like USDA lead 
agency authority under CERCLA to investigate and remediate contaminated 
sites on federal lands.
---------------------------------------------------------------------------
    In the implementation of its CERCLA program, the Forest Service 
must comply with, and follow, the requirements of the National 
Contingency Plan as well as established Environmental Protection Agency 
CERCLA policy and guidance. A key first step in this process is 
conducting initial site characterization to determine if a site has 
contamination and poses a threat to human health and the environment. 
To date, the Forest Service has completed the initial site 
characterization work on less than 5 percent of the AML sites on 
National Forest System lands in California. The Forest Service 
estimates that the cost to conduct initial site characterization work 
at an AML site ranges from approximately $20,000 to $45,000 depending 
on the site complexity (number and type of mine features, type of 
historic operations, contaminants of concern, accessibility, etc.) 
<SUP>6</SUP>.
---------------------------------------------------------------------------
    \6\ Cost estimates based on Forest Service's regional experience in 
conducting CERCLA site characterization work at AML sites in 
California.
---------------------------------------------------------------------------
    USDA and Forest Service policy requires that, before appropriated 
funds are spent on the remediation of a site, a ``potentially 
responsible party'' (PRP) search must be performed to identify whether 
a viable responsible entity exits to fund the site clean-up in lieu of 
the government. As the Forest Service has moved forward with its PRP 
searches in California it has found that many of the abandoned mine 
sites on the national forests in the state are old, with the majority 
of the mining activities occurring from the 1800s through the early 
1900s. Very few of these sites have resulted in the identification of a 
viable responsible party. These include many, if not most of the 
historic hydraulic mine sites in the Sierra Nevada which are the source 
of much of the mercury contamination concerns. The Forest Service has 
not found a viable responsible party at any of the mercury 
contamination AML sites investigated to date in California.
    After the Forest Service and USDA legal counsel have determined 
that no viable responsible party exists at a site, the agency may then 
proceed with using appropriated funds to complete the CERCLA site 
investigation and remedy selection and implementation process. In 
California we have found that the cost to complete this component of 
the CERCLA process varies greatly depending on the site and the 
environmental issues needing to be addressed.
    <bullet>  Less complex sites, where the issue is typically a small 
waste rock/tailings pile with hazardous levels of metals that can be 
hauled off for disposal or capped in place, can cost from $250,000 to 
$450,000. While sites with larger volumes of waste rock/tailings can 
cost much higher. Example, the Juniper Uranium Mine on the Stanislaus 
National Forest, is projected to cost between $4.5 million to $5 
million to construct, implement and maintain the site remedy.
    <bullet>  More complex sites with water quality issues such as acid 
mine drainage cost significantly more to address. For example, at the 
Golinsky Mine on the Shasta-Trinity National Forest abating the release 
of copper into Lake Shasta, will cost 7.0 million dollars to install 
and operate a passive treatment system for up to 30 years.
    A key factor in AML site remediation costs is site accessibility. 
The Forest Service has remediated several sites like the La Trinidad 
Mill site on the Tahoe National Forest and the Black Bob Mine on the 
Los Padres where helicopters had to be utilized to bring out 
contaminated equipment and material.
    The Forest Service annual budget to address contaminated site 
remediation and AML safety mitigation has ranged from approximately $14 
million to $19 million. This funding also funds remediation activities 
at abandoned landfills and dump sites and at Forest Service 
administrative sites. As part of the funding, each Forest Service 
region is allotted $500,000 of ``base program'' funding to pay for 
initial site characterization work and ``potentially responsible 
party'' searches. To obtain funding beyond this ``base program'' for 
site remediation and restoration efforts, each region must submit their 
highest priority projects and compete nationally for funding. Projects 
in California are competed against projects from other regions with a 
national emphasis to fund the ``worst first''. Nationally competed 
projects are evaluated and ranked based on the following factors:
    <bullet>  Human health and safety;
    <bullet>  Environmental factors such as water quality, threatened 
and endangered species, etc.;
    <bullet>  Economic and social factors including partnerships, 
public interest and overall cost.
    AML safety mitigation projects go through a similar, but separate, 
competition process for funding. Costs to mitigate abandoned mine 
safety hazards vary and are also affected greatly by a site's 
accessibility and complexity (type and number of mine features, 
abandoned equipment, structures, etc.), with typical costs to close a 
single hazardous mine opening with a bat gate range from $8,000 to 
$15,000, while hazardous mine opening closures using foam can range 
from $2,000 to $4,000.
    In 2009, additional funding for the reclamation and remediation of 
abandoned mine sites on National Forest System lands was appropriated 
through the American Recovery and Reinvestment Act (ARRA) (Public Law # 
111-5). ARRA directed the Forest Service to use a portion of the $650 
million in funding authorized for Capital Improvement and Maintenance 
for mitigation of safety, human health and environmental hazards at 
abandoned mine sites on National Forest System lands. The Forest 
Service has disbursed $22.704 million of its ARRA funds for 17 
abandoned mine land projects in seven states across the country, of 
which, sites in California have received $11.339 million. The 
mitigation activities to be undertaken as part of these projects in 
California include closing hazardous mine openings and vertical shafts; 
removing or stabilizing abandoned buildings and equipment, removing 
contaminated mine wastes from waterways, and the construction of 
treatment systems to address acid mine drainage.
    The Forest Service is continually looking at ways to maximize the 
effectiveness of its AML safety and cleanup programs. These efforts 
include partnering with other federal and state agencies, such as the 
Environmental Protection Agency (EPA), Bureau of Land Management, and 
the California Department of Conservation, to identify priority sites 
and combine resources to mitigate safety and environmental hazards. 
Since the 1990s, the Forest Service has partnered with the California 
Department of Conservation Abandoned Mine Lands Unit to successfully 
close 193 hazardous mine openings on 12 national forests throughout 
California. Other partnership efforts include:
    <bullet>  Rinconada Mercury Mine: From 2004-2005 the Forest Service 
partnered with EPA and BLM to conduct a CERCLA response action at the 
Rinconada Mercury Mine located within the Los Padres National Forest on 
BLM, Forest Service and private lands. The Rinconada Mercury Mine is a 
popular recreation spot for local teens and college students. The site 
was also featured in an August 19, 2007 San Francisco Chronicle article 
on ``The Art of Urban Exploration''. Because of the mixed ownership of 
the site, the Forest Service requested that EPA take the lead on the 
CERCLA response which resulted in approximately 4,770 tons of 
contaminated mercury material being sent off-site for disposal. The 
Forest Service has continued efforts to mitigate the safety hazards 
posed by the mine features and to date we have closed nine hazardous 
mine openings.
    <bullet>  Altoona Mercury Mine: The abandoned Altoona Mercury Mine 
is located within the boundaries of the Shasta-Trinity National Forest 
on both private and Forest Service lands. Studies conducted by USGS in 
the Trinity River Watershed indicated the Altoona Mercury Mine was one 
of the primary sources of mercury to Trinity Lake. In October 2005, the 
California Office of Environmental Health Hazard Assessment issued a 
fish consumption advisory for Trinity Lake and the East Fork of the 
Trinity River. Site remediation work was recently completed in 2009. 
Combined EPA and Forest Service Site costs to date are in excess of $7 
million.
    <bullet>  The Forest Service partnered with USGS to conduct mercury 
studies in several watersheds in California. These included the Trinity 
River Watershed within the Shasta-Trinity National Forest and the Bear 
and Yuba River Watersheds within the Tahoe National Forest.
    <bullet>  The Forest Service also partnered with the California 
Department of Toxic Substance Control (DTSC) on their grant application 
to the Sierra Nevada Conservancy to conduct assessments of abandoned 
mines within the north and middle Yuba River Watersheds.
Addressing Mercury Contamination
    It is estimated that thirteen million pounds of mercury were 
released in to the environment from historic gold mining activities in 
California <SUP>7</SUP>. While many of the historic hydraulic mines 
which utilized much of the mercury during the Gold Rush era are on 
Forest Service and BLM administered lands, areas impacted by mercury 
contamination cross many jurisdictional boundaries and federal, state 
and private lands.
---------------------------------------------------------------------------
    \7\ ``Mercury Contamination from Historic Gold Mining in 
California'', USGS Fact Sheet 2005-3014 Version 1.1 Revised October 
2005
---------------------------------------------------------------------------
    To date the Forest Service has completed remediation work and 
started investigation work on a variety of AML sites in California with 
mercury contamination. These include:
    <bullet>  Gibraltar Mercury Mine, Los Padres National Forest: 
Completed CERCLA removal action to address mercury contamination in 
abandoned mine buildings. CERCLA action involved removal of structures 
and the creation of an interpretive exhibit by preserving the mill 
building and equipment.
    <bullet>  Deertrail Mercury Mine, Los Padres National Forest: 
Completed CERCLA removal action to address mercury contamination in 
abandoned mercury processing equipment. CERCLA action involved removal 
of contaminated soil and equipment from the site.
    <bullet>  Sailor Flat Hydraulic Mine, Tahoe National Forest: 
Completed CERCLA removal action to address mercury contamination 
present in the site sluice tunnel. CERCLA action involved the 
obliteration of the tunnel and encapsulation of the mercury 
contamination to prevent offsite migration.
    <bullet>  Rinconada Mercury Mine, Los Padres National Forest: Joint 
CERCLA removal action with EPA and BLM to address mercury contamination 
present throughout the site. CERCLA action involved the off-site 
disposal of approximately 4,770 tons of mercury contaminated wastes, 
and the on-site encapsulation of ore to prevent downstream migration.
    <bullet>  Alpha Diggings Hydraulic Mine, Tahoe National Forest: 
Completed CERCLA removal action to prevent off-site migration of 
mercury contamination present in the waste rock at the site.
    Addressing the impacts of mercury contamination from historic 
mining activities is a complex issue and is different from other AML 
contamination issues. While mercury is still present in the sluice 
tunnels and pit lakes at former hydraulic mine sites, much of it has 
already been released from these sites and is already present in the 
downstream sediments, river gravels and water bodies. USGS estimates 
that up to 30 percent of the mercury used in the gold mining operations 
was released into the downstream environment <SUP>8</SUP>. A key factor 
in addressing and preventing mercury poisoning is preventing elemental 
mercury from being converted into methylmercury, an organic form of 
mercury that accumulates and biomagnifies in the food chain. 
Methylmercury is a potent neurotoxin that impairs the nervous system 
and is especially detrimental to developing fetuses and young children 
<SUP>9</SUP>. While mercury methylation is a complex process and is 
still being investigated, it has been found to typically occur in the 
environments and ecosystems (example wetlands) downstream of the actual 
mining sites where conditions exist for methylation to occur.
---------------------------------------------------------------------------
    \8\ ``Mercury Contamination from Historic Gold Mining in 
California'', USGS Fact Sheet 2005-3014 Version 1.1 Revised October 
2005
    \9\ Ibid.
---------------------------------------------------------------------------
    Focusing solely on AML sites, while a step in the right direction, 
will not solve the mercury contamination problems facing California. 
The Forest Service has observed that while federal and state programs 
work to address contamination at AML sites, other programs implement 
projects, such as wetland restoration projects, which are environments 
where mercury methylation occurs. To effectively address the hazards 
posed by mercury releases requires the cooperation of multiple federal 
and state agencies and programs and private partners.
Impacts from Abandoned Mine Lands a Growing Concern
    Over the past decade the Forest Service has observed that impacts 
of abandoned mine lands on public safety, health and the environment is 
an ever growing concern. The risks posed by abandoned mine lands in the 
state is increasing each year as a result of many factors, including:
    <bullet>  California's population growth and the associated urban 
development and encroachment on the national forests resulting in more 
and more people moving from the cities into areas of historic mining 
activities like the Sierra foothills and Southern California. This 
creates a great attraction to ``explore.'' In 2002, two brothers died 
while exploring the Blue Light Mine on the Cleveland National Forest.
    <bullet>  Increased public demand for recreation and the increased 
recreational use of the forests is resulting in greater access to once 
remote areas of the national forest where historic mining activities 
occurred. Many remote sites now have evidence of public visitation 
(vehicle and motorcycle tracks on contaminated mine and mill waste 
piles, vandalism of abandoned structures, etc.) and some sites are 
being used for popular recreational activities such as geo-caching. 
Recently Forest Service staff found that the associated website for one 
AML site being used for geo caching has photographs showing children 
and Girl Scout troops down in the site mine adits.
    <bullet>  Off Highway Vehicle (OHV) use on California's national 
forests is increasing. Many remote sites now have evidence of OHV use 
(vehicle and motorcycle tracks on tailings piles, vandalism of 
abandoned structures, etc.). In 2004, a man died on the Six-Rivers 
National Forest when a 4x4 vehicle he was in fell into a vertical mine 
shaft.
    <bullet>  Many ``urban explorer'' internet websites prominently 
feature abandoned mine lands and sites on federal, state and private 
lands. These sites routinely show pictures of families inside hazardous 
mine openings and in structures contaminated with asbestos and heavy 
metals like mercury.
Looking to the Future
    Multiple federal and state agencies and private entities are 
implementing programs throughout the state to address the human health 
and environmental impacts from historic mining operations. While 
progress has been made in addressing the hazards posed by abandoned 
mine lands in the state, much more work is needed. Human health and 
environmental impacts from abandoned mine lands affects federal, state 
and private lands and cross federal and state jurisdictional 
boundaries. Continued success of these efforts in California depends on 
ensuring that cleanup costs are first borne by potentially responsible 
parties, where possible, and on the partnering of State and Federal 
Agencies, public interest groups, the mining industry and other 
interested third parties.
    The Forest Service believes that many of the AML reclamation and 
remediation efforts being implemented by federal and state agencies and 
private entities could be improved. Many of the parties use different 
protocol for investigating, ranking and remediating sites. In order to 
make progress on mitigating the safety, health and environmental 
impacts associated with abandoned mine sites, the Forest Service 
believes a long term commitment and coordinated program is required. 
While we have not yet discussed this with other parties represented 
here today, we believe such a long-term commitment would involve:
    <bullet>  Development and implementation of a common site screening 
and ranking process and common protocol for site investigation, 
characterization, and remediation. This effort would help state and 
federal agencies focus efforts and funding on the highest priority 
environmental and physical hazard projects.
    <bullet>  Establishment and implementation of a process for 
improving and maintaining data transfer, communication and coordination 
among federal and state agencies.
    Some of the key benefits to the State from these efforts would be:
    <bullet>  Improved public safety and a healthier environment.
    <bullet>  Improved coordination among federal and state agencies on 
AML restoration and remediation projects.
    <bullet>  Improvement of interagency communication and technical 
exchange on abandoned mine restoration and remediation projects.
    The Forest Service stands ready to assist and participate in a more 
coordinated approach.
    Finally, preventing future AML sites is also a crucial goal of any 
land management agency's AML program. Responsible mining practices, 
environmentally protective mine closure planning, optimal permitting 
requirements and financial assurances are all tools that land 
management agencies are using to ensure mining companies operate under 
a sustainable business model that follows a mine's life from startup to 
clean closure.
    Mr. Chairman, thank you for the opportunity to talk about the 
Abandoned Mine Lands and Mercury poisoning in California. I would be 
happy to answer any questions.
                                 ______
                                 
    Mr. Costa. Well, thank you very much, Mr. Moore, and we 
appreciate your testimony and look forward to the questions 
about the collaboration and the work that you've done.
    How long have you been working in your current position 
with this?
    Mr. Moore. Well, here in this region, almost two years.
    Mr. Costa. OK. Our next witness, our last witness on this 
panel and then we will get to the question and answers, is Mr. 
Meer with the United States Environmental Protection Agency.
    Mr. Meer, would you please begin your testimony?

    STATEMENT OF DANIEL MEER, ASSISTANT SUPERFUND DIVISION 
   DIRECTOR, REGION 9, PACIFIC SOUTHWEST, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Meer. Thank you, Mr. Chairman.
    Mr. Chairman and Congressman McClintock, I am Daniel Meer, 
Assistant Superfund Division Director for the U.S. 
Environmental Protection Agency's Region 9, serving Arizona, 
California, Hawaii, Nevada and the Pacific Islands that are 
subject to U.S. law, and approximately 146 tribal nations.
    Thank you for the opportunity to testify about EPA Region 9 
activities to address the environmental legacy from abandoned 
mercury mine activities. As noted, we have submitted written 
testimony, and I just want to supplement that material with 
some brief remarks.
    As my colleagues have noted, the historical mining legacy 
is truly a daunting problem in the great American West. At EPA 
Region 9, we have several fundamental principles that we use to 
guide us in how we address this problem, and I would like to 
describe those for you.
    The first principle that we use we refer to sort of 
commonly as worst first, and by that we mean that we make an 
attempt to evaluate mine sites and address the worst 
environmental problems first because, given our budgetary 
constraints, we just have to make certain decisions about which 
sites to address.
    Typically we use human health and ecological risk as our 
guides and, again, we try to deal with what we believe are the 
worst problems first.
    The second principle is that the polluter should pay for 
the contamination that they have caused, and we have an 
enforcement first policy, which means that we look for 
responsible parties and seek to get them to pay for their 
clean-ups, and we have a pretty sophisticated system for 
looking for responsible parties, trying to pierce corporate 
veils, and looking for successor companies to try to see if we 
can come up with folks that have the money to pay for these 
clean-ups.
    The third principle is collaboration with our state and 
Federal partners. We take that very seriously, and we really 
value the partnerships that we've established in the course of 
doing these clean-ups.
    We often are asked when does EPA get involved in a site, 
and there are a variety of things that could bring us in. One 
of the primary things is referrals from either our state and 
Federal partners, if there are sites that are too complicated 
or are multi-jurisdictional, or where there appears to be the 
need for Federal involvement. We can get a referral from a 
state if there are complex liability cases, mixed ownership 
where sometimes we have primary mining that is occurring on 
private land, but the tailings piles or the waste is spilling 
onto Forest Service or BLM or other Federal land manager land, 
and then we have what we call mixed use, mixed ownership 
situations. That is an area where we may get called in by one 
of our partners and, of course, just requests from other 
Federal agencies.
    In terms of how we prioritize, we have a number of criteria 
that we apply. It really is pretty site specific. Clearly human 
exposure and the types of pathways in terms of drinking water 
or dust or other exposure pathways are one of the primary 
things that we look at. The stability of a site, whether we can 
take some physical measures that would help stabilize and 
address the situation, the contaminant characteristics, how 
mobile they are, how toxic they are, the ecological risk that's 
represented by the site and, of course, there are certain 
program management issues that we have to consider in terms of 
funding, community interest, environmental justice, whether 
there's tribal impacts, all of those things get factored into 
how we prioritize what sites to address.
    So, again, we remain firmly committed to protecting public 
health and the environment by addressing the environmental 
effects of abandoned mines. We will continue to work closely 
with our other Federal, state, tribal and local partners on 
this important matter. I hope this information has been useful 
to the Committee, and I would be happy to answer any questions.
    [The prepared statement of Mr. Meer follows:]

Statement of Daniel Meer, Assistant Superfund Division Director, Region 
                9, U.S. Environmental Protection Agency

    Mr. Chairman and Members of the Subcommittee, I am Daniel Meer, 
Assistant Superfund Division Director for the U.S. Environmental 
Protection Agency's (``EPA'') Region 9 serving Arizona, California, 
Hawaii, Nevada, the Pacific Islands subject to U.S. law, and 
approximately 146 Tribal Nations. Thank you for the opportunity to 
testify about EPA Region 9 activities to address the environmental 
legacy from abandoned mercury mine activities in California. I will 
also provide a few examples of abandoned California mercury mine sites 
that EPA Region 9 has addressed or is in the process of addressing.
    The historical mining legacy is a daunting problem in the West. 
According to the State of California, there are estimates of between 
550 and 2000 abandoned mercury mines in California alone, which 
includes very small mines and extensive, fully developed mines. Mercury 
was widely used to extract gold and silver, and thus many other 
abandoned California mines have mercury contamination issues. Many of 
these sites contain contaminants such as mercury or arsenic that pose a 
threat to human health or the environment and require federal or state 
attention. EPA, the State, and other federal agencies, including the 
Department of Interior and Forest Service, who are also here today, 
have been addressing the sites that pose immediate risk first using 
their respective authorities.
    The Superfund Program was established under the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA), which 
Congress passed in December 1980 to respond to citizen concerns over 
Love Canal and other toxic waste sites. Through the Superfund Program, 
the EPA and its partners address abandoned, accidentally spilled, 
illegally dumped or intentionally released hazardous substances that 
pose current or future threats to human health and the environment.
BACKGROUND
    According to the California Department of Conservation, Abandoned 
Mines Unit, the State currently has 47,000 abandoned mines, of which 
11% pose a moderate potential for environmental harm and 266 mines are 
listed as having documented environmental harm. Mercury mines make up 
only a subset of these environmentally hazardous sites. EPA's strategy 
for addressing environmental hazards at abandoned mines is to identify 
the universe of mine sites and evaluate them for cleanup action, and 
when necessary, use Superfund authorities to immediately address the 
most imminent threats. Under EPA's ``Enforcement First'' Policy, we 
look for the parties responsible for contamination and negotiate with 
them to perform and pay for the clean up in order to save the taxpayers 
from paying. EPA Region 9 has assessed 77 abandoned mines and 18 
abandoned mercury mines in California. Six of these abandoned mines 
have been placed on the Superfund National Priorities List (NPL) and of 
those, two--Sulphur Bank and Buena Vista/Klau Mine--are mercury mines. 
In other cases, EPA has responded to imminent threats to human health 
and/or the environment using our Superfund Removal Program. In 
California, EPA Region 9 has conducted removals at 15 abandoned mines, 
including 7 mercury mines. These include the Altoona Mine, Abbott/
Turkey Run Mine, Buena Vista/Klau Mine, Gambonini Mine, Mt. Diablo 
Mine, Rinconada Mine and Sulphur Bank Mine.
    EPA and its Federal and state partners are continuing to 
investigate and clean up abandoned mercury mines. EPA Region 9 and the 
State of California have developed abandoned mine coordination groups 
which are tasked to specifically focus on issues posed by abandoned 
mines. EPA is also drafting financial assurance regulations for the 
hardrock mining industry which will help prevent taxpayer-funded 
cleanups. EPA plans to propose a rule for financial assurance 
regulations in the spring of 2011. In addition, both California and EPA 
have developed Good Samaritan administrative tools to encourage cleanup 
of abandoned mines. EPA's Good Samaritan tool is a model Administrative 
Order on Consent under CERCLA, or Superfund. Additionally, two American 
Recovery and Reinvestment Act projects in EPA Region 9 are located at 
mine sites.
EPA MINE CLEANUP ACTIVITIES
    Altoona Mine--This site was prioritized for cleanup after the 
United States Geological Survey (USGS) identified it as the primary 
source contributor to the mercury contamination found downstream in 
Trinity Lake. Concentrations of mercury were found in Trinity Lake and 
in its fish at levels of concern. In October 2005, the California 
Office of Environmental Health Hazard Assessment issued a fish 
consumption advisory for Trinity Lake and the East Fork of the Trinity 
River. EPA, in coordination with the U.S. Forest Service, developed a 
remedy for the mine. EPA and the Forest Service have spent $7 million 
to clean up the site and monitoring and maintenance is ongoing.
    Abbott/Turkey Run Mine--This site became an EPA priority in 2007 
after discussions with the California Water Quality Control Board 
indicated that the site was one of the largest mercury contamination 
contributors to the Cache Creek watershed and that this watershed had 
the highest proportion of mercury discharges (60%) to the Delta. The 
State requested EPA's assistance in identifying a responsible party and 
helping provide oversight of the cleanup. This is a good example of how 
EPA is partnering with the State.
    Gambonini Mine--This mine was prioritized in 1999 after it was 
realized that drainage form the mine ended up in Tomales Bay near Pt. 
Reyes, an area with extensive sensitive wildlife and fish habitat. It 
was the major mercury contamination input into the Bay and cleaning up 
this one source resulted in a large benefit to the environment. An 
additional removal action was conducted in 2004.
    Sulphur Bank Mine--EPA has completed a number of removal actions at 
this site that have: 1) stopped the erosion of mine waste into Clear 
Lake; 2) stopped contaminated surface water runoff into Clear Lake; 3) 
diverted clean surface water around the mine to prevent flooding the 
open pit mine lake spilling contaminated water into Clear Lake; 4) 
sealed old abandoned geothermal wells; 5) removed all mine waste from 
the residential area of the Elem Indian Colony; and 6) removed mine 
waste from a residential area to the south of the mine property.
    EPA has allocated American Recovery and Reinvestment Act funding to 
initiate a removal action to address contaminated mine wastes that were 
used in the 1970s to construct the primary access road to the Elem 
Indian Colony. EPA has completed extensive studies, developed cleanup 
alternatives, and is working with Lake County and the State of 
California to select a cleanup plan to stop contaminated groundwater 
discharges from the mine to Clear Lake. We will also address the 
cleanup of over 3,000,000 cubic yards of mine waste that were left in 
several large piles on the mine property. In addition, EPA is 
continuing to study the complex science and impact of mercury in the 
Clear Lake environment and food web, and we are evaluating potential 
cleanup plans to address mercury contaminated sediments.
    Cache Creek Watershed--This watershed includes the Abbott/Turkey 
Run mine discussed above--The Department of Toxic Substances Control 
(DTSC) initiated an Abandoned Mine Site Discovery Project to 
investigate sources of contamination in this watershed using funding 
from a Cooperative Agreement between DTSC and the EPA. DTSC is 
identifying mines within Cache Creek Watershed that are not currently 
being addressed by regulatory agencies, and have known or potential 
threats to public health, the environment, or water quality. USEPA will 
then evaluate the results and determine if further federal involvement 
is need. This effort should be complete by June 2010.
    New Idria Mine--This mine is a source of mercury contamination of 
sediments and of acid mine drainage in Silver and Panoche Creeks, with 
levels of methylmercury detected in surface water at concentrations 
significantly above background levels up to 4.5 miles from the site. 
EPA is currently planning assessments by both the Superfund Removal 
Program and the Site Assessment Program to further evaluate the 
eligibility of the site for quick action and/or inclusion on the NPL. 
This assessment work started on November 12, 2009, and is expected to 
be completed within a year.
    EPA Region 9 remains firmly committed to protecting public health 
and the environment by addressing the environmental effects of 
abandoned mines. We will continue to work closely with our other 
Federal, state, tribal, and local partners on this important matter. I 
hope this information is helpful to the Subcommittee and I welcome any 
questions you might have.
                                 ______
                                 
    Mr. Costa. Thank you very much, Mr. Meer, and thank you for 
staying within the five minutes, and for those of you in the 
audience, we want you to know that Members of the Committee 
hold themselves, at least when I Chair the Committee, to the 
same five-minute rule.
    Let me begin first, and we may go a couple rounds here with 
Congressman McClintock and myself.
    Mr. Meer, what about the criteria that EPA uses in your 
prioritization process?
    Mr. Meer. I am sorry. What are those or----
    Mr. Costa. Right.
    Mr. Meer. Well, the main ones that I just talked about, the 
human exposure, the stability of a site.
    Mr. Costa. Is the presence of mercury a consideration?
    Mr. Meer. Well, of course, the contaminant, the type of 
contaminant.
    Mr. Costa. And its level of toxicity.
    Mr. Meer. Exactly, the toxicity of a contaminant.
    Mr. Costa. You do a risk management assessment in terms of 
the risk assessment versus the impact of it coming into contact 
with the public or the waters of the state?
    Mr. Meer. Yes. There is a very comprehensive risk 
assessment procedure and policy that we have at the agency that 
we can use to estimate what the risk would be.
    Mr. Costa. Does the destination of the mercury or the scope 
of the watershed impacted by mercury factor in as a part of 
your prioritization process?
    Mr. Meer. Absolutely. In fact, the Altoona mine that was 
mentioned by Mr. Moore, that mine was identified in several 
studies as one of the primary loaders to the Trinity watershed, 
and there was a fish advisory that was issued by the State for 
the Trinity Lake, and those were a couple of the driving 
factors that we looked at.
    Mr. Costa. Dr. Alpers, from the U.S. Geological Survey, you 
indicate that 13 million pounds of mercury were released in the 
environment from gold mining in California. Do you know where 
the mercury is today? Do we have an inventory as to where it 
has been located in the sediment and how much is continuing to 
come from those watersheds?
    Dr. Alpers. Well, Mr. Chairman, we do have a few pieces of 
the puzzle where we have determined quantitatively how much 
mercury is in different parts of the system, but there is still 
a lot of uncertainty and unknowns there.
    For example, approximately half of the hydraulic mining 
historically took place in the Yuba River watershed.
    Mr. Costa. Half of the what?
    Dr. Alpers. Half of the hydraulic mining. Let me back up 
and say out of the 13 million pounds, the estimate is about 
three million pounds were lost from hardrock mining, the stamp 
mills and gold quartz veins, and about ten million pounds was 
lost in hydraulic mining, which was, of course, the water 
cannons that led to deposits.
    Mr. Costa. Could you tell us which of the watersheds are 
the biggest sources of new mercury contamination to the Delta, 
the San Joaquin Delta?
    Dr. Alpers. Again, based on work by the State Water Board, 
Regional Water Board and USGS, the Sacramento River contributes 
approximately 80 percent of the mercury, 80 to 90 percent, and 
about half of that comes from Cache Creek watershed, which 
drains mercury mines in the coast ranges.
    The Sacramento River also has major tributary of the 
Feather River, which includes the Yuba that I just mentioned 
where a lot of the hydraulic mining took place, but the Feather 
River and its tributaries, the Yuba and the Bear, contribute 
approximately 17 percent of the mercury to the Delta, and those 
are largely historic hydraulic mining sources.
    Mr. Costa. And am I correct to understand that the sediment 
that gets trapped, the mercury that gets trapped in the 
sediment based upon flows of the river moves over the course of 
time?
    Dr. Alpers. Yes, a lot of the inorganic mercury moves as 
particulates in suspended sediment, and so as the flow of the 
river increases, you get more suspended sediment and higher 
mercury concentrations. Reservoirs trap a fair amount of that 
mercury, but at very high flows then mercury gets through, and 
then the finest grain fractions of mercury can pass through the 
reservoirs as well.
    Mr. Costa. Has the U.S. Geological Survey attempted to 
collaborate with U.S. Fish and Wildlife Service and the State 
agencies to determine the impact of that mercury on 
contamination of fisheries?
    Dr. Alpers. There has been a lot of collaboration, 
particularly in San Francisco Bay on wildlife effects, and I 
believe Fish and Wildlife Service is one of the agencies we 
have worked with on that. Particularly the effects on birds 
have been studied down there. There is a lot still unknown 
about effects on fish as far as wildlife effects.
    Mr. Costa. None that you are aware of that have been done 
here in the Sacramento-San Joaquin River systems as it relates 
to U.S. Fish and Wildlife Service?
    Dr. Alpers. I am not aware of any direct collaboration with 
Fish and Wildlife Service.
    Mr. Costa. Yes. Could you check into that?
    Dr. Alpers. Yes, I certainly will since we work with a lot 
of the agencies.
    Mr. Costa. I would be interested to know since that has 
become a significant issue recently.
    Dr. Alpers. Yes.
    Mr. Costa. Do you know if the restoration efforts are, in 
your opinion, working or do we think a longer term scientific 
follow-up is necessary on the sites?
    Dr. Alpers. Yes, many of the mine sites that have been 
remediated do have post remediation monitoring, and from what I 
have seen, most of them have worked fairly well. Some of the 
sites, unfortunately, have not had any monitoring or very 
little, and we do not know how well those are working.
    Mr. Costa. All right. My time has expired, and I will defer 
to the Ranking Member, the gentleman from the Sierra--how do 
you describe your district? Tahoe and around?
    Mr. McClintock. Tahoe is a really good way to describe it.
    Mr. Costa. Mr. McClintock for five minutes.
    Mr. McClintock. The heart of the gold rush would work for 
the purpose of this hearing.
    Mr. Costa. All right.
    Mr. McClintock. Dr. Alpers, may I just follow up on a quick 
point? Did you say that you had determined that 17 percent of 
the mercury contamination is coming from abandoned mines? Did I 
hear that correctly?
    Dr. Alpers. No, that is not exactly what I meant to say 
anyway. Again, looking at data from the Regional Water Board's 
TMDL report, they identified 17 percent as the contribution 
from the Feather River of total mercury loads toward the Delta.
    Mr. McClintock. And Feather River is contributing 17 
percent of the mercury contamination downstream in the bay?
    Dr. Alpers. Yes.
    Mr. McClintock. What I am trying to get a handle on is, 
first of all, how much of this is coming from mine 
contamination dating back 160 years and how much of it is 
background mercury just existing in nature or, for that matter, 
other sources.
    Dr. Alpers. Yes, that is definitely an interesting 
question. In the Sierra Nevada, the background mercury levels 
are quite low, and so it is a reasonable assumption that just 
about all of the mercury we see in the Sierra Nevada streams is 
anthropogenic.
    Mr. McClintock. Have we actually studied that?
    Dr. Alpers. Yes.
    Mr. McClintock. Or what do you base that on?
    Dr. Alpers. There are several studies by USGS and others. 
When you go upstream of the mines you see much lower 
concentrations in sediment and fish, as it turns out. Cores 
done in lakes also show that when you get down to layers older 
than 1850 you see approximately four or five times lower 
mercury concentration.
    Mr. McClintock. I am trying to get a handle on just how 
serious is this problem. Again, when we look at contamination 
going back more than a century, and as I understand it, most of 
the really heavy use of mercury occurred in the late 19th and 
very early 20th Centuries. I would assume that as the mercury 
was being lost through the sluice process, you had very high 
levels of contamination in these river systems that has 
declined as the practice abated, stopped, and we are dealing 
with the residual.
    What I am trying to get a handle on is, OK, what is the 
actual damage out there. Have we seen in recent years huge fish 
kills, you know? Are we seeing brain damaged bears that have 
been dining on contaminated fish? Just how serious is the 
problem?
    Dr. Alpers. Well, the way the agencies have looked at that 
and particularly EPA has guidelines for mercury in fish, for 
human health issues and wildlife exposures are also based on 
these tissue levels that are measured, and there are numerous 
studies that show that there has been harm, particularly to 
birds that eat fish. They are a little more sensitive than some 
of the other species.
    There has been very little study of mammals eating fish. 
That is a real information gap right now as far as bears or 
otters or mink, for example, which in some areas have been 
shown to have toxic effects in other areas.
    Mr. McClintock. Now, do we have a trend yet? At what rate 
is this problem abating? Again, it has been many, many years 
since mercury was introduced into those mines. I have to assume 
that a lot of that has already been washed out. How much is 
left and what is the trend line?
    In other words, is this something where if we pretty much 
just left it alone, it would go away by itself?
    Dr. Alpers. I think it would take perhaps hundreds of years 
probably before we would see that effect, but there is really 
no data to base that on. Just on the amount of sediment that 
remains in the mined areas, the mining sediment is still there, 
and there are still oxidized forms of mercury that continue to 
come into----
    Mr. McClintock. How do we get that data? There has not been 
a study on that?
    Dr. Alpers. Well, there are limited studies of that, but I 
think more work needs to be done on just how much mercury is 
coming from the mines into the rivers. There are some loading 
studies, but we do not know specifically which mines they are 
coming from.
    Mr. McClintock. Thank you.
    If I could go to Mr. Meer for just a moment, Mr. Meer, the 
EPA, I understand, has a regulatory process for granting Good 
Samaritan liability relief. How often has this regulatory 
process been used? And has it ever been granted to a mining 
company or have any mining companies made an effort to utilize 
this regulatory process to voluntarily clean up mines.
    Mr. Meer. We do have a process, and the tool is a model 
administrative order on consent, is what we call it. I would 
describe the program as in its early phases in terms of its 
application. We have had a few discussions with potential Good 
Samaritans. I am not aware that we have offered Good Samaritan 
status to any large mining companies at this time, but it is 
one of the tools in the tool box, and one that we offer up when 
there are bona fide Good Samaritans that appear.
    Mr. McClintock. We have a mine in Nevada County, the Idaho-
Maryland Mine, a very famous mine dating back many, many 
decades, now in the process possibly of reopening, and it seems 
to me that would be one tool to use that would not cost us 
anything and would add to the solution.
    Mr. Meer. We would be delighted to talk to people that 
might want to avail themselves of that.
    Mr. Costa. To take a second round here, my focus is Mr. 
Abbott and Mr. Moore, and talk in more detail about the 
collaboration between the Bureau of Land Management and the 
U.S. Forest Service.
    This year you received extra funds in your budgets under 
the stimulus package to deal with abandoned mine clean-up 
around the country and in California. How were these monies 
invested on the mine clean-up? And can you point to any efforts 
as it relates to remediation, as it relates to the mercury 
impacts?
    Mr. Abbott.
    Mr. Abbott. The additional capacity that we have acquired 
this year through the stimulus funds was utilized and invested 
according to the priority list that I mentioned previously in 
my testimony where the State partners have identified the lists 
of known sites around the State and evaluated the highest 
priorities for investment in terms of remediation based on a 
number of the factors that have been mentioned here this 
morning in terms of exposure.
    Mr. Costa. And how much was that?
    Mr. Abbott. We received $8.75 million of that, and about $6 
million of that is being invested in environmental contaminant 
issues related to the Sacramento and Cache Creek drainages; 
about $2 million on other physical safety hazards around the 
state.
    Mr. Costa. Mr. Moore, you talked about the inventories that 
had been done. Are all of you folks at least from the Federal 
agency, and maybe I will ask the question with the next panel 
with the State agencies, as it relates to your areas that you 
are covering on the same page? In other words, are you 
collaborating as it relates to agreeing on the prioritization 
process? I mean, whether it is Cache Creek or the Sacramento 
River, which mines are creating the most amount of toxic 
potential, and having an agreement as to how you go forth to 
deal with that remediation?
    Mr. Moore. Well, yes, we are cooperating, but like with 
most things, I mean, it can continue to get better. I will give 
you one example which I mentioned where I thought we had great 
cooperation, and that was when the State had issued a fish 
advisory, fish consumption advisory on Trinity Lake, and 
working with EPA to remediate the point source of that mercury, 
and as we had mentioned, we had spent to date about $7 million 
remediating that one site.
    The other area in terms of some of the stimulus funds, 
nationally the Forest Service has received about $22 million 
for the AML types of projects, and we received about 50 percent 
of the total nationally here in California.
    Mr. Costa. Half.
    Mr. Moore. About $11.2 million of the 22.3.
    Mr. Costa. And you are collaborating with BLM on this 
effort here?
    Mr. Moore. Well, as I mentioned in an earlier report, where 
I think we could continue to improve, we all have lands that we 
are responsible for managing, and we have different priorities 
on those different pieces of land. What I am suggesting is that 
perhaps we can look across the State and decide from a human 
and environmental contaminants standpoint which of those 
projects, regardless of the land base, would be the most 
important for us to tackle first.
    Mr. Costa. Well, it gets back to risk assessment versus 
risk management, and I think that any well thought out plan has 
got to have a balance between what poses the greatest threat 
vis-a-vis risk assessment, and then based upon that, how you 
apply the risk management tools available to you.
    On your inventory sites each year, how many can you do 
based on budget? I mean, we are talking about these thousands 
of abandoned mine sites. Do you have any basis on the last two, 
three years that you are inventorying?
    Mr. Moore. Yes. Over the last three years, we have 
investigated about five or six sites and cleaned up perhaps two 
or three, based on the funding level.
    Mr. Costa. That is not very many when we look at the larger 
picture.
    Mr. Moore. No, it is not. In fact, the 47,000 sites we have 
across the state, 7,500 of those are on national forest system 
lands, and of that 7,500, 20 percent of those, approximately 20 
percent, pose environmental contaminant kinds of hazards, and 
about 65 to 70 percent of those sites pose some level of public 
safety hazard.
    Mr. Costa. And do you have a listing that talks about the 
potential exposure or risk?
    Mr. Moore. Well, we have a list of all of the sites that 
have been located to date.
    Mr. Costa. And you do that in cooperation both with the 
State and the local agencies?
    Mr. Moore. Yes. In fact, we are looking at making the State 
the kind of repository of the inventory, and so we use the same 
list that they use for consistency.
    Mr. Costa. All right. My time has expired. Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Let me continue with Mr. Meer on the question of Good 
Samaritan liability relief. If I understand the EPA, the Office 
of Surface Mining in the State of Pennsylvania developed their 
own Good Samaritan process to help expedite the cleaning of 
coal abandoned sites. What can you advise Californians on that 
cooperative process?
    Mr. Meer. Well, I cannot speak to that process in detail 
because I am not that familiar with the Pennsylvania Region 3 
process, but I will say that the more dialogue that there is 
between the state regulators and EPA the better, and if there 
are Good Samaritans out there that are not looking to derive a 
financial benefit from the agreements that we reach and are 
really----
    Mr. McClintock. Well, suppose they do want to derive a 
financial benefit. So what?
    Mr. Meer. I do not believe that they would be eligible for 
this particular tool. Now, there may be other tools available.
    Mr. McClintock. Well, why wouldn't they? I mean, the whole 
objective is to clean up the contamination. Who cares what 
their motive is?
    Mr. Meer. I cannot really speak to that, Congressman, 
because I did not develop the policy, but my understanding is 
that that is one of the criteria.
    Mr. McClintock. Again, that also may explain you had 
indicated this is a tool in your tool box, but you do not know 
of a single instance where a mining company has been granted 
this liability relief so that they can actually go and clean it 
up. Is this an ideological aversion to profit that is causing 
it?
    Mr. Meer. Not at all. It is more where the company or the 
individual would have to come forward and indicate an interest. 
I am not aware that we have had such interest to date.
    Mr. McClintock. If I could get back to the bigger question, 
I guess, Dr. Alpers or anybody who wants to chime in on this, 
again, I am still trying to get a handle on just how serious 
the problem is. There is mercury out there that is a very bad 
thing, but how much mercury is out there and how is that 
affecting the health of human or animal populations, so far all 
I have heard is, well, we are seeing some elevated levels in 
some birds and fish.
    To what extent is that creating a health problem?
    Dr. Alpers. Well, the reason that fish tissue is an issue 
is that it is the pathway to human exposure.
    Mr. McClintock. Right, but at what levels? I mean, are they 
lethal levels? Are we seeing fish kill-offs?
    Dr. Alpers. The way EPA gives guidance to the state, and 
you can probably ask the State panel about this, but the Office 
of Environmental Health Hazard Assessment sets the fish 
advisories for the State of California, and they interpret the 
regulations such that at a certain concentration they advise no 
consumption for anyone, and then they have a more restrictive 
rule for women of childbearing age or children who are more 
sensitive.
    And so that concentration, I believe, for do not eat any 
fish at all for anyone, I believe, is .92 parts per million on 
a wet weight basis, and there are a number of lakes and streams 
where, for example, the bass exceed that, and then there are a 
larger number of reservoirs and water bodies where women and 
children are advised not to eat any. Then there are less 
restrictive rules.
    Mr. McClintock. Right, but let me ask: how much is directly 
related to abandoned mines?
    Dr. Alpers. That is a very good question. In the Sierra 
Nevada we think just about all of it because we have, again, 
studied upstream and recognize that the mercury is largely 
anthropogenic.
    In the coastal range, there is a higher natural 
background--for example around the active hot springs--to put 
out mercury that is in a reactive form that probably does 
bioaccumulate.
    Mr. McClintock. As I was going back through this 
Committee's old reports on the subject, I noted one that said 
that most of the mercury existing in the environment is 
released through natural processes. These natural processes 
include surface volcanic eruptions, deep sea vents, and 
volcanic activity, hot springs such as the geyser basins in 
Yellowstone National Park, and those at the bottom of Clear 
Lake in California, evaporation from the ocean basins, other 
water bodies and soils, and erosion. The ocean alone contains 
millions of tons of naturally occurring mercury. These natural 
emissions contribute approximately 61 percent of the annual 
emissions that make up the world mercury budget.
    And, again, I am just trying to get an accurate sense, and 
it sounds like maybe no report has yet been issued on this and 
maybe that is the first step, is to assess just how much of 
this is coming directly from mercury contamination from 
abandoned mines and what is the trend line. Is this a matter 
that is naturally abating or is it----
    Dr. Alpers. Part of the difficulty is you can track total 
mercury loads fairly well, but methylmercury, which is the form 
that bioaccumulates and is most toxic, is spatially variable 
and temporally variable. And so it is harder to pin it down, 
and for example, atmospheric deposition, which is a global 
problem, and on the West Coast here, we may get contributions 
from burning coal in China, for example. That does come in in 
atmospheric deposition. That may be more reactive than the 
mercury coming from mines. So even though it is only less than 
one percent of the load to the Delta, the dump of the 
atmospheric deposition could be important in terms of what is 
getting to the fish, but it is still a great unknown and 
scientifically with a lot of uncertainty right now.
    Mr. McClintock. It sounds to me like we have quite a ways 
to go just in defining and assessing the problem.
    Dr. Alpers. Yes, I would definitely agree.
    Mr. Costa. The time of the gentleman has expired. I want to 
move on to the next panel, but I would like to ask a question 
that you would respond back in written form to the Subcommittee 
and the Members, and that is: what is your protocol for 
establishing your priorities? And it just seems to me that your 
protocols, within reason, ought to be the same.
    If you are working well together, I mean, it is cost 
effective, and it is a lot more efficient if, in fact, Federal 
agencies use the same protocol based on risk assessment and 
risk management, similar to the point of Mr. McClintock's 
questions about the level of the severity that we are dealing 
with. It seems to me that in a hand-in-glove working 
relationship that that protocol ought to be very similar 
between the feds, the State and local agencies if we are doing 
our jobs properly and working together.
    So please submit that in the form of a written answer, and 
we will move to the next panel. Thank you very much.
    Well, we have our next panel here, our esteemed group of 
witnesses, and talk about deja vu all over again, good morning, 
Ms. Adams, Mr. Baggett.
    Ms. Luther, I do not know you as well, but you are hanging 
with a very--yes, I just want to give you forewarning.
    Anyway, I am very pleased that the Secretary of the State 
of California's Environmental Protection Agency, Ms. Linda 
Adams, could be here this morning. I know that you have been 
busy with a lot of other efforts on behalf of the Governor and 
the state, and I do appreciate that.
    For those of you who are not aware, in a previous life Ms. 
Linda Adams and I had the pleasure--or at least I did; I am not 
so sure she did--but to work together for many years when I 
used to be here.
    So you have two of your agencies that are here today, and 
we will recognize the Secretary for opening comments.

           STATEMENT OF HON. LINDA ADAMS, SECRETARY, 
      STATE OF CALIFORNIA ENVIRONMENTAL PROTECTION AGENCY

    Ms. Adams. Good morning, Mr. Chairman and Congressman 
McClintock. And I have to say, Mr. Chairman, you were a great 
boss and I assume you still are. So it is very nice to see you 
this morning.
    Mr. Costa. Good to see you, Linda.
    Ms. Adams. I am Linda Adams, Secretary of the California 
Environmental Protection Agency.
    It is our mission to protect and enhance the environment. 
Our boards and departments monitor and regulate air quality, 
water quality, pesticide use, waste reduction, and hazardous 
substances throughout California.
    As you know, one of the ongoing issues we deal with is the 
toxic chemicals that come from California's 47,000 abandoned 
mine land sites, 121 of which pose a substantial threat to 
public health because of their discharges into California 
waterways. These mines leak mercury and other metals into our 
waterways and threaten our water quality and the safety of 
vulnerable populations.
    Mercury travels up the food chain and is most harmful in 
fish. Major sources of mercury in the environment are runoff 
from former gold mining sites where mercury was used; emissions 
from coal burning power plants; and the weathering of mercury-
containing rocks.
    Mercury accumulates in river sediment and is converted to 
bacteria, to the more toxic methylmercury, which fish take in 
from their diet. Women can pass methylmercury on to their 
fetuses. Excessive exposure to methylmercury may affect the 
developing nervous system in children, leading to subtle 
decreases in learning ability, language skills, attention or 
memory. These effects may occur through adolescence, as the 
nervous system continues to develop. It is the reason why my 
Office of Environmental Health Hazard Assessment issues safe 
fish eating guidelines and warnings when mercury levels are too 
high for human consumption.
    And for the Committee, I have samples of those public 
health warnings for Sacramento River, Folsom Lake, and Lake 
Natoma for the Committee.
    Mr. Costa. Without objection, we will submit them for the 
record.
    [NOTE: The public health warnings have been retained in the 
Committee's official files.]
    Ms. Adams. Thank you.
    For instance, mercury mines are the biggest sources of the 
pollution in San Francisco Bay and the Sacramento-San Joaquin 
River Delta, the largest estuary on the Pacific Coast. In all, 
this metal has contaminated thousands of square miles of water 
and land in the northern half of the state.
    For example, Iron Mountain Mine in Redding is considered 
one of the worst polluted places in the world. It is so bad 
that its toxic brew of chemicals eats through workers' clothes 
and dissolves equipment. It has killed off living organisms and 
seeps into the local waterways, including the Sacramento River.
    While Iron Mountain received more than $20 million in 
Federal economic stimulus money for clean-up, the situation is 
so bad that it, of course, requires much more money and 
resources than we have. There are situations like this 
throughout the State in water and streams that run through 
people's backyards.
    Many people have reported the ill health effects, and some, 
including those from Clear Lake, have shown significantly high 
levels of metals in their bodies. Those that are especially 
susceptible are the vulnerable populations that rely on local 
waterways for fish and those that live on or near these 
contaminated waterways.
    These mines once offered a dream to many making their way 
out of California, but now these toxic legacies are leaving us 
with public health and environmental problems. It is an issue 
that requires the partnership of mine owners, the Federal 
government, and the State of California to work together to 
fund the clean-up of these toxic threats.
    With that, I would like to introduce a member of our State 
Water Resources Control Board who works to protect, preserve, 
and restore beneficial uses of California's water. Mr. Art 
Baggett, Jr. serves as the attorney, member, and former Chair 
of the State Water Board. He has been instrumental in achieving 
stakeholder agreement on such difficult issues as Imperial 
Valley water and Klamath River Dam removal. And his testimony 
will provide a much more in depth discussion about California's 
abandoned mines.
    Thank you, Mr. Chairman.
    Mr. Costa. Thank you very much, Secretary Adams.
    Ms. Adams. You are very welcome.
    Mr. Costa. And, Mr. Baggett, your previous experience from 
local government as a county supervisor in Mariposa County and 
your legal expertise in the years that you have served the 
State on the California Water Board I think puts you in a good 
position to provide your expert testimony here as we deal with 
these challenges, and so we look forward to your comments. The 
five-minute rule does apply to you though.

STATEMENT OF ARTHUR G. BAGGETT, JR., BOARD MEMBER, STATE WATER 
  RESOURCES CONTROL BOARD, STATE OF CALIFORNIA ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Baggett. Thank you, Chairman Costa and Congressman 
McClintock, for the opportunity to appear before you today.
    I think as the Secretary stated, our responsibility, as you 
both know, is to enforce the Federal Clean Water Act as a 
delegated state and also the California Water Codes. To protect 
the benefit of uses for municipal drinking water applies for 
swimming and recreational uses, fishing, the natural 
environment, for agriculture and industrial uses as well, a 
very complex task.
    California mines cause two serious water quality problems: 
acid drainage and mercury in the waterways. They are both 
incredibly complex and take generations to address. For 
example, the Iron Mountain issue that the Secretary talked 
about today. When I was Chair, we signed a settlement that 
actually anticipates 2,000 years, a legal settlement of a 2,000 
year clean-up plan. That gives you an idea of the magnitude of 
some of these issues.
    Acid mine drainage--I think the real challenge is we have 
removed the over-burden, and the soils that protected some of 
these rocks which contain iron sulfide and once those minerals 
are exposed to air, it is hard to put I would say the genie 
back in the bottle. So we have exposed a lot of these rocks 
over decades of mining, as you have heard, and that water 
discharge from these sites has virtually sterilized streams in 
the Sierra foothills, the copper belt particularly, from 
Marysville to Fresno, the East Carson River, Shasta Lake, Lake 
Davis, Lake Tulloch, and the Delta.
    I will try to give you an idea of our regulatory authority 
and some ideas we would have to move forward.
    One, we regulate abandoned mines with acidic discharge 
under both the Acts mentioned previously. The case of abandoned 
mines where there are no viable, directly responsible parties 
and the State has issued orders to property owners who may not 
have the resources and often do not have an affiliation with 
the original mining activity is where the challenge lies.
    There are two interrelated serious impediments to clean-up 
of mines by anyone who is not a responsible party. First, the 
treatment technologies that are currently available for acidic 
mine discharges are not sufficient to meet water quality 
standards prescribed by the Clean Water Act and EPA's 
California Toxics Rule.
    The second impediment is the violations of the Clean Water 
Act. You can have a third party lawsuit filed against you. So, 
therefore, people who are not responsible parties are very 
reluctant, I think, to go to some of the previous panel's 
discussions, to try to take actions to remediate mine 
discharges because, one, they will become a responsible party 
under current law if they do so; two, they often will not be 
able to meet the Federal Clean Water Act requirements due to 
the limitations of this existing treatment technology; and 
three, they can be sued by third parties for failure to meet 
these requirements.
    The cost of these clean-ups is extremely high, and hundreds 
of millions of dollars in some cases. In Penn Mine, which we 
have submitted information on, it was $10 million, for example.
    Let me jump straight to the recommendations. You have our 
written testimony.
    One, we would ask to recast the Clean Water Act and the 
California Toxics Rule for abandoned mine discharges so that 
clean-up requirements rely on the use of best available 
technologies rather than always having to meet the numeric 
effluent limitations.
    Two, establish an effective Good Samaritan law to ensure 
that innocent persons, including certain landowners who do not 
participate in or benefit from historical mining activities and 
who undertake activities to improve the environment at or 
downstream from an abandoned mine site will be shielded from 
liability for preexisting discharges of pollutants under the 
Clean Water Act.
    Under the Good Samaritan law, a Good Samaritan's 
responsibility under the Clean Water Act should focus on 
improvements in downstream water quality rather than strict 
compliance with water quality standards.
    Three, allow public entities to take, if you will, an 
abandoned mine property for the purpose of clean-up from a 
private land owner who cannot afford to clean it up. Cleaned up 
property could then be put up for sale if appropriate.
    And last, provide additional funding, and we notice both 
the Senate bill and the House bill, which you mentioned in the 
beginning, are both, I think, really appreciated and a good 
start at coming toward some of the helping of the money.
    Second, mercury. The original sources are from a few 
mercury mines, but mainly as you have heard from gold mining 
areas. At this point it is a legacy mercury issue. It has been 
transported in the rivers and deposited in the San Francisco 
Bay, the Delta and elsewhere.
    In the coastal range, it was primarily from the actual 
mining of mercury. In the Sierra Nevada, it is from the 
historic mining, as you heard.
    Elemental mercury can methylate as, I think, already the 
previous panel discussed in the environment, and that is where 
the challenge lies.
    Again, we have the similar regulatory authorities for 
mercury, although when it is a non-point source we do use the 
Clean Water Act's total maximum daily load analysis, the TMDL 
program, to deal with an impaired water body. We have currently 
just adopted one last week on the Guadalupe and the San 
Francisco Bay, and we are still working on the Delta TMDL.
    We likewise have many recommendations for how to deal with 
some of the mercury issues and to continue to clean up the 
abandoned mines, but I see my clock is ticking down.
    Mr. Costa. Yes.
    Mr. Baggett. You have them in writing. So I would just like 
to conclude. As you both know, the California Water Boards take 
our mandate very seriously to protect these beneficial uses for 
the people and the environment of the state, and we stand ready 
to work with the Congress and with the administration, the 
Obama Administration, to help craft a comprehensive and 
scientific based strategy for addressing these mines and the 
mercury issues.
    [The prepared statement of Mr. Baggett follows:]

          Statement of Arthur G. Baggett, Jr., Board Member, 
        State Water Resources Control Board, State of California

    Chairman Costa and members of the Subcommittee, thank you for the 
opportunity to appear today to discuss our experience with abandoned 
mines and mercury in California. California has a long history of 
mining and its environmental impacts, which dates back to the 
California Gold Rush, which began in Coloma just east of Sacramento in 
1848. People from across the nation are drawn to our rivers and streams 
throughout California, from the rugged Coastal mountains and Sierra 
Nevadas to the extensive Sacramento and San Joaquin river systems and 
the Delta. We have many federal, state, and local parks and their lakes 
and rivers are a focal point for recreation. People journey to 
California to enjoy the outdoors, to swim and to fish, among other 
water sports. It is the responsibility of the State Water Resources 
Control Board to protect beneficial uses of water under both the Clean 
Water Act and under the California Water Code. These beneficial uses 
include drinking, swimming, fishing, and many other uses that are the 
foundation of peoples' enjoyment of California's vast natural 
resources.
    California's mines cause two serious water quality problems--acid 
mine drainage and mercury in waterways--which are both complex and will 
take generations to address effectively. Acid mine drainage has 
resulted in miles of streams that can no longer sustain aquatic life. 
Mercury poses one of the highest human health threats of all the water 
quality problems the Water Boards face.
    Based on information acquired from state and federal agencies in 
2007, there are an estimated 47,000 Abandoned Mine Land (AML) sites in 
California. Approximately 50% of AML sites are located on private 
lands, 48% are located on federal lands and 2% on state lands and they 
are widely distributed across the state. We have identified 121 of 
these abandoned mines as posing a substantial threat to public health 
and the environment by potential direct exposure to toxic constituents 
(e.g., arsenic, mercury, lead); by acid mine discharges to waters of 
the state; or by discharges of mercury and mercury mine waste into 
waters of the state.
ACID MINE DISCHARGES
    The Problem: Of the 121 abandoned mines in California that have 
been identified as posing a significant threat, over 50% of the sites 
are abandoned mines that generate acid via a natural process of iron 
sulfide oxidation. The process is referred to as acid mine drainage. 
Mining initiated the natural process by exposing rock that contains 
iron sulfide minerals to air and water. Once initiated, acid generation 
is for all practical purposes impossible to stop. Therefore, acid mine 
drainage is the continuous and almost uncontrollable discharge of very 
acidic, metal-rich water from mines that enters streams and rivers 
resulting in miles of waterways barren of aquatic life. Acidic mine 
water discharges from such sites has virtually sterilized streams in 
the Sierra foothill copper belt (from Marysville to Fresno) and the 
East Carson River, and pollutes Shasta Lake, Lake Naciemento, Lake 
Davis, Lake Tulloch, and the Delta. In fact the lowest acidity ever 
measured was at a Superfund/CERCLA site, Iron Mountain Mine near 
Redding, which had a negative pH.
    Regulatory Authority: We regulate abandoned mines with acidic 
discharges under the authority of the federal Clean Water Act and 
California's Porter-Cologne Water Quality Control Act, but it is often 
a challenge to find a financially viable responsible party. In the case 
of abandoned mines where there are no viable, directly responsible 
parties, the state has issued orders to property owners who may not 
have resources and who often have no affiliation with the original 
mining activities. At times, the only option for reducing the adverse 
environmental impacts of acid mine drainage is for a public agency, 
such as the Water Boards, to take actions to reduce and treat the acid 
mine discharges. Although the Water Boards have remediated some sites, 
such as Penn Mine and Leviathan Mine, and significantly reduced the 
environmental impacts of acid mine discharges from these mines, there 
are two interrelated serious impediments to the cleanup of mines by 
anyone who is not the responsible party. First, the treatment 
technologies that are currently available for acid mine discharges are 
not sufficient to meet water quality standards prescribed by the Clean 
Water Act (and specifically U.S. EPA's ``California Toxics Rule'') and 
the second impediment is that violators of the Clean Water Act can be 
sued by third parties. Therefore, entities, such as the Water Boards, 
who are not responsible parties are VERY reluctant to try to take 
actions to remediate acid mine discharges because 1) they will become 
responsible parties under current law, 2) they often will not be able 
to meet federal Clean Water Act requirements due to the limitations of 
existing treatment technologies, and 3) they can be sued by third 
parties for failure to meet the federal regulatory requirements. These 
aspects of the Clean Water Act create strong disincentives for the 
Water Boards or other public or private agencies to cleanup abandoned 
mines.
    Cleanup: The cost of acid mine drainage cleanups is extremely high. 
Not only is the existing cleanup technology expensive, but cleanup 
usually requires permanent operation and maintenance (O&M) which must 
be funded almost literally forever. Therefore it is left to state and 
federal agencies to pursue these cleanups. Mine cleanup costs can be 
over $100 million for large sites such as Iron Mountain, Leviathian, 
and Sulfur Bank Mines. Cleaning up medium-sized sites like Spenceville 
and Penn Mines have cost over $10 million. Luckily, we probably won't 
be ``discovering'' any more ``large'' Iron Mountains or ``medium'' 
Spencevilles. Unfortunately, we will likely continue to discover many 
more ``small'' acid generating sites that will typically cost up to $1 
million to clean up.
    Abandoned mines are found on both public and private land. 
Abandoned mines on federal land can be addressed under the existing 
federal Superfund (CERCLA) program, although obtaining funding is 
always an issue. It is much more difficult to clean up abandoned mines 
on private land. Cleanup would be a costly burden for a current private 
land owner, whether or not they were the responsible party. There has 
been discussion that non-governmental organizations or individuals 
would voluntarily choose to fund abandoned mine cleanups. From this 
discussion it seems possible these parties might want to fund some of 
the very small mine cleanups. However with the aforementioned 
disincentives, it is highly doubtful that non-governmental parties will 
take up the necessary cleanup activities.
Recommendations:
    1.  Recast the Clean Water Act and California Toxics Rule for 
abandoned mine discharges so that cleanup requirements rely on the use 
of Best Available Technologies, rather than meeting numeric effluent 
limitations.
    2.  Establish an effective good Samaritan law to ensure that 
innocent persons, including certain landowners who did not participate 
in or benefit from historical mining activities, who undertake 
activities to improve the environment at or downstream from an 
abandoned mine site will be shielded from liability for pre-existing 
discharges of pollutants under the Clean Water Act. Under a good 
Samaritan law, a good Samaritan's responsibilities under the Clean 
Water Act should focus on improvements in downstream water quality, 
rather than strict compliance with water quality standards.
    3.  Allow public entities to ``take'' an abandoned mine property 
for purposes of cleanup from a private land owner who cannot afford 
cleanup. Cleaned up property could be put up for sale if appropriate.
    4.  Provide a funding source (e.g., royalties on mines on federal 
land).
MERCURY
    The Problem: In many water bodies, mercury levels in fish tissues 
are unsafe for human consumption. Although mercury is a natural 
element, mining activities primarily related to gold extraction have 
greatly increased its distribution in the environment. The original 
sources are a few mercury mines and many gold mining areas. However, at 
this point most ``legacy'' mercury has been transported into river 
sediments throughout Northern California and the San Francisco Bay and 
Bay Delta. There it persists and poses the greatest threat to the 
environment and human health. Primary areas affected by mining are 
Coast Range watersheds where mercury mining occurred and many small 
abandoned mercury mines exist; the Sierra Nevada watersheds where 
mercury used for historic gold mining was lost, and the San Francisco 
Bay and Bay Delta where mercury mine waste and mercury has been 
deposited from abandoned mercury mines in the Coast Range and abandoned 
gold mines in the Sierra Nevada.
    Elemental mercury can become methylated in the environment. 
Methylated mercury is bioavailable and is a potent neurotoxin. Fish 
consume plants with elevated methylmercury, which is then concentrated 
throughout the food chain. The greatest risk to humans is eating fish 
with mercury toxins. Unfortunately, environmental conditions conducive 
to the natural methylation process coincide with the wide distribution 
of mercury in California. Moreover, as evidenced by the recent San 
Francisco Estuary Institute Lakes Report, the more we investigate, the 
more we find water bodies that contain mercury-enriched fish. There is 
no easy fix to the mercury contaminated fish issue.
    Another aspect of California's water quality problems associated 
with mercury is the disturbances caused by suction dredging. Suction 
dredging is the use of motorized floating equipment to literally vacuum 
up stream and river bottoms in order to recover gold. Use of this 
equipment not only disturbs sediments, which can adversely affect fish 
and fish habitat, but also re-mobilizes legacy mercury that is already 
present in the sediments in our waterways.
    Regulatory Authority: Under the California Water Code, the Water 
Boards have the authority to regulate or prohibit discharges of waste 
including mercury, and to issue cleanup orders. In addition, under the 
federal Clean Water Act, states are required to list water bodies that 
are impaired by pollutants, then to require cleanup of the impaired 
water bodies through establishment of Total Maximum Daily Loads 
(TMDLs). Appendix I shows the numbers of mercury-impaired water bodies 
and TMDLs approved thus far to address mercury impaired water bodies in 
California. TMDL development and implementation is a resource-intensive 
approach, but it is allowing the Water Boards to begin to address our 
legacy mercury sites.
    Cleanup and Other Actions: Cleaning up abandoned mercury mines 
(except for a few acid generating abandoned mercury mines) and cleaning 
up mercury at abandoned gold mines is straightforward and relatively 
inexpensive compared to cleaning up acid generating sites. Furthermore, 
these cleanups do not result in federal Clean Water Act liability. 
However, even though such cleanups do reduce human exposure to mercury, 
and mercury discharges to surface water bodies, they do not cause 
measurable reductions in fish tissue mercury levels either near or far 
from a mercury source site. This is due to the widespread distribution 
of mercury in sediment of Coastal and Sierran streams. Such sediment is 
continually transported into aquatic environments where it is 
methylated and biologically concentrated in fish. Cleanup through 
dredging of sediment is problematic because dredging churns up the 
mercury-laden sediment making it available to natural methylation.
    Regarding the issue of suction dredging, the state is taking 
several actions to address water quality concerns associated with 
suction dredging. Earlier this year, the Legislature passed, and the 
Governor signed, Senate Bill 670 (Wiggins, Ch. 62, Statutes of 2009), 
which prohibits suction dredging until the California Department of 
Fish and Game (DFG) updates its suction dredge regulations. The State 
Water Board is working closely with DFG on this regulatory update. 
Earlier this year, the State Water Board provided $500,000 in funding 
to DFG to ensure that water quality issues are fully addressed in the 
environmental documents associated with the regulation update. An 
Initial Study was released on November 2, 2009. The state is in the 
process of holding public meetings to obtain input on the regulation 
update effort. DFG anticipates finalizing their regulation update by 
the end of 2011.
Recommendations:
    1.  Continue to clean up abandoned mercury mines when human 
exposure benefits are clear or mercury loading to surface water can be 
substantially reduced.
    2.  Continue to clean up mercury from abandoned gold mines to 
prevent human exposure and off site transport by recreational miners.
    3.  Continue assessing fish for mercury in water bodies 
contaminated by mercury (target the Sierra Nevada) so that affected 
water bodies can be listed as impaired for mercury and TMDLs are 
developed and implemented.
    4.  Continue funding studies aimed at developing land use 
management techniques that reduce mercury transformation into the 
biologically available methyl mercury.
    5.  Provide a funding source (e.g., royalties on mines on federal 
land).
    6.  Greatly expand efforts to issue and post consumption advisories 
so that the public knows the risk of eating contaminated fish.
CONCLUSION
    The California Water Boards take seriously our mandate to protect 
beneficial uses. However, as I have just described, addressing 
abandoned mines is resource intensive, and as we have seen, the very 
nature of abandoned mines makes it impossible to protect beneficial 
uses perfectly. Acid mine drainage from abandoned mines will continue 
to plague us at some sites for thousands of years according to the best 
scientific estimates. Mercury lost to surface water bodies over a 
hundred years ago from gold and mercury mines continues to contaminate 
fish that people eat. This is a beneficial use but it is also a public 
health issue. Let me conclude by saying that California stands ready to 
work with Congress and the Obama Administration to help craft a 
comprehensive and science based strategy for addressing abandoned mines 
and mercury issues. We believe such an approach should be developed 
with a look toward all of our options including cleanup and prevention 
in concert with Clean Water Act amendments that would allow regulatory 
agencies to clean up abandoned sites without incurring liability.
[GRAPHIC] [TIFF OMITTED] 53883.001

                                 .eps__
                                 
    Mr. Costa. Well, thank you very much, Mr. Baggett, and in 
the question and answer portion we can get to some of your 
recommendations. I appreciate your very precise testimony on an 
area that obviously you have a great deal of knowledge.
    Our last witness, does the Secretary want to introduce the 
Director or do you want me to do that?
    Ms. Adams. I will be happy to introduce Director Bridgett 
Luther, California Department of Conservation.
    Mr. Costa. Very good. Ms. Luther, five minutes.

     STATEMENT OF BRIDGETT LUTHER, DIRECTOR, DEPARTMENT OF 
   CONSERVATION, STATE OF CALIFORNIA NATURAL RESOURCES AGENCY

    Ms. Luther. I would love to have Linda as my boss, but I 
also love working for Secretary Chrisman at the Natural 
Resources Agency.
    Mr. Costa. Well, I called Mr. Chrisman, and you tell Mr. 
Chrisman he owes me a phone call back. OK?
    Ms. Luther. I will. I will tell him that.
    Mr. Costa. But I am glad that you are here.
    Ms. Luther. I am here.
    I want to thank you for putting together this meeting today 
and highlighting this important problem, and I also want to 
thank the California Legislature for creating the Office of 
Mine Reclamation in 1991 that oversees the State Surface Mining 
and Reclamation Act, acronym SMARA. If we had SMARA in effect 
back during the gold mining days, we would not have the 
problems that we have now because now if you are going to mine 
in the State of California, you have to have a bond, and you 
have to have a plan for what you are going to do when you are 
finished mining.
    So SMARA is a very effective rule, and it does speak to 
many of the issues that we are talking about today.
    In 2000, the Abandoned Mine Lands Unit completed a report 
that many of you have been citing with the 4,000 abandoned 
mines in the State of California. Forty thousand are physical 
hazards, and 5,000 are environmental hazards. We know many of 
those environmental hazards. We have worked mostly with BLM in 
closing many of those and keeping people from getting hurt. 
Since our report in 2000, 15 people have died in accidents in 
many of your areas.
    Earlier this month, a 30 year old woman died when she fell 
100 feet into a mine shaft in Kern County, and four months ago 
a 22 year old man died when he fell into an abandoned tungsten 
mine in Inyo County.
    So I do want to highlight not only the environmental 
hazards, but also those physical hazards and dangers which will 
no doubt increase as more people move into and recreate in 
areas where there has been historic mining activity.
    The Abandoned Mine Lands Unit has worked with more than 44 
state, local and private partners to remediate many of these 
features, including wire fencing, backfilling, polyurethane 
foam plugs, seal plugs, caps, and installation of culverts and 
bat-friendly gates. Their work was actually featured on 
Discovery Channel's ``Dirty Jobs.''
    As part of the Abandoned Mine Lands Forum, which the 
Abandoned Mine Lands Unit holds, and one of the things you have 
been talking a lot about is coordination because there are many 
people, including state and Federal agencies, who get together 
and we actually took 117 abandoned mines as high priority 
environmental hazards. So there has been some initial work done 
on characterization and priority, and 100 high priority sites 
for physical safety hazards.
    We have estimated we will need approximately 528 million to 
remediate the physical hazards. The environmental hazards will 
probably cost in the billions.
    In order to continue to make significant progress on these 
efforts that we have already started in coordination with our 
partners, we suggest a full, wide, and I heard this previously, 
inventory because before you know how to solve the problem, you 
are going to have to know what it is.
    We are going to need site assessment, characterization and 
prioritization, a common screening process, and ranking 
criteria. This will require substantial funding, sustainable 
funding. Currently much of the work that we have been doing is 
coming from the California State Legislature through the State 
gold and silver mining fees. Most of the Federal funding is 
coming through budget appropriations, and it is not stable 
enough.
    We need to restore many of the mines, and we need to 
partner on research. I believe there are innovative approaches 
that we can find, and we need to partner with universities and 
the private sector.
    Finally, I would just like to speak to the picture over 
there, which is of Bodie Mine because it was just such a 
wonderful partnership. It was done cost effectively, and it was 
also done timely.
    Mr. Costa. Which picture are you referring to?
    Ms. Luther. The one on the far left with the pictures.
    What we did with our partners there is radon extraction.
    Mr. Costa. Over at Bodie?
    Ms. Luther. Yes, at Bodie. There was diversion ditch 
construction where we actually took old mine tailings, and put 
in a very large, deep ditch so that when there is a big rain, 
the mercury actually fills in that swale instead of running 
into the creek.
    There was remediation of contaminated sites around all of 
the assay buildings where the gold tailings and stuff and the 
lead and the mercury just poured outside those buildings. So 
there was a lot of brownfield clean-up, and we also fixed many 
public safety hazards.
    I would invite you to visit Bodie, but I would say one 
thing that we learned is that the problem is complicated, but 
there are solutions, given the right partners.
    Thank you, and I will take any questions you have later.
    [The prepared statement of Ms. Luther follows:]

                Statement of Bridgett Luther, Director, 
                 California Department of Conservation

    Good morning Chairman Costa and Subcommittee members. Thank you for 
the opportunity to testify before you today. My name is Bridgett 
Luther, and I am the Director of the California Department of 
Conservation, which includes the Director's Office of Mine Reclamation 
(OMR).
    OMR was created in 1991 to oversee California's Surface Mining and 
Reclamation Act (SMARA) of 1975 (Public Resources Code, Division 2, 
Chapter 9, section 2710 et seq.). This act represents some of the best 
regulatory legislation in the state. Through SMARA, the State of 
California ensures that miners must plan AND pay for the future--what 
will happen after their mine no longer exists--BEFORE they mine. In 
1996, the California Legislature created the Abandoned Mine Lands Unit 
(AMLU) within OMR to document California's historic abandoned (no-
longer-mined) mine problem. These findings were published in the 
Department's June 2000 report entitled California's Abandoned Mines: A 
Report on the Magnitude and Scope of the Issue in the State (see 
www.consrv.ca.gov/omr/abandoned_mine_lands/AML_Report/Pages/
Index.aspx). The AMLU currently implements a field program to inventory 
and assess these former mines AND remediates legacy mining hazards on 
public lands in order to protect human life and safety and any 
associated wildlife and cultural values.
    Unfortunately, neither SMARA nor our Abandoned Mine Lands (AML) 
program existed during and for a century after the Gold Rush of the 
mid-1800s. Years of mining later, California faces a legacy of 
abandoned mines that threaten public safety and health, pollute our 
surface and ground water, land, and air with mercury, lead, and other 
chemicals, and endanger our wildlife. The industry not only left a 
toxic legacy, the focus of your hearing today, but it also left lots of 
open mines that range from small horizontal openings called adits, to 
pits, steep highwalls, and vertical shafts where ore was pulled from 
more than 1,000 feet below the ground surface. And, from the high 
Sierras to the desert, thousands of acres of mined lands today are 
wastelands, unable to support vegetation or wildlife.
    The presence of mercury in thousands of miles of Sierra waterways, 
the Delta, and San Francisco Bay is another environmental impact 
related to centuries-old gold mining in California. The historic 
practice of charging sluice boxes with mercury may have been efficient 
at capturing gold; however, an estimated 6,000 tons of mercury was lost 
to the environment from Sierra gold mines, in addition to the 
approximately 33,000 tons of mercury that was lost from Coast Range 
mercury mines.
    My goal today is to briefly describe California's historic AML 
problem, and to highlight some key challenges facing the agencies and 
organizations that are tackling the legacy of an unregulated industry. 
Here is what we know.
    <bullet>  Extent and Nature of the Problem. California's federal 
and state AML agencies estimate that there are about 47,000 abandoned 
mine sites located throughout the State. These mine sites contain 
approximately 165,000 individual mine features (such as vertical shafts 
and horizontal adits). Gold was the main commodity mined at nearly half 
of California's abandoned mines. Gold accounts only for approximately 
2.5 percent of total mining production in the state (2008 data based on 
total value of minerals mined).
    <bullet>  Both Physical and Environmental (Chemical) Hazards. 
Nearly 40,000 abandoned mines (84 percent) are physical safety hazards 
and more than 5,000 (11 percent) are environmental hazards. An 
estimated 62,000 of the State's 165,000 mine features present hazardous 
openings that could present a threat to human life.
    <bullet>  A Statewide Issue. California's abandoned mines can be 
found in every county except San Francisco. Approximately 47 percent of 
these mines are located in San Bernardino and Inyo Counties and 12 
percent are located in the ``Mother Lode'' area in the Sierra. About 67 
percent are located on federal lands, 2 percent on State or local 
lands, and 31 percent on private lands.
    <bullet>  Increasing exposure. In recent years, the number of 
people migrating to regions of the State with high densities of AML 
sites has increased significantly. Examples include the ``Mother 
Lode'', a historical gold mining region in the Sierra Nevada that 
stretches for 300 miles along historic Highway 49, where communities 
such as Grass Valley, Nevada City, Sutter Creek, and Jackson are 
undergoing rapid growth. Population increases in these areas have 
resulted in the development of properties for residential, 
recreational, and commercial uses on or near AML sites. Recreational 
use of public lands is also increasing in the desert regions and other 
areas of the State that contain hazardous AML sites.
    <bullet>  A Critical Priority. In each of the past four years, 
Governor Schwarzenegger has identified federal funding for abandoned 
mine restoration as a critical priority to California and the nation. 
Key benefits to the people of California from sustained new funding for 
a long-term AML remediation program would include:
      <all>  Improved public safety and a healthier environment.
      <all>  Enhanced coordination among federal and state agencies on 
AML restoration and remediation projects throughout the State.
      <all>  Enhanced enforcement capabilities on sites with 
potentially responsible parties.
What Impacts are Associated with Abandoned Mines?
    Abandoned mine lands present two general types of hazards: physical 
hazards and environmental or chemical hazards.
Physical hazards
    Physical hazards include the mine workings themselves, derelict 
structures, and mining-related equipment. Some of the time, these 
hazards can be classified as attractive nuisances, as they are not only 
easy for an observant person to recognize, but their recognizable 
features cause people to approach and even enter the hazard instead of 
following our motto of ``Stay Out-Stay Alive.''
    Open shafts descending tens to thousands of feet are particularly 
hazardous, and they have injured and killed both children and adults 
that were hiking or riding on bicycles, road bikes, or off-highway 
vehicles throughout the state. Many people are less aware of the 
potential hazards of adits, abandoned quarries, and highwalls, which 
can include hidden vertical openings, bad air, risk of drowning, or 
falling rock.
    Since 2000, 44 accidents involving 47 people and 13 animals, and 
resulting in 15 people dying, were reported at abandoned mines in 
California. This includes an accident earlier this month, when a 30-
year-old woman died after falling 100 feet into a vertical abandoned 
mine opening in Kern County. Other recent notable accidents include the 
following.
    <bullet>  In July 2009, a 22-year-old man died after falling off a 
highwall at the abandoned Tungsten Blue Mine (Inyo County).
    <bullet>  In May 2008, three men in their 20s died from carbon 
monoxide poisoning in an abandoned gold mine they had dewatered (Madera 
County).
    <bullet>  In June 2007, a 41-year-old man died after he was thrown 
from his motorcycle on a rocky trail at an abandoned quarry (Plumas 
County).
    <bullet>  In April 2006, a 41-year-old man out riding an off-
highway vehicle with his six-year-old son died after walking into an 
adit and falling 50 feet down an internal shaft (San Bernardino 
County). The son made his way alone to try to obtain help. This 
accident was the subject of a ``Stay Out-Stay Alive'' DVD that the 
Department collaborated with the federal Mine Safety and Health 
Administration (MSHA) to produce (see www.msha.gov/streaming/wvx/sosa/
Rusty.wvx). One week later, a rescue team pulled a 34-year-old man out 
of the same abandoned mine.
    Several of these accidents and other ``near misses'' occurred on 
federal- and state-owned lands. It is likely that many more incidents 
occurred that were not reported.
    Collapsing underground abandoned mine workings represent another 
physical hazard that can occur at any time. If the mine workings are 
near the ground surface, subsidence may occur. Although the potential 
for this type of physical hazard can be more difficult to predict, 
several instances of abandoned mine-related subsidence have occurred in 
recent years, turning once valuable property into a liability. As 
California's growing population moves into formerly mined lands, the 
risk of additional occurrences, and for injury or death, increases.
Environmental and chemical hazards
    Chemical or environmental hazards presented by abandoned mine lands 
include increased stream sediment, mercury pollution, acid mine 
drainage, asbestos problems, and other negative impacts on water and 
soil quality. These hazards can be subdivided into acute and chronic.
    Acute environmental hazards can contain old explosives, drums of 
chemicals, or direct exposure to highly toxic tailings. Poisonous gases 
or low oxygen environments can also develop in underground workings; 
the adventurous spelunker may be caught unaware and asphyxiate. This is 
a case where the environmental hazard becomes a physical hazard.
    More often, abandoned mines may present chronic exposure hazards 
that can affect the environment miles away. Often the pathway to 
exposure is through our waters. Contaminants in mine wastes impair 
drinking water and other water resources by natural leaching processes 
and sediment transport. Mines in areas of high-sulfide rock may create 
acid-generating conditions. Low-pH (acidic) waters may carry high 
levels of heavy metals, which present a health hazard both to humans 
and wildlife. This ``acid rock drainage'' has caused numerous fish 
kills and continues to degrade habitat and contribute high 
concentrations of toxic metals to many streams in California.
    Other chronic exposure pathways are through the soil and air. 
People are exposed to contaminated mill tailings and waste rock from 
AML sites on public lands and within historical mining communities. 
Asbestos is of high concern particularly in areas where mining occurred 
in high serpentinite-bearing rocks (serpentine is California's state 
rock), and is the subject of ongoing studies. Dust or sediment from 
historic tailings or waste rock may contain naturally-occurring 
contaminants such as arsenic or chromium, which have become exposed to 
the environment due to physical disturbance such as land development or 
off highway vehicle use, weathering, or runoff. Additionally, mining 
wastes have reportedly been exported offsite and used as fill and in 
road construction projects. The possible harmful effects of these 
exposures have not yet been evaluated.
    Many abandoned mines in California are home to, or within the 
habitat of, threatened and endangered species, including bats, raptors, 
and desert tortoise. According to Bat Conservation International, Inc., 
many threatened bat species depend on abandoned mines at one time or 
another during the year for roosting and hibernation. Threatened and 
endangered species are affected by mining-related contaminants present 
in soil and water, such as heavy metals, mercury, and methyl-mercury 
(MeHg), a toxic form of mercury that biomagnifies in the food web and 
is most toxic to wildlife and humans.
    The New Idria Mercury Mine, located on private land in San Benito 
County, and the Mount Diablo Mercury Mine, located on private land in 
Contra Costa County, are just a few examples of the challenges posed by 
mercury from abandoned mines. Due primarily to concerns over potential 
liability and the significant costs of remediation and post-remediation 
operation and maintenance, remediation has not begun at these sites.
    Another California abandoned mine, the Iron Mountain Mine in Shasta 
County, contains the most acidic acid mine drainage in the world. 
Before cleanup began at this Superfund site, the mine discharged an 
average of a ton a day of toxic metals into nearby streams and then 
into the Sacramento River, a major source of drinking water as well as 
critical salmon spawning habitat. After more than 20 years of cleanup 
and treatment, 95 percent of the historic quantities of metals 
discharged from Iron Mountain are intercepted and the associated 
acidity is neutralized. However, an estimated $4.5 million per year is 
spent on operation and maintenance costs, and treatment will be needed 
for a long time. The U.S. Geological Survey (USGS) estimates that Iron 
Mountain could continue to produce acid mine drainage for 2,500 to 
3,000 years.
What Are Some of the Challenges that California Faces to Address the 
        Legacy of Abandoned Mines?
    Which brings us to a few of the challenges faced by California's 
state and federal Abandoned Mine Lands programs.
    <bullet>  As noted earlier, risks to public health and safety are 
increasing as more people are moving into, and recreating in, areas of 
historic mining activity. The remote areas of the Sierra and desert 
that miners once worked in hundreds of years ago are not as remote 
today.
    <bullet>  Liability concerns can discourage agencies, nonprofits, 
and the private sector from taking actions to even try to clean up 
environmental hazards at abandoned mine sites, particularly on private 
lands. More research is also needed to identify the parties that are 
historically and/or potentially responsible for cleaning up these 
sites.
    <bullet>  Historically, there are few dedicated federal funding 
sources to address California's abandoned mines, the majority of which 
lie on federal lands. Should California receive dedicated funds, the 
challenge becomes identifying and prioritizing the projects to 
implement.
    <bullet>  California has begun the effort to prioritize sites for 
remediation should funding become available. In March 2007, the 
Department and 14 other State and federal agencies identified 117 
abandoned mines that all agencies agreed remained high priority 
environmental hazards to address. The 15 agencies also agreed on more 
than 100 high priority sites that contain physical safety hazards. 
Remediation of these hazards is estimated to cost billions of dollars.
Does California Receive Any Fees or Royalties to Fund Abandoned Mine 
        Related Activities in the State?
    Until recently, California received little or no direct federal 
funding to help remediate the State's abandoned mine sites, including 
abandoned mines located on federal lands. The Federal Surface Mining 
Control and Reclamation Act of 1977 (SMCRA) (30 U.S.C. 1201 et seq.), 
which assesses fees for surface- and underground-mined coal, is the 
primary funding source for many state abandoned mine reclamation 
programs. Many of these coal states have significantly reduced their 
hard-rock abandoned mine land problems using SMCRA funds. Since 
California is not a coal-producing state, it is not currently eligible 
to receive SMCRA funds. Recent federal appropriations and stimulus 
funding to California's federal agencies are just beginning to address 
the multitude of abandoned mine hazards on federal lands.
    In 2001, the Department's Abandoned Mine Land Unit (AMLU) helped 
close a hazardous abandoned mine shaft as a public safety demonstration 
project. In 2002, the Department's AMLU began its program to remediate 
physical hazards associated with abandoned mines on state, local, AND 
federal lands using approximately $125,000, or one-half, of its 
existing annual appropriation, with the remaining balance used to 
continue to conduct the State Abandoned Mine Inventory. In 2003, the 
State passed Senate Bill 649 (Kuehl, Chapter 794, Statutes of 2003; 
Public Resources Code section 2207(d)(4)(B)), which provides for a fee 
of $5.00 per ounce of gold and $0.10 per ounce of silver produced in 
California. Upon appropriation by the Legislature, the Department may 
expend these monies to remediate physical hazards at abandoned mines. 
The FY 2004/05 Budget Act appropriated $409,000 for AMLU remediation 
activities. As of January 2006, gold and silver fees are now being used 
to remediate hazards at historic abandoned mines throughout California.
    The Department has also recently funded and completed two 
significant abandoned mine projects. The 2006/07 Budget Act 
appropriated $1 million for the Department to conduct a focused, two-
year effort to complete an inventory and assessment of physical and 
chemical hazards associated with abandoned mines on State-owned land. 
The 2006/07 Budget Act also appropriated $2 million for the Department 
to remediate specified chemical hazards over an estimated three-year 
timeframe. This funding enabled the Department to partner with the 
State Department of Parks and Recreation and U.S. Environmental 
Protection Agency (USEPA) to complete a chemical remediation project at 
Bodie State Historic Park (SHP) in Mono County in June 2009.
What Funding does California Need to Address the Public Health and 
        Safety and Environmental Impacts of Abandoned Mines?
 Estimated costs to complete AML physical hazard remediation in 
        California
    In its June 2000 Report on the magnitude and scope of the abandoned 
mine land issue in California, the Department estimated that the cost 
to remediate just physical hazards in the State--not chemical hazards 
or site reclamation--was approximately $528 million.
    From 2001 through 2009 to date, the AMLU has helped to remediate 
more than 625 hazardous abandoned mine features, in partnership with 
more than 44 federal, state, local, nonprofit, and private partners. 
This includes more than 460 features since 2006, using Gold and Silver 
fees and federal award monies. Remediation techniques used include: 
wire fencing; backfills; polyurethane foam (PUF) closures; bat-
compatible gates, cupolas, and culvert gates; fitting with concrete 
plugs and steel caps; and demolition and/or removal of unstable 
structures and trash. All work is conducted in accordance with 
California Environmental Quality Act (CEQA) or National Environmental 
Policy Act (NEPA) reviews completed by the land-owning agencies.
    Since 2002, the AMLU has provided more than $750,000 to its 
landowning agency partners to remediate physical hazards on their 
lands. The average cost of a closure ranges from $200 for a small wire 
fence around a vertical shaft to $500 for a minor backfill project to 
tens of thousands of dollars to build more complex, bat-friendly gates, 
cupolas, and culvert gates. The Department estimates that the cost to 
remediate the state's remaining hazardous abandoned mine openings would 
exceed $470 million.
 Estimated costs to complete AML chemical hazard remediation in 
        California
    The Department has not recently attempted to estimate the cost to 
remediate all chemical hazards associated with abandoned mines in 
California.
    In its June 2000 Report on the magnitude and scope of the abandoned 
mine land issue in California, the Department estimated that the cost 
to remediate chemical abandoned mines in the State that presented 
chemical (environmental) hazards at a level of Category 3 (moderate 
potential for a chemical risk) or above was approximately $4.1 billion. 
This total excluded the cost to remediate the Iron Mountain Mine, which 
at the time had cost approximately $150 million and was not fully 
remediated. In October 2000, the USEPA estimated that total cleanup 
costs for the Iron Mountain Mine could approach $1 billion.
    Environmental remediation costs vary widely. Remediation approaches 
depend on the extent, volume, and concentration of each contaminant, 
the affected media and pathway, the threat to humans and the 
environment based on current land uses (e.g., residents, recreational 
users, or trespassers), and site conditions. Typical remedies to 
mitigate environmental hazards can include source removal, 
encapsulation, and treatment. Some remedies, such as those involving 
water treatment or encapsulation, can require long-term, often 
indefinite operation and maintenance (O & M). Uncertainties in 
determining remediation costs include the following:
    <bullet>  Many abandoned mine sites in California have not been 
adequately characterized. This is also the case with offsite impacts 
associated with the transport of contaminants in sediments, surface 
water, or groundwater, and the export of mill tailings or waste rock 
for construction.
    <bullet>  O & M costs can vary depending on the type of remedy 
selected.
    <bullet>  Costs for restoration of impacted natural resources are 
often not addressed.
Long-Term AML Program Efforts and Needs
    In order to make greater and consistent progress on mitigating the 
safety hazards and human health and environmental impacts and threats 
associated with AML sites in California, a long-term commitment and 
coordinated AML program is required on the part of federal and state 
agencies and private parties. Long-term needs for a coordinated 
California AML program are identified below.
    <bullet>  AML inventory. The Department's research confirms that a 
field visit is necessary for ``ground-truthing'' and assessment of 
physical hazards. Similarly, the prioritization of AML sites for 
remediation will ultimately require a complete statewide inventory. At 
this time, state and federal agency staffs have inventoried only about 
3,000 of California's estimated 47,000 AML sites (5 percent). 
Coordinating the inventory efforts of multiple agencies and maintaining 
a consolidated statewide inventory of AML sites are important long-term 
needs and will greatly assist in the prioritization of sites and 
interagency coordination efforts. Based on the time required by 
Department staff to inventory abandoned mine lands to date, staff 
estimates the cost to complete an inventory of all abandoned mines in 
California to be approximately $58.5 million.
    <bullet>  Site assessment, characterization, and prioritization. 
This work includes field verification, sampling, and analysis of 
contaminants. Initial characterization is needed to determine if a site 
is releasing hazardous substances and whether a cleanup action is 
required. Development and implementation of a common screening and 
ranking process and a common protocol for site investigation, 
characterization, and remediation would help state and federal AML 
agencies to focus efforts on the highest priority environmental and 
physical hazard projects.
    <bullet>  Continuous and sustainable funding for environmental and 
physical hazard remediation activities, including operation and 
maintenance. The problem of abandoned mines in California is 
widespread. Short-term, stopgap funding will produce only limited 
results. The success of any long-term AML program remediation program 
will depend on stable funding for AML remediation projects and 
subsequent monitoring of clean up and mitigation effort effectiveness.
    <bullet>  Restoration. Separate from remediation activities, 
Natural Resource Damage Assessment and Restoration activities conducted 
under the Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA) at AML environmental hazard priority sites, such 
as Iron Mountain Mine and New Almaden Mine, have cost millions of 
dollars. Without a viable responsible party for an AML site, 
restoration of natural resources generally does not take place. Natural 
resource trustees have already faced this situation at several AML 
sites in California.
    <bullet>  Research. Further research is needed on contaminants such 
as mercury and arsenic with regard to their effects on human health and 
ecosystems, and on innovative approaches to remediation. Partnerships 
on research involving public agencies, universities, and the private 
sector could ultimately reduce remediation costs borne by public 
agencies.
What Agencies Work on Abandoned Mine Issues in California?
    A large number of federal, State, and local agencies and nonprofit 
groups are working on addressing both physical hazards and the legacy 
of contamination associated with abandoned mine lands in California. 
The Department's AML Program has partnered with a network of agencies 
and organizations, including those listed below, to remediate abandoned 
mine sites.
State and Local
    California Department of Conservation's California Geological 
Survey
    California Department of Fish and Game
    California Department of Parks and Recreation
    California Department of Toxic Substances Control
    California State Lands Commission
    Department of Toxic Substances Control
    Regional Water Quality Control Boards (RWQCBs)
    State Water Resources Control Board
    Local agency partners
Federal
    National Park Service
    U. S. Bureau of Land Management, California State, Desert District, 
and Field Offices
    U.S. Bureau of Reclamation (Auburn and Folsom State Recreation 
Areas)
    U.S. Environmental Protection Agency
    U.S. Fish and Wildlife Service
    U.S. Forest Service
    U.S. Geological Survey
    U.S. Army Corps of Engineers (Restoration of Abandoned Mine Sites 
Program)
    Nonprofit and/or private partners, such as Bat Conservation 
International.
Success Stories
    Now, I would like to provide you with an overview of some of 
California's mercury-related abandoned mine remediation success 
stories. At last week's meeting of the State's Abandoned Mine Lands 
Forum, which provides a venue for discussion and coordination on water 
quality, safety and environmental hazard issues that agencies and other 
groups face with AML remediation projects (see www.consrv.ca.gov/omr/
abandoned_mine_lands/Pages/amlu_forum.aspx for details), Forum members 
identified 12 AML sites in California with mercury contamination where 
investigation work had been started and remediation completed, 
including the following mines (listed by county).
    <bullet>  Abbott and Turkey Run Mines (Lake County)
    <bullet>  Sulphur Bank Mercury Mine (Lake County)
    <bullet>  Gambonini Mercury Mine (Marin County)
    <bullet>  Bodie State Historic Park (Mono County)
    <bullet>  Alpha Diggings Hydraulic Mine (Nevada County)
    <bullet>  Boston Mine (Nevada County)
    <bullet>  Sailor Flat Hydraulic Mine (Nevada County)
    <bullet>  Deer Trail Mercury Mine (San Luis Obispo County)
    <bullet>  Rinconada Mercury Mine (San Luis Obispo County)
    <bullet>  Gibraltar Mercury Mine (Santa Barbara County)
    <bullet>  New Almaden Mercury Mine (Santa Clara County)
    <bullet>  Altoona Mercury Mine (Trinity County)
    You will likely hear details about one or more of these projects 
and other success stories today. Details of the projects that OMR 
partnered on are provided below.
Bodie SHP remediation project, Mono County
    In the late 1800s to early 1900s, the town of Bodie was part of a 
major gold mining district. In 1962, the town and adjacent area became 
Bodie SHP, which is owned and managed by the Department of Parks and 
Recreation (State Parks). The park is preserved in a state of 
``arrested decay,'' and a critical priority for State Parks is to 
maintain the appearance and historical setting of mining, including 
structures, artifacts, tailings, and other cultural resources.
    As a consequence of mining and gold processing, however, Bodie was 
contaminated by mercury, lead, and arsenic. Mercury was used as 
amalgamate with gold to enhance recovery. Lead was used in the assay 
process (which allows for measurement of the amount of gold in an ore 
sample). Arsenic is commonly associated with gold deposits and occurs 
naturally in the area. In 2006, the State Legislature appropriated 
funds from OMR's Surface Mining and Reclamation Account to ``remediate 
specified chemical hazards'' (Assembly Bill 1801, Item 3480-001-0035). 
Using these funds, OMR coordinated with State Parks and the USEPA 
Region 9 Superfund Technical Assessment and Response Team to 
investigate and remediate chemical hazards at Bodie SHP to protect 
human health and safety. The USEPA conducted the sampling and 
remediation work assisted by specialists from the U.S. Coast Guard 
(locations and procedures were designed to fully characterize and 
remediate any contaminants and protect cultural resources and 
artifacts), which was monitored by State Parks' archaeologists and OMR 
staff.
    Both employee and visitor exposure to contaminants in the soil and 
air and the possibility of rainwater carrying contaminants from 
tailings piles into Bodie Creek and downstream to the Walker River and 
Walker Lake in Nevada were concerns.
    The AMLU inventoried the entire site, while OMR's Reclamation Unit 
provided some technical input--particularly about revegetation work on 
the ``tailings piles'' (mine waste), as did the Department of Toxic 
Substances Control. State Parks provided archaeologists to ensure that 
artifacts were handled well and the original state of the park was 
preserved, as well as a botanist to help in the revegetation efforts, 
while the Park Superintendent and other staff ensured that the public 
was informed, but at a safe distance, when any work was being 
conducted.
    The project, which was completed in June 2009, included the 
following tasks.
    <bullet>  Installation of a modified radon extraction system to 
reduce mercury vapor concentrations inside Bodie's Standard Mill.
    <bullet>  Control of erosion of mercury-laden mine tailings 
adjacent to Bodie Creek by building a rocky diversion channel, with 
rocks collected onsite to preserve the Park's visual character, to 
carry runoff away from the tailings and Bodie Creek.
    <bullet>  Composting and reseeding the tailings to promote growth 
of native plants to further reduce runoff from the tailings.
    <bullet>  Remediation of lead-contaminated soil from outside 
several historic assay buildings and removal of lead-contaminated dust 
from building interiors.
    <bullet>  Construction of new fences and repair of existing fences 
to protect public safety.
Gambonini Mercury Mine, Marin County
    During historic mining at the Gambonini Mercury Mine, mine wastes 
were placed in a steep canyon covering an area of about 11 acres. 
Consequently, large quantities of mercury-laden sediment would 
discharge each year into Salmon Creek--a tributary to Walker Creek and 
Tomales Bay. Threats to the beneficial uses of these waters included 
degradation of coho salmon spawning areas in Walker Creek and 
bioaccumulation of mercury by wildlife and fish in Tomales Bay. Under 
contract with the San Francisco Bay Regional Water Quality Control 
Board, OMR conducted the following tasks:
    <bullet>  Collected seed and cuttings from the mine area and 
obtained nursery services to cultivate plants for revegetation test 
plots and full-scale implementation.
    <bullet>  Designed and planted revegetation test plots and 
monitored plots to evaluate success.
    <bullet>  Reviewed the existing geological, chemical, soil, and 
physical data pertinent to the design of a remediation plan.
    <bullet>  Conducted surveys for listed species on the mine site, 
surveyed site vegetation, inventoried the types of native plant species 
growing on site, and assessed which species were most likely to succeed 
in a revegetation project.
    <bullet>  Prepared and implemented field sampling plan to evaluate 
soil types, nutrient content, and organic matter content of mine area 
soils to determine what types of soil additives or clean soil cover 
were necessary for revegetation to succeed.
    <bullet>  Prepared grading plan to excavate portions of the mine 
waste rock dump and fill the existing open pit; the goal was to 
establish a final grade for the waste rock dump that would be stable 
and could be revegetated.
    <bullet>  Documented the relative success of various revegetation 
treatments.
    <bullet>  Helped to determine treatment options to remediate 
impacted creek.
    <bullet>  Provided construction monitoring and oversight for site 
grading, resoiling, erosion control and revegetation during full 
implementation of the remediation plan.
    <bullet>  After full-scale implementation, monitored soil nutrient 
availability, erosion potential, and revegetation of the remediated 
slope.
Other Successes
    Some of the Department's AML-related accomplishments are listed 
below.
    <bullet>  Between 1997 and October 2009, the AMLU has collected 
inventory data on more than 2,800 abandoned mine sites and nearly 
27,000 features. This included an inventory of all known State-owned 
AML properties.
    <bullet>  Similar to the reclamation planning work on the Gambonini 
Mine, AMLU provided reclamation work on the USEPA's Leviathan, Sulphur 
Bank and Atlas Mine sites, and the California Department of Fish and 
Game's Spenceville Mine site.
    <bullet>  From 2006 to date, the AMLU has used gold and silver fees 
and collaborated with numerous landowning agencies and other partners 
to make safe more than 465 hazardous abandoned mine features, which is 
nearly three times the number of remediations than had been completed 
in the previous four years.
    <bullet>  In June 2009, the AMLU funded the successful completion 
of a two-year characterization and remediation project at Bodie State 
Historic Park in Mono County in partnership with State Parks and the 
USEPA.
    <bullet>  In October 2009, the AMLU was recognized for its 
participation in the Bureau of Land Management's (BLM) ``Fix A Shaft 
Today!'' (``FAST!'') Campaign--a partnership initiative aimed at 
eradicating unsafe abandoned mine land features, especially open mine 
shafts--when the unit was a co-recipient of the BLM's first Reclamation 
and Sustainable Development ``FAST!'' Award.
    <bullet>  As California's representative to the National 
Association of Abandoned Mine Land Programs (NAAMLP), the AMLU was 
recently selected to co-host, with Nevada, the 2011 NAAMLP Annual 
Conference (the first hardrock, non-coal states to serve as host) 
providing further opportunities to highlight California's AML issues 
and successes and raise awareness of AML hazards.
    In addition, recent Federal Budget Acts and the American Recovery 
and Reinvestment Act of 2009 have provided the BLM, National Park 
Service, and U.S. Forest Service with funding to remediate abandoned 
mines on California federal lands, the results of which should be seen 
in the immediate future. Although small compared to the amount of 
funding needed to address the multitude of legacy environmental and 
physical problems associated with abandoned mines in California, the 
State has rarely received federal funds designated specifically for 
abandoned mine remediation and we are eager to show you what we can 
accomplish.
    The challenge of addressing hazards associated with California's 
47,000 historic abandoned mines is enormous. It is a challenge that we 
in the Department of Conservation and today's other speakers are 
committed to continue to undertake.
    I appreciate previous efforts to provide federal funding to the 
Department of Conservation for our Abandoned Mine program. And I 
respectfully ask that you consider the tremendous public health and 
environmental benefit this program provides in future funding cycles. 
Simply put, the more Congress allocates, the more we can alleviate this 
serious problem.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] 53883.002
    
    .eps[GRAPHIC] [TIFF OMITTED] 53883.003
    
    .eps[GRAPHIC] [TIFF OMITTED] 53883.004
    
    .eps[GRAPHIC] [TIFF OMITTED] 53883.005
    
                                 .eps__
                                 
    Mr. Costa. Thank you.
    I think this completes the testimony, and now we get to the 
fun part, the questions that we get to ask and the answers you 
can provide.
    Ms. Luther, since you were just speaking, you have 
testified that the conservation research confirms that field 
visits are necessary for ground truthing and prioritizing 
sites. What do you think the ultimate cost is going to be for 
all of that inventory?
    You made a distinction between those that create a physical 
hazard and those that constitute a risk hazard from 
contamination. The cost you estimated, I guess, in your 
submitted testimony was 58 million-plus; is that right?
    Ms. Luther. The cost for inventory on the state-owned 
lands, which is only a small percentage of what we are talking 
about, two percent, was $2 million, and that was sort of an 
original assessment. We need to go back and from that we came 
up with the high priority sites for the State to start 
tackling.
    Is there a big Empire Mine in our future? You know, was 
there a lot out there that we needed? What we found out was, 
no, we did not have another big toxic site, but we also are 
going to need to do quite a bit more characterization of those 
sites, and I believe that is the $50 million number, if we are 
going to actually clean those up, and that is just, like I say, 
a small percentage of the abandoned mine land sites. Most of it 
is on Federal lands. The problem is on Federal lands.
    Mr. Costa. And much more there than on state or privately 
held lands?
    Ms. Luther. Right. About 30 percent is on private, and then 
this small percentage on the state-owned, and then the bulk of 
it is going to be on the BLM and National Parks' land. Most of 
it is BLM.
    But we have a process that we have been able to develop 
that we have used over the last couple of years, and it has 
been pretty successful, and we did quickly.
    Mr. Costa. The State derives an amount of money on a 
remediation fund, does it not?
    Ms. Luther. I'm sorry? They do what?
    Mr. Costa. On a remediation fund.
    Ms. Luther. Yes, we get gold and silver fees, but also the 
amount of gold and silver mining in California.
    Mr. Costa. It has declined dramatically.
    Ms. Luther. Declined dramatically.
    Mr. Costa. So how much money does that provide the state?
    Ms. Luther. It provides $2 million, about $400,000 a year. 
So it is not very much.
    Mr. Costa. I do not know how long you have been in your 
position. Have you collaborated in terms of the points I was 
making with the previous panel on a common protocol with the 
Federal agencies?
    Ms. Luther. Sir, what I was speaking to earlier was the 
Abandoned Mine Lands Forum, which is actually a working group 
that meets every month to talk about these issues. They bring 
in speakers. They bring in solutions. They bring in joint 
problems.
    We actually have contracted with the Bureau of Land 
Management for many of the physical closures. So we are sort 
of----
    Mr. Costa. So you do coordinate.
    Ms. Luther. Yes, we coordinate. That is all we do.
    Mr. Costa. OK. Mr. Baggett, your testimony recommends a 
funding source, and you commented on the two Federal pieces of 
legislation. Obviously from your experience and one of the 
examples you listed, as we look at the prioritization of these 
abandoned mines, it is a big job.
    Mr. Baggett. Yes.
    Mr. Costa. And the money simply is not there. You did point 
out that the Good Samaritan rule could be used in a way that is 
much more effective than it has been.
    Mr. Baggett. Well, I think we need legislation and the 
Clean Water Act. It is my understanding there is a bill in the 
Senate, as I recall, again, to try to. There have been several 
over the last ten years I have been involved at the national 
level with other clean water agencies. We have been trying for 
at least ten years, along with Western Governors who have 
endorsed numerous Good Samaritan amendments to the Clean Water 
Act. None have yet to be adopted.
    We have a state equivalent, but you know, the challenge is 
a company or party is not going to take on a Good Samaritan act 
without Federal protection.
    Mr. Costa. Quickly, before my time expires, 24 bodies were 
listed in the 2006 listing by Californians impaired by mercury.
    Mr. Baggett. Right.
    Mr. Costa. That number is supposed to increase in the 2008-
2010 list to what, something over 106 or something?
    Mr. Baggett. I do not know the numbers, but it is likely to 
increase, yes.
    Mr. Costa. A comparative analysis. You and I have discussed 
the stressors impacting the Sacramento-San Joaquin River Delta 
System as being numerous. Has there been any qualitative 
comparisons between the mercury contamination and the others? I 
cited as an example 120,000 gallons of mercury each month being 
in the river systems.
    Mr. Baggett. Right. Our board adopted a Bay Delta Work Plan 
last summer, and as part of that work plan, mercury was 
identified as one of the issues we should look at, mainly to 
our regional boards. We are, in fact, doing the TMDL program, 
and we just implemented, I think I mentioned last week, the 
Almaden Mine, Guadalupe Creek and the Bay area. That TMDL was 
just approved by our board.
    The real challenge though with mercury is human health, not 
fish health. So as far as we know, it does not have a 
significant detrimental effect on the fish living in the Delta, 
but just the people that are eating them.
    But it is in our work plan, along with ammonia, salinity, 
stormwater runoff, and pesticides. All of those issues are part 
of our work plan, and we are working at our regional boards 
through our water rights component in addressing those now.
    Mr. Costa. OK. My time has expired. Mr. McClintock.
    Mr. McClintock. Mr. Baggett, you mentioned the whole legacy 
problem that nobody wants to touch. Again, the folks that did 
this are long gone. Nobody wants to touch those sites today 
because that immediately brings upon them the legacy for clean-
up of all of the past sins of past and deceased owners, and so 
nothing gets done.
    I am going to go out on a limb here and make the assumption 
that the biggest contamination is generally at the biggest 
mines, and that the biggest mines generally have the greatest 
potential for reopening. There is still a lot of gold in them 
there hills, and we are seeing a renewed interest in bringing 
it out.
    My question is this. Shouldn't we be looking at ways to 
encourage businesses to take over these mine sites, without 
incurring the liability to clean them up completely? But it 
seems to me they can reopen them, reduce the contamination, 
maybe not to zero, but at least reduce what would have been 
there if those sites had simply been left alone. We would be 
way ahead in a number of areas, not the least of which is 
environmental clean-up.
    What are your thoughts on that?
    Mr. Baggett. No, I think that is one of the intents of the 
Good Samaritan language, which has been attempting to amend the 
Clean Water Act to allow some of that ability.
    Second, and EPA could probably address this much better 
than I since they had the permitting authority in the State of 
Arizona, it was not a delegated state. It has been at least six 
or eight years since a mine owner did just that. As a condition 
for their NPDES, their waste discharge permit for the new mine, 
they cleaned up an abandoned downstream site, an incredible 
offset. It was like 10,000 to one or 100,000 to one offset, and 
that was a condition of their permit terms from the Federal 
EPA, who then ran the Arizona program.
    In California that has been a real challenge to use offsets 
in that way, and we have yet to really accomplish that because 
of a lot of legal issues and disagreement among different 
sectors we deal with.
    The Good Samaritan amendment at the Federal level would 
help, in my opinion, allow a mechanism to have a new developer, 
if you will, safely be able to say, OK, in exchange for doing 
this, I will go clean up something that is tens of thousands of 
times worse as long as I do not buy the liability for it, and 
that is the concern, once they open that can of worms because 
you know they have got it.
    Mr. McClintock. And, of course, it is not just the Clean 
Water Act. It is also the Toxic Substances Control Act, the 
Federal Water Pollution Control Act, the Solid Waste Disposal 
Act, the Comprehensive Environmental Response Compensation and 
Liability Act, et cetera, et cetera.
    Mr. Baggett. Right.
    Mr. McClintock. I mean, it seems to me that we have 
bureaucratized this to the point where we have now paralyzed 
our ability to take common sense actions that do not even 
require the government to do anything except to get out of the 
way and say, ``Yes, do you want to bring back this mine? Go 
ahead. We only ask that you leave it cleaner than when you took 
it over.''
    Mr. Baggett. I think it is being discussed. I believe that 
Senator Udall has the bill in the Senate on the Good Samaritan 
language, again, and it is something I would strongly encourage 
the Committee to look at.
    Mr. McClintock. And Mr. Lamborn in the House, and that 
legislation is still pending in the Natural Resources Committee 
the last time I checked. You think that is a good way to go.
    Mr. Baggett. I think it is essential.
    Mr. McClintock. Let me ask you another question on that 
because I think it came up. If I understood Mr. Meer's 
testimony from the last panel correctly, a profit is not 
allowed to be a motive in these clean-up agreements. Maybe I 
heard him wrong.
    Mr. Baggett. In California, our laws, to my knowledge, we 
do not have any. I have a mercury expert here but no counsel to 
collaborate with. I could get back to you if you like.
    Mr. McClintock. It seems to me if clean-up is the 
objective, the motive is really irrelevant.
    Mr. Baggett. To the best of my knowledge, that does not 
exist in this state.
    Mr. McClintock. One final question. It was a question I 
asked of the last panel, and I am still trying to nail this 
down. Do we have any kind of data that gives us a trend line on 
contamination in the various watersheds? I mean, do we know 
what was the level of contamination 50 years ago, 25 years ago 
today so that we can then project what to expect for it to take 
for a natural----
    Mr. Baggett. For mercury specifically?
    Mr. McClintock.--degradation of these pollutants? Yes, 
specifically for mercury, correct.
    Mr. Baggett. No.
    Mr. McClintock. I mean, is it possible to obtain that data? 
I mean, do we have historical records that we can go back to 
and begin to extrapolate?
    Mr. Baggett. If you would like, we will provide analysis 
and get it back to the Committee.
    Mr. McClintock. Again, when we are dealing with a problem 
that goes back that many years, one wonders, OK, it is not 
getting any worse. It is naturally abating. At what rate and to 
what extent? Is this something that we need to intervene on, 
and how much of it is just to be left alone and it is going to 
go away anyway?
    Mr. Baggett. To some extent when we develop a TMDL, a 
regulatory program for non-point source in water, it is usually 
watershed based. On that particular TMDL a lot of that 
information will be available. I can provide you a copy of the 
one we just adopted, but that was actually a mercury mine 
caused problem.
    In the Sierra, we are still working with the Region 5, our 
Central Valley Board, but we usually will do an analysis of 
what is available, what is missing, how do we develop a plan to 
clean up a watershed and a particular pollutant.
    Mr. Costa. I think the Congressman's question is a good one 
as it relates to the trend lines, and if you could provide the 
information to the Subcommittee from the Water Board, I think 
we would appreciate that.
    Mr. Baggett, you noted in your comments about the 
regulatory authority under the California Water Resources 
Control Board and the permit process that the Board can provide 
as it relates to discharges and to the waters of the State of 
California. You were making some distinctions as it related to 
risk assessment, risk management versus mercury.
    I guess I would like to understand better how that 
jurisdiction operates with other potential discharges into the 
waters of the State of California. I keep going back to the 
impacts of the stresses caused by the Sacramento-San Joaquin 
River Systems because of the challenges we are facing on the 
drought conditions that both Mr. McClintock and I raised in our 
opening comments and the regulatory impacts of the operations 
of the Federal projects as it related to the biological 
opinions. And, of course, part of that is now being tested in 
court.
    Where does the Water Resources Board intersect as it 
relates to the potential contamination that takes place not 
just from the standpoint of the impacts of mercury in terms of 
health and safety and the watersheds, but other stressors that 
impact the quality and the degradation of the water systems?
    Mr. Baggett. Specifically at the Delta?
    Mr. Costa. Yes.
    Mr. Baggett. OK. Like I mentioned previously, we developed 
a work plan that is 80 pages, and we would be glad to provide 
the Committee a copy of that. That work plan identified for the 
Delta all of the different regulatory issues which the State 
Board and our regional boards have jurisdiction or some control 
over.
    One of those was mercury, and I think I mentioned that it 
is more of a human health issue, but it is still part of the 
work plan. We are still analyzing that and working mainly 
through the TMDL program.
    We are also looking at ammonia. Our regional board has the 
direct authority to issue the national pollutant discharge 
elimination system permits, the NPDES permits for waste water 
plants.
    Mr. Costa. So, for example, the ammonia that is being 
emitted in there, they have a permit to release that ammonia in 
there?
    Mr. Baggett. On the waste water plants they certainly do, 
and as part of those conditions, what we have done is the 
regional board is requiring some fairly extensive monitoring, 
extensive studies to be done to get exactly the issue which I 
think you raised. What impact is this level of mercury having 
at this numeric standard?
    We have a number in the permit. That number, should it be 
lower? And that is a whole other process of changing those 
numeric numbers in permits.
    Mr. Costa. Under the law, any of these contaminants, is 
dilution considered a solution?
    Mr. Baggett. When its numeric effluent limit by 
concentration, yes, when it is a number, and so that gets into 
the other challenge.
    Mr. Costa. And each potential contamination there is a de 
minimis level that is determined by the board?
    Mr. Baggett. Well, it is whatever the California Toxics 
Rule, which was set----
    Mr. Costa. Well, I mean, it sets a number.
    Mr. Baggett. Yes.
    Mr. Costa. But the numbers oftentimes change. We have gone 
from a parts per million to parts per billion to parts per 
trillion.
    Mr. Baggett. Right.
    Mr. Costa. Based upon just our ability to make those 
determinations, but you know, there is no zero risk to the 
point of a lot of our conversation here this morning, right?
    Mr. Baggett. Right, right.
    Mr. Costa. But yet you are asked to make a determination 
under the law of a number that would imply a zero risk.
    Mr. Baggett. Well, I do not know that it would be a zero 
risk, but those numbers are developed, and it depends on the 
number, whether it is a public health goal and whether we work 
with OEHHA to develop detailed numbers. On some of these 
studies if it is a human carcinogen, those issues, it all 
depends on what the pollutant is, but what we are doing on the 
Delta specifically is directing, and the regional board is 
requiring more study so we can actually get if we have to fine 
tune the number to find out what contribution; we are working 
on that, as well as salinity, the stormwater issues you 
mentioned. Those are huge issues. They are all huge.
    Mr. Costa. I am curious. Have the Federal agencies inquired 
or cooperated or collaborated to any degree with the Water 
Board as it relates to the two biological opinions that are in 
question right now?
    Mr. Baggett. We have no authority over the----
    Mr. Costa. No, I am not saying you had authority. My 
question to you is have they collaborated with you on any of 
these other impacts as it relates to their findings on their 
biological opinions.
    Mr. Baggett. No. That is a separate set of statutes under 
the ESA. No, I think that is the simple, short answer. No, they 
are not.
    Now, where we would be involved is if the water rights were 
modified to incorporate those requirements. Then it would come 
before us, but we are now re-examining, I think, as you may be 
aware of the San Joaquin River Flows Objective, which that 
would then be the precursor to a water right proceeding to 
amend water rights to take into account those new flows, and 
those new flows will obviously take into account data from Fish 
and Wildlife, Fish and Game, NOAA, from all of those parties. 
But our flows are separate. Our water rights authority is 
separate from Endangered Species issues.
    Mr. Costa. All right. Well, we have gone past my time. I 
thank the indulgence of my colleague. Do you have any further 
questions? Yes, and then we will go to the last panel.
    Mr. McClintock. Just to walk through the chemistry real 
quickly, mercury is the element that is not absorbed into the 
food chain. It first must be converted into compound 
methylmercury in order to enter the food chain.
    Mr. Baggett. Yes.
    Mr. McClintock. The first question I would have is what 
processes may be exacerbating that conversion from mercury to 
methylmercury? For example, I understand that in the Everglades 
National Park they discovered a considerable amount of the 
conversion to methylmercury being caused by agricultural 
runoff. Do we have any studies from these regions? What natural 
or manmade activities may be converting the mercury to 
methylmercury?
    Ms. Luther. We found methylmercury. There was a great 
project over in Marin County, the Gambonini Project, where 
basically we were able to use wetlands to mitigate that 
conversion.
    Mr. McClintock. The question that I would have is are there 
human activities or, for that matter, natural activities, that 
are accelerating the conversion of mercury to methylmercury?
    Mr. Humphreys. Yes, good morning. My name is Rick 
Humphreys, and I work for the State Water Board.
    We are funding studies just to that question. We found out 
already that there are areas and activities that seem to 
promote methylation. For instance, if you look at the 
reservoirs in the Sierra foothills where they catch the Sierra 
runoff and the contaminated sediment, you see that methylation 
occurs in those reservoirs, and it may be tied to some of the 
discharges of nutrients from the upland land use and some of 
the nutrients from sewage treatment plants.
    We are also investigating mercury methylation with the USGS 
in the rice lands down below the rim reservoirs.
    Mr. McClintock. Are we differentiating in all of the senses 
that we are doing on mercury contamination; are we 
differentiating between those regions where there is a high 
rate of methylation and where there is a very low rate of 
methylation and, therefore, not a significant health risk?
    Mr. Humphreys. Yes, we are trying to identify those. It 
turns out that we just had a report on lakes in California 
published, and it seems like wherever you look in certain areas 
you find lakes with contaminated fish. A lot of them are on-
stream reservoirs that have caught contaminated sediment either 
from the coast ranges or the Sierra.
    So we are working on that. Typically what we do is try to 
get advisories posted for water bodies that contain 
contaminated fish, and then we try to work on this question of 
how you could control methylation to prevent methylation from 
occurring because, as you said before, there is so much mercury 
in the system that it is going to be there for a long time and 
will not just wash its way out.
    Mr. McClintock. Well, again, I think one of the concerns is 
we do not really know how much. We are trying to get better 
data than just the anecdotal information that we get.
    Mr. Humphreys. Well, I can tell you that practically any 
stream that was heavily mined for gold in the Sierra or used as 
a conduit for mining waste, it is very easy to find elemental 
mercury.
    Mr. McClintock. Oh, I have no doubt of that. The question 
is to what extent does that become a danger.
    Let me move on for just a second because I have time here. 
Again, I need to go on.
    For example, to what extent is sequestration of mercury in 
timber ameliorating the situation? I understand a significant 
source of aerosol pollution or mercury pollution is forest 
fires, for example.
    Mr. Humphreys. That is correct.
    Mr. Baggett. That would be along with their deposition. I 
know where I reside is, as your colleague knows, up in the 
Yosemite Sierra, we are finding mercury in high Sierra lakes 
that have always been a long way from any mining activity.
    Mr. McClintock. The concern I have is we not only have an 
awful lot of abandoned gold mines in my region. We also have a 
great deal of timber, and the question I am trying to answer is 
to what extent does that timber sequester methylmercury over 
time.
    Mr. Baggett. If the Committee would like, we could provide 
a written summary of what studies are out there, what we are 
doing to answer your methylation question and where we are in 
the process, and answer that question also about sequestration.
    Mr. McClintock. One of the problems we have, of course, is 
that the timber industry has pretty much been shut down now, 
and the only way we get rid of excess timber these days is 
forest fires, which not only releases that mercury back into 
the atmosphere and makes a mockery of all of our air pollution 
laws. It also raises the question, well, if this timber was 
being harvested, how much of that mercury would be harmlessly 
sequestered in timber.
    Mr. Baggett. We will get back to the Committee that 
information.
    Mr. Costa. All right. We have had two rounds with this 
panel. I want to thank all of you at the State level for your 
efforts and your collaboration with the Federal agencies and 
wish you, like our previous panel, a wonderful Thanksgiving. If 
you are around here a little bit, we may have a follow-up.
    On that other item, Mr. Baggett, I do want to touch base 
with you here.
    Our last panel, but certainly not the least, really kind of 
rounds off our hearing this morning. We have a number of folks 
that are involved at the local and the private sector level.
    The County Supervisor from Calaveras, Supervisor Steve 
Wilensky. Board Member and Senior Policy Director from--help me 
with the pronunciation. Tuleyome?
    Mr. Schneider. Tuleyome.
    Mr. Costa. Tuleyome.
    Mr. Schneider. It is Tuleyome.
    Mr. Costa. Tuleyome. It is a Lake Miwok word from the----
    I know it is an Indian word. I am very familiar with 
Tuolumne, but I am looking at this and if it is a misspelling--
    Mr. Schneider. There is no relationship other than they are 
both tribal names.
    Mr. Costa. No, I understand that, but I just want to make 
sure it was not a misspelling.
    Mr. Schneider. It is not. Thank you very much.
    Mr. Costa. I am familiar with Tuolumne, but Tuleyome.
    Mr. Schneider. Thank you.
    Mr. Costa. Mr. Schneider, and then we have Julian Isham, 
who is Geology Manager from Shaw Environmental, Inc., 
testifying on behalf of the Northwest Mining Association. We 
appreciate your being here.
    And Ms. Elizabeth Martin, Chief Executive Officer for the 
Sierra Fund.
    So that rounds off our third panel, and why don't we begin 
with Supervisor Steve Wilensky? And I assume you are the one 
with the PowerPoint.

   STATEMENT OF STEVE WILENSKY, SUPERVISOR, SECOND DISTRICT, 
   CALAVERAS COUNTY BOARD OF SUPERVISORS, STATE OF CALIFORNIA

    Mr. Wilensky. Yes, I think I am.
    Mr. Costa. No, you need to activate the mic. It works 
better that way because we all want to hear you.
    Mr. Wilensky. Yes, I actually do. I had a PowerPoint. The 
hazards of being in the third panel is that virtually 
everything on it has already been covered. So my prepared 
remarks are now converting to some unprepared remarks, which 
pictures have nothing to do with.
    Mr. Costa. Well, I am sure you will do well. We enjoy the 
pictures. A colleague of mine once said in a similar situation, 
it has all been said, but not everyone has said it. So with 
that, we will give you an opportunity here.
    Mr. Wilensky. Well, thank you.
    I am pleased to speak with you and the Committee about the 
topic of abandoned mines and mercury in California. In 
Calaveras County, we have over 2,400 gold mines abandoned, 62 
copper mines, zinc, chromium and we also feature the state's 
largest asbestos----
    Mr. Costa. You are talking about Calaveras County?
    Mr. Wilensky. Calaveras County. That is correct.
    Mr. Costa. Home of the jumping frog.
    Mr. Wilensky. Yes, home of the jumping frog.
    If you look at this slide here, each dot is an abandoned 
mine, and if you take a look at the areas where people live, we 
live on, around, and our streams run through abandoned mines in 
great number.
    This is a matter of great concern to both our county at 
large and my district for a number of reasons. There are little 
ones, like for instance the time where we were thrilled to get 
$1.2 million of Prop 40 money to build parks. So we thought we 
would build a ball park in Sandy Gulch, a flat area, one of the 
few flat areas in my district. After two years of planning and 
a little bit of work, we found, unfortunately, that we had 100-
and-some times the safe levels of arsenic and we would then 
wind up sliding into second base in a toxic dust.
    That is a small issue, but when you look at planning 
issues, which county supervisors are responsible for with the 
general plan, land use, and zoning, we have paid very little 
attention to all of this. So as a result, the largest and 
fastest growing town in our county, Copperopolis, is built on 
four old copper mines. I will try to get you to that.
    There is Copperopolis at the top. You have the mines down 
below. You would think that is just an up-country issue, but if 
you take a look down below here, there is a pond. That pond 
gets down here to Lake Tulloch at the bottom of the area. So 
what we wind up with----
    Mr. Costa. Point out Lake Tulloch there.
    Mr. Wilensky. Let's go back.
    Mr. Costa. There, you get your pointer. No, the red dot.
    Mr. Wilensky. All right. The next one should show Lake 
Tulloch. I am sorry about this. It is not moving. I will give 
up on this.
    Mr. Costa. That is all right.
    Mr. Wilensky. Lake Tulloch is just a few miles below the 
mines themselves, and we are sending all kinds of things into 
that lake. Farmers, many downstream users wind up relying on 
their water supply for that.
    We also have a significant amount of poverty in my district 
in particular. So 86 percent of the children at Railroad Flat 
Elementary are eligible for school lunch subsidy. That is a 
common sign of poverty. That means lots of people are fishing 
in these waters not just for recreation, but for their 
sustenance.
    Amazingly, almost nobody knows the hazards involved. There 
is very little public awareness of this in my district, and I 
would suggest probably most other places.
    The Gwin Mine down near Paloma was one of the biggest mines 
in Calaveras County, and in the middle of its biggest moment, 
it managed to flood with millions of gallons of water. This 
water now in the geological formations that are quite porous 
sits right near the Mokelumne watershed. The Mokelumne River is 
just about a mile away from that. All the way up the Mokelumne 
watershed, which is my district, you have hundreds of mines, 
and we find little beads of mercury in the waters we swim in. 
We find all kinds of examples of the hazard.
    The fact that this all goes into the waters that more than 
two million people rely on for their drinking water means it is 
not just an issue for the population that I represent, but many 
downstream users as well. So, for instance, every time we 
continue to do dredging or we think about moving some of the 
sediment out of our dams, behind our dams which are filling up 
with sediment, we risk considerable stirring up of a witch's 
brew of toxic chemicals. It is something that is of extreme 
concern to the people, again, who fish there.
    This morning, for instance, there were about 20 people 
fishing from the Middle Bar Bridge just above Pardee Reservoir. 
Those are all people, Native Americans and people who are 
subsistence fishing, and those are the kinds of places that we 
continue to stir up.
    So what to do is my main point here, and a lot of people 
have made some pretty good suggestions this morning. I would 
like to concentrate on just a few. First, it strikes me that we 
have to change the relationship between upstream denizens. We 
are ready to do things. We want to clean this up. We have shown 
over and over again, the people of my district, that they can 
clean up all sorts of things. We have taken 550 abandoned 
vehicles out of waterways, 7,800 tires. People are capable. 
They are volunteering. They are most anxious to do this.
    But we are only in the Sierra--two percent of the state's 
population. We have 65 percent of the water. Most of it is 
timber resources, and a great deal of natural resources as 
well. Until there is a new kind of relationship between 
downstream users and upstream denizens that should be the best 
stewards of this area and have the highest interest in doing 
that, we are never going to get anywhere economically.
    We keep asking the Federal government or the broke state 
government for the resources for this. It is time we took a 
look at what the real price of water or timber or any other 
resource is and make sure that included in that is some form of 
stewardship and restoration. Only when that equation begins to 
develop will we have any hope of resolving this in a way that 
is economically viable.
    Last, make an investment in the people who live here, and 
you will solve some of the poverty issues that have been a 
result of the boom and bust cycle, and you will also find 
downstream life gets better.
    [The prepared statement of Mr. Wilensky follows:]

              Statement of The Honorable Steve Wilensky, 
               Calaveras County Supervisor, 2nd District

    I am pleased to be invited to speak to you and the Committee about 
the topic of Abandoned Mines and Mercury in California. This issue is 
of deep importance to the people that I have served as a County 
Supervisor of Calaveras County since 2003. It is also significant to my 
family, including my wife Patricia Noll and our two daughters, as well 
as my small business (Humbug Creek Farm and Cider Mill), because of the 
longer term impacts of legacy mining on our region's water quality, 
economy and overall quality of life.
Some background on Mining in Calaveras County
    Located in the heart of California's Gold Country, our county was 
highlighted in Mark Twain's first published novel, a collection of 
short stories titled ``The Celebrated Jumping Frog of Calaveras 
County'' written in 1867. Calaveras County has nearly 3,000 known 
former mine sites according to state maps. Looking at abandoned mines 
mapped over the county, you cannot see the map for the dots. (Map 
Attached) Several types of industrial scale mining, including placer, 
hydraulic, and hard rock mining, occurred in the County
    Gold mines were most common in Calaveras County with 2,499 known 
mines, but there are numerous other heavy metal mines, such as copper 
(62 mines), chromium, and zinc. Calaveras County is also home to the 
largest asbestos mine on the West Coast. When gold ore was mined, 
naturally occurring arsenic, lead and asbestos were brought to the 
surface, pulverized, and distributed on the surface where they are now 
much more widely available for human exposure and pollution of water 
quality. In the course of gold ore processing, large amounts of mercury 
were added to crushed ore, and half of it was lost to the water system. 
Massive waste rock piles containing these toxins were left along water 
courses, to wash unwanted material off-site. Finally, sulfur-rich 
geology in the region has resulted in several known cases of acid mine 
drainage.
    As a result of industrial mining activities, Calaveras County's 
legacy mining problems include:
    1.  Mine workings with physical hazards such as open mine shafts, 
explosives, equipment yards, or deteriorating buildings;
    2.  Contaminated mine waste rock containing heavy metals, extending 
a great distance from historic mine workings, including in downtown 
areas such as Copperopolis, and existing and planned residential 
developments; and
    3.  Waterways contaminated by acid mine drainage and mercury.
    The population of Calaveras County has grown 15% since 2000, nearly 
twice California's average. As a result, mine-scarred lands that were 
once remote are now being developed, more of the population is 
traveling through these areas to get to their homes, and more families 
are living and playing there.
Exposure to Mercury
    An estimated 23 million pounds of elemental mercury were imported 
to the Sierra Nevada mountains for use in gold processing, and half of 
it was lost in that process (USGS Fact Sheet 2005-30214). Today, pools 
of elemental mercury can still be found on the river bottoms in 
Calaveras County.
    According to a new study by CA Department of Water Resources, 
mercury is the #1 contaminant of fish in California. In Calaveras 
County, fishing is more than just a recreational activity--in many 
cases, like in New Hogan Reservoir and the striped bass fishery, local 
residents catch and eat fish to feed their families. In tough economic 
times when jobs are scarce instances of subsistence fishing are much 
more frequent. According to the U.S. Census Bureau (2000), in Calaveras 
County nearly 20% of families with children under 5 are below the 
poverty line. Calaveras County ranks 41st out of 58 counties in 
California in poverty and 41st in child poverty (CA Food Policy 
Advocates). Local knowledge of the danger of mercury from eating fish, 
especially among sensitive populations, is shockingly low.
Supporting Solutions
    The people of Calaveras County and the Sierra Nevada are looking 
for ways of cleaning up our communities, both to protect our own health 
and the health of the watershed that serves all Californians. I believe 
that there are several actions that could be taken that will help local 
government put solutions on the ground to this problem, including:
    1.  Support local government programs to assess abandoned mines in 
their regions, and to prioritize remediation efforts;
    2.  Support improved coordination between local, tribal, state and 
federal efforts to address and remediate mining impacts;
    3.  Provide funds for job training for local residents to learn how 
to both assess mines and perform the technical and physical labor 
needed for decades of jobs doing the necessary remediation; and
    4.  Support broader public education about the importance of 
restoring stewarding rural resources such as clean air and water, and 
the communities that provide these crucial resources.
    Thank you for holding this hearing and providing the people of 
Calaveras County an opportunity to be heard. I look forward to any 
questions you may have about this topic.
    Attached: Map of Abandoned Mines in Calaveras County
    [GRAPHIC] [TIFF OMITTED] 53883.011
    
                                 .eps__
                                 
    Mr. Costa. Thank you very much, Mr. Wilensky. I allowed you 
to go a little bit further because I kind of got in the middle 
of your presentation and kind of sidetracked you, I think.
    Mr. Wilensky. Well, thank you. I appreciate the time.
    Mr. Costa. Yes. So our next witness is Mr. Bob Schneider, 
who is part of the effort with Tuleyome.

  STATEMENT OF BOB SCHNEIDER, BOARD MEMBER AND SENIOR POLICY 
                       DIRECTOR, TULEYOME

    Mr. Schneider. Yes. I am Bob Schneider. Thank you for the 
opportunity to testify this morning. I am a Board Member and 
Senior Policy Director of Tuleyome, which is a regional 
conservation organization based in Woodland in the Cache Creek 
watershed, and I did serve for five years as the Chair of 
Central Valley Water Board and attend the Delta Tributary 
Mercury Council and sit on the Delta Methylmercury TMDL 
Stakeholder Group. So I have some different perspectives on 
this issue.
    The key points that I want to talk about today--and how did 
I get there? Because I skipped a couple of slides, but that is 
OK--the key points are that Cache Creek contributes one-half of 
the mercury loading to the Sacramento River system, 520 pounds 
annually. This is ongoing every year, and other studies in the 
last five years that had some wet periods on Cache Creek show 
even more. So this might be a conservative estimate.
    Downstream mercury contamination must be a component of 
abandoned mine clean-up, and we are not just talking about the 
mines. We are talking about the sediments, the methylation that 
occurs, the human health impacts, the wildlife impacts, the 
habitat issues downstream. So we have to consider all of this 
as a part of the abandoned mine clean-up.
    And we look at H.R. 699 real positively. We support this. 
It will provide needed, desperately needed, funds to help in 
this actively ongoing process.
    The mercury mines are in this area. This is Clear Lake 
here, Lake Berryessa, Putah Creek and Cache Creek drainages. 
Cache Creek flows down through the Cache Creek Settling Basin 
and then into the Yolo Bypass and into the Sacramento River 
system. It is about 1,000----
    Mr. Costa. For everybody's edification you might----
    Mr. Schneider. Yes, Sacramento is right here.
    Mr. Costa. The Sacramento goes all the way up there to 
Shasta.
    Mr. Schneider. Right. This is the whole area.
    Mr. Costa. It is basically the Sacramento Valley with the 
Sierra and part of the Coastal Range is what that map reflects.
    Mr. Schneider. So it is the entire Sacramento drainage, and 
I am sorry everybody in the audience cannot see this.
    So those are my key points, and I want to say the real push 
for me personally in working this is the human health impacts, 
and we have in the Delta probably 15,000--I have Dr. Fraser 
Shilling with me today who has done some of these studies--an 
estimated 15,000 subsistence anglers. Their families are about 
75,000 people and mothers and kids that are probably eating 
fish with mercury laden levels that can cause human health 
impacts in this area. So that is a real concern here.
    Again, the Cache Creek drainage, Indian Valley Reservoir, 
which is just going to be listed for mercury; Clear Lake, which 
has the Sulphur Bank Mine; Sulphur Creek and Bear Creek; the 
Abbott-Turkey Run Mine going down to the Cache Creek Settling 
Basin and the Yolo Bypass; and again, the Sacramento area is 
right in here.
    The Rathburn-Petray is an active site. You can see all of 
the tailings and even on the roads which are filled with 
tailings, and the Bureau of Land Management has prioritized 
this, and they have $1.2 million committed to this. It will 
need another probably million dollars to complete the clean-up.
    Mr. Costa. By an active site, you mean it is being mined 
currently?
    Mr. Schneider. No, no, I am sorry. I did not mean to say 
that. They are actively working to clean up this site.
    Mr. Costa. And what was it?
    Mr. Schneider. An abandoned mine on BLM lands that drains 
into the Bear Creek.
    Mr. Costa. What kind of mine was it?
    Mr. Schneider. That was mercury.
    Mr. Costa. OK.
    Mr. Schneider. Mercury ore. This is the Clyde Mine, which 
was both gold and mercury, and I cannot tell you what is in 
that water, but I can tell you I am not drinking it.
    The Abbott-Turkey Run Mine, this is the before. It is just 
north of Highway 20 between Williams and Clear Lake. All of 
these tailings here and these mining stuff. We're leaching 
mercury into Harley Gulch, methylating and wandering down to 
Cache Creek. This is the clean-up.
    Mr. Costa. What kind of mine was that?
    Mr. Schneider. These are also mercury mines, Abbott and 
Turkey Run Mines. It is a complex, and what you end up with 
here is some contour. You get sealed mercury sediments or the 
tailings in another location. You vegetate and contour this, 
and you run rodder around it to seal it up into the future.
    The Cache Creek settling basin, I call this ground zero. 
About 520 pounds of mercury flow into here every year; 260 
pounds flow out into the Yolo Bypass. Working on improvements 
to this sediment capture can actively in our time help with 
mercury clean-up. Water goes into the Yolo Bypass. It was 
mentioned rice farming can methylate it. Wetlands can methylate 
it. This is the difficulty of this. It is a multi-media 
solution. We want more wetlands. We need rice farming, but we 
need to minimize the methylation that occurs in these areas.
    This area is further complex because you have riparian 
forests in this area, and you have rare species. Also, when 
they enlarged this before, it exacerbated the woodland flood 
control issue. So you have to deal with all of these issues at 
the same time.
    There are solutions. I think actually there has been 
prioritization that has been happening. The Tetra Tech report 
that came out last year looked at some of these issues and what 
the cost might be and what the prioritization on this might be. 
We do have to have better stakeholder communication, not just 
between the Federal and the State agencies, but between the 
people infected and impacted by these ecological and health 
impacts.
    TMDLs that we are doing move slowly. We do not have 
adequate staff to work on that.
    My time is up, too. So there are other issues, but thank 
you for the opportunity to testify, and I am happy to answer 
questions.
    [The prepared statement of Mr. Schneider follows:]

             Statement of Bob Schneider, Board Member and 
                    Senior Policy Director, Tuleyome

Introduction:
    My name is Bob Schneider. I am a Board member and the Senior Policy 
Director of Tuleyome, a regional conservation organization based in 
Woodland. Tuleyome is a Lake Miwok word meaning Deep Home Place. Our 
mission is to protect our wild heritage and our agricultural heritage 
in the Northern Inner Coast Range and Western Sacramento Valley. 
Tuleyome is deeply involved in many of the environmental, water 
quality, and equity issues concerned with mercury in the region.
    I served for 5 years (2002-2006) as the Chair of the Central Valley 
Regional Water Quality Control Board (the primary state regulatory 
agency in this region implementing the state Porter-Cologne Act and the 
federal Clean Water Act), during which time we developed the Clear Lake 
Mercury Total Maximum Daily Load (TMDL) plan setting requirements for 
the Sulphur Bank Mercury Mine and other sources, and the Cache Creek-
Harley Gulch-Bear Creek mercury TMDL. I currently attend the Delta 
Tributary Mercury Council meetings and am a member of the Delta Methyl 
Mercury TMDL Stakeholder Group. I work with community, non-governmental 
organizations, other groups, and agencies throughout the region and 
have contacts with Tribes in the region.
    I want to focus my testimony primarily on the Cache Creek watershed 
west of Sacramento, which encompasses approximately 1,095 square miles 
and drains the Coast Range mountains on the western edge of the 
Sacramento Valley. It flows out of Clear Lake and Indian Valley 
Reservoir and includes the Bear Creek and Sulphur Creek drainages,
    The geology of the Coast Range here is vastly different from that 
of the granitic Sierra and is a case study for plate tectonics. 
Currently, the Pacific plate is grinding northward along the edge of 
the North American plate, but formerly the San Andreas transform fault 
system was a subduction zone that resulted in the deposition of 
seafloor crustal materials along the continental margin, some of which 
mixed with water and became serpentine. Ancestral springs associated 
with these myriad fault systems in the serpentine areas deposited 
mercury ore in the Inner Coast Range. The region was extensively mined 
for mercury that was used in the gold mines of the Sierra.
    The region is also an area of incredible biological diversity and 
is enjoyed by hikers, birders, hunters, ranchers, horse riders, 
anglers, boaters and others.
Background:
    The pathways that link abandoned mines, mercury, and mercury 
methylation to public and wildlife health are complex. Remediation of 
mercury impacts and clean-up involves consideration of source reduction 
or remediation on both public and private lands, efforts to prevent or 
reduce mercury methylation, public health, wetland restoration, flood 
management, Delta restoration, ongoing monitoring feedback, and the Bay 
Delta Conservation Plan. Methylation is a process in which mercury 
becomes biologically active and is then caught up in the ecological 
food chain, resulting in contaminated fish. A myriad of state and 
federal agencies are involved and a balancing is required of sometimes 
conflicting goals, including, for example, the necessity to limit 
mercury methylation while also having a need to restore wetlands and 
riparian habitat in the Central Valley. Culture and economic issues are 
of concern in regards to Tribes throughout the region; and subsistence 
fishers and their families estimated at upwards of 75,000 people in the 
Delta region who are eating fish with mercury levels that may result in 
health problems.
    There are an estimated 40 abandoned mercury mines in the upper 
Cache Creek watershed, and another 40 in the upper Putah Creek 
watershed. Mercury from the Putah Creek watershed flows into Lake 
Berryessa. Abandoned mines occur on both publicly owned and private 
land. Other mercury sources in the region include natural springs (such 
as the Fountain of Life geyser on Sulphur Creek), soil erosion, and 
erosion from poorly constructed roads that often contain mine waste or 
mercury laden soil.
    Mercury from the mine tailings, waste rock, mine cuts, road cuts, 
and contaminated soils is leached and eroded at these sources; flows 
downstream to the Cache Creek Settling Basin; and though the Yolo 
Bypass to the Delta. One-half of the mercury that moves into the 
Sacramento River system comes from the headwaters of Cache Creek. The 
Delta Total Maximum Daily Load Report estimated a 20-year average of 
520 pounds of mercury per year flowing down Cache Creek. Of this 
amount, about one-half settles out in the Cache Creek Settling Basin 
east of Woodland. The other 260 pounds flows through the Yolo Bypass to 
the Sacramento River. (The 5-year average discussed in the Cache Creek 
TMDL shows twice this amount of mercury loading from the Cache Creek 
watershed.) This load comes from a watershed that provides 2 % of the 
water and is 4.3 % of the acreage in the Sacramento River Basin, 
illustrating the seriousness of mercury contamination in the Cache 
Creek basin.
    The Central Valley Water Board has set Cache Creek as a priority by 
adopting the Clear Lake Mercury TMDL, including the Sulphur Bank mine; 
the Cache Creek-Harley Gulch-Bear Creek TMDL; and, the Sulphur Creek 
TMDL and Basin Plan Amendment. Water Board staff are currently working 
on the Delta Methyl Mercury (MeHg) TMDL, which is focused on 
controlling elemental mercury as well as limiting the mercury 
methylation process. It, it is anticipated that TMDL plans will also be 
developed for the Upper Putah Creek Watershed, Stony Creek, Black Butte 
Reservoir, and Indian Valley Reservoir.
    Development of the Delta MeHG TMDL has focused additional attention 
on the Cache Creek Watershed as a primary mercury and methyl mercury 
source. An estimated 15,000 subsistence fishers and their families (an 
estimated 75,000 folks) in the Delta region are eating mercury-laden 
fish with levels that may result in health problems. In the Cache Creek 
watershed attention has been focused on developing methods to limit the 
methylation process in the Yolo Bypass, as well as to capture as much 
mercury as possible in the Cache Creek Settling Basin (CCSB).
    The CCSB is a 4 square mile leveed structure designed to capture 
sediment before it is transported into the Yolo Bypass. It is an 
efficient trap for mercury that has already left the actual mine sites, 
contaminated creek beds and banks, and is continuing to erode. 
Contamination of stream beds and banks by mercury is common to most 
areas downstream of inactive gold and mercury mines. Structures like 
the CCSB might be the most efficient, least disruptive way to remove 
the mercury and as such should be recognized for the direct role it 
plays in remediating the impacts of abandoned mercury mines.
    This is complicated in that the U.S. Army Corp of Engineers, CA 
Department of Water Resources, and the Central Valley Flood Protection 
Board share authority over various aspects of the Basin. This context 
is further complicated because past expansion of the Basin has 
exacerbated the flood potential in Woodland; and, now riparian habitat 
has developed in the Basin important to rare species in the context of 
federal and state conservation planning.
EPA and BLM Clean-Up Efforts in the Inner Coast Region:
    Significant clean-up efforts have begun in the Cache Creek 
watershed and demonstrates the potential for remediation.
    The recent Associated Press article about mercury in California 
focused on the Sulphur Bank Mine and the Elem Tribe. While early EPA 
Superfund clean-up efforts at Sulphur Bank have not been as timely as 
one might hope, more recent efforts have succeeded in rectifying 
problems, in particular the remediation of the Elem Tribe roads and 
community that were constructed on mercury laden mine tailings. Efforts 
to prevent mass erosion of mercury-containing rock from the waste rock 
dam into the lake by regrading and revegetating the dam were 
successful. But, EPA hasn't addressed the waste rock already in Clear 
Lake and the seepage of low pH water from the Bradley Pit to Clear Lake 
that carries dissolved mercury.
    Mine tailings and waste rock at the Turkey Run and Abbott Mines, 
located on Harley Gulch just north of Highway 20, have been relocated 
and sealed, thus remediating a major mercury and methyl mercury source 
into Cache Creek.
    The BLM is now working to remediate the Contact and Sonoma Mines 
that are in Sonoma County in the Russian River drainage, and the Helen 
Mine at the headwaters of Putah Creek in Lake County. Funding is 
committed and bids are going out. It is expected that contracts will be 
let by the end of the year.
    The Rathburn-Petray Mine in the Bear Creek drainage is ``shovel-
ready'' and $1.2 million is committed to clean up. But, another $1 
million is needed to complete this project.
Solutions--Moving Forward:
    A comprehensive Abandoned Mine and Toxic Mercury Clean-up Plan for 
the Cache Creek, Putah Creek, and larger Inner Coast Range region is 
required. The plan should identify overall clean up goals for the 
region as well as specific annual and 5-year goals. The plan requires a 
definitive time line, cost estimates, meaningful progress assessments, 
and adequate funding. Much of the background information on Cache Creek 
for this effort is contained in the 2008 Tetra Tech report on Regional 
Mercury Load Reduction Evaluation Central Valley, California.
    Good communication between all of the entities involved working on 
mercury issues in the watershed is needed. The Delta Tributaries 
Mercury Council could serve as the coordinating stakeholder 
organization for the plan's development and implementation oversight. 
Tuleyome will participate in this effort. This would help to remediate 
the approximate 80 mines in the Putah and Cache Creek watersheds.
    We need to prioritize clean up actions based upon likely and 
measurable ecological and health outcomes. We need to complete the 
accountability process by demonstrating the effectiveness of the clean 
up actions in reducing impacts to human and wildlife health. Sensitive 
biological monitoring techniques have been developed, with State 
funding, to accurately track mercury exposure levels--they should be 
utilized.
    We need to expeditiously develop TMDL plans for mercury-impaired 
water bodies. A small staff at the Water Board is only able to move 
forward on various plans in a sequential manner because of resource 
limitations, whereas increased staffing and funding could speed this 
process, allowing multiple plans to move forward at the same time.
    We need to address Good Samaritan efforts to aid work on private 
lands. This is complex and not an easy issue. Still, there are 
opportunities to move forward on some mine sites if we can provide the 
``good-actor'' landowners with some assurances with respect to 
liability.
    We need to enable underserved constituency participation including 
subsistence fishers and Tribes. Impacted communities are the main human 
stakeholders of concern for mercury clean-up, but rarely have access to 
research, planning, decision-making, and resource sharing. Fish-eating 
wildlife have no say in the matter, but also have no choice but to eat 
fish as their only food.
    The development of an offsets program would help to maximize clean 
up efforts across the landscape. Such an approach involves investments 
in clean-up actions in high-mercury source areas by regulated agencies 
lower in the watershed. While an offset program cannot allow ``hot-
spots'' to remain in the lower reaches of the watershed, there are 
opportunities to combine ``hot-spot'' downstream remediation (e.g., in 
the Delta and San Francisco Bay) with improvements further upstream in 
the watershed. Such an approach will improve overall clean-up efforts 
for the Sacramento River basin, benefiting many millions of people in 
this region in a timely way.
    We need to focus attention on the Cache Creek Settling Basin to 
increase mercury capture, resolve flood-management issues, and protect 
habitat and habitat restoration. Yolo County, the City of Woodland, and 
the Yolo County Flood Control Water Conservation District are working 
on solutions to the flooding issue through the FloodSafe Yolo pilot 
program, and the Central Valley Water Board is actively seeking answers 
for means to increase sediment capture in the basin. This is a ground-
up approach for locally generated solutions, but the USACE must also be 
actively engaged in this process.
    Solutions to mercury and methyl mercury issues in the Yolo Bypass 
and Delta involve substantial natural and environmental resources 
concerns. Agriculture (particularly rice farming) and wetlands increase 
mercury methylation, exacerbating concerns identified above, but we 
also need increased wetlands and shallow-water fishery habitats to 
protect the plants, waterfowl, and fish of the region. At the present 
time many agencies and other interested parties are engaged in habitat 
planning in the Delta, and these planning efforts must be able to 
incorporate mercury issues, while still allowing for enhancements and 
restoration of wetland areas and habitat values in order to address 
long-term water-supply concerns in the Delta.
    We need adequate, ongoing funding to move forward the planning and 
implementation of programs in the Cache Creek region to clean up mines 
and to remediate mercury and methyl mercury issues. We need a 
meaningful fraction of those funds to go to effective feedback 
monitoring that will guide remediation efforts.
Conclusion:
    The Cache Creek watershed is a primary source of mercury that 
contributes one-half of the mercury in the Sacramento system. We need 
to clean up the sources at the abandoned mines both on public lands and 
private lands.
    Downstream mercury contamination including sediment contamination, 
mercury methylation, human health impacts of mercury from eating 
contaminated fish, and impacts to wildlife and habitat are direct 
affects of mining and must a component of abandoned mine clean up.
    HR 699 will provide an ongoing funding source for abandoned mine 
and toxic mercury clean up reducing harm to both people and wildlife. 
We strongly support this bill and thank you, Representative Costa, for 
your co-sponsorship. Thank you members of this subcommittee and your 
staff for attention to this important issue here in California. And, we 
are certainly available to lead a tour of the region if that might be 
helpful in your work.
                                 ______
                                 
    Mr. Costa. Thank you very much, Mr. Schneider.
    Our next witness is Mr. Julian Isham on behalf of the 
Northwest Mining Association. Mr. Isham, please, I am looking 
forward to your testimony.

      STATEMENT OF JULIAN C. ISHAM, GEOLOGY MANAGER, SHAW 
  ENVIRONMENTAL, INC., TESTIFYING ON BEHALF OF THE NORTHWEST 
                       MINING ASSOCIATION

    Mr. Isham. Thank you very much.
    The association has asked me to speak. We represent 
essentially where the rubber meets the road. Our association 
membership is small mining companies, large mining companies, 
the service companies that actually do the remediation 
projects.
    I was happy to see the Penn Mine was on there. My company 
actually did a large closure at the Penn Mine. I have also been 
doing the environmental monitoring at some of the asbestos 
mines in Calaveras County. I have done a lot of work in 
Calaveras County. I have done a lot of work in the Cache Creek 
watershed. I have collected water samples with some of the 
staff that sit behind me, and we believe, the association 
believes that two important aspects are necessary to accelerate 
these clean-ups, and that is additional Federal funding and the 
Good Samaritan regulations and the Good Samaritan relief that 
are sponsored by Lamborn in H.R. 3203.
    Some of the questions you have asked other speakers I might 
try to touch upon. The problems that we are discussing today 
occurred starting about 170 years ago when the western states 
were mined by some of these classic mining operations, the 
mother lode, in association with the mother lode is the mercury 
mining in the coast ranges.
    Unfortunately, environmental regulations to help control 
the unregulated practices really did not start until the 1960s. 
So that allowed operations like this to go on unchecked for 
about 120 years, and it is this 120-year period that has caused 
these abandoned mines that we are discussing today. The modern 
day mining companies, the thoughtful, sensitive mining 
companies of today are covered by the current environmental 
regulations.
    The reclamation bonds that Bridgett Luther talked about 
following the passage of the SMARA Act of 1975 have essentially 
prevented the modern day mines to cause these problems. So it 
is a finite problem. It is a problem created from the 1840s to 
about the 1960s.
    And there are ways to accelerate these clean-ups. The glass 
is not half empty. The glass is half full. Some of the states 
are doing some excellent progress. The State of Nevada is using 
fees collected by the actual operating mines, the mines that 
are producing not only minerals but good jobs. Those fees are 
used to reclaim mines in states that have active mining 
programs. The State of California does not have a very active 
hardrock program now, but the agencies within the state, such 
as the Office of Mine Reclamation that was represented by 
Bridgett Luther, who was one of our speakers, is doing an 
excellent program to identify the problems within the state.
    The Federal funding that we were talking about, my 
association has strongly recommended a fund, a Federal fund, 
for hardrock reclamation of abandoned mines that would 
essentially be funded from the royalties from net profits from 
new claims.
    We have been stating this for many years, and the Good 
Samaritan regulations, the liability relief is something that 
we have always discussed. Some of the concerns are the Clean 
Water Act and the CERCLA liability, the cradle to grave 
liability that is hampered, many Good Samaritans in this state 
and in the western states, virtually every group who have 
looked at the reclamation of abandoned mines have agreed that 
Good Samaritan legislation would carry this process a long way.
    Many of the mining companies who have considered reclaiming 
old properties tend to shy away from areas where there are 
legacy issues because of the cradle to grave liability caused 
by the Clean Water Act and CERCLA liability concerns. A couple 
of examples of this are Homestake Mining. Homestake Mining 
operated the largest gold mine in the State of California, 
which is the McLaughlin Mine. When the McLaughlin Mine was 
open, it produced gold plus many good jobs for Lake County.
    An interesting aspect about the McLaughlin mine, it was 
also in an historic mercury mining area. In the process of 
opening and operating McLaughlin mine, they actually closed 
some old mercury features, open portals, processing areas and 
waste pits. Homestake is an example of a company, of other 
companies, other mining companies, who in the process of 
accessing new resources have the ability to close these old 
legacy features. Unfortunately, the cradle to grave concerns 
for this high liability have limited many of these aspects.
    Another example is in the county that I live, Contra Costa 
County, the Mount Diablo Mercury Mine. The Mount Diablo Mercury 
Mine pollutes the watershed plus one of the important 
reservoirs. I spoke with Mitch Avalon just recently. The county 
would like to proceed much faster with the regulations, but 
they are concerned with what has happened at the Penn Mine and 
the legacy issues that have hit upon them.
    Thank you for allowing me to speak.
    [The prepared statement of Mr. Isham follows:]

        Statement of Julian Isham, Northwest Mining Association

Introduction
    My name is Julian Isham. I am the Geology Manager at Shaw 
Environmental in Concord, California. I am testifying today on behalf 
of the Northwest Mining Association (NWMA) on abandoned mines and 
mercury in California. NWMA would like to thank you for the opportunity 
to speak today about reclaiming abandoned mines and to offer our 
suggestions for policies that will accelerate the pace of this process.
    NWMA is a 114-year-old nonprofit mining industry trade association 
headquartered in Spokane, Washington. Our 1,800 members reside in 35 
states and 6 Canadian provinces and are actively involved in 
exploration, mining, and reclamation operations on BLM- and USFS-
administered public lands in every western state. Our broad-based 
membership includes many small miners and exploration geologists, as 
well as junior and major mining companies, environmental firms, and 
suppliers of equipment and services to the domestic and global mining 
industry. More than 90 percent of our members are small businesses or 
work for small businesses. Many of our members have extensive knowledge 
of the scope of the hardrock abandoned mine lands (AML) problem and 
first-hand experience in remediating AML environmental impacts and 
abating AML safety hazards.
    NWMA asked me to testify because I have extensive experience with 
AML and mercury issues. In my experience outside of Shaw, I have acted 
as a regulator of the mining industry (California State Mining & 
Geology Board), a consultant to both public and private owners of mined 
lands, and a responsible party (Jamestown Gold Mine), which has allowed 
me to view all sides of this issue. I was appointed to positions of 
regulatory responsibility by both Democrat and Republican 
administrations, which shows that I am politically impartial. I have 
been involved with mercury issues since 1972 while I was performing 
research at Michigan State University, which has allowed me to observe 
changes in science and industry. I was present for the 1st Earth Day 
Rally in May 1970 at the University of Wisconsin. I have been solving 
environmental problems for more than 35 years.
    All stakeholders in the dialogue about mining and its impact on the 
environment agree that cleaning up historic AMLs to eliminate safety 
hazards and to minimize environmental impacts is an important and 
necessary public policy goal. The NWMA, along with other members of the 
hardrock mining industry, have long supported the development of 
policies to encourage AML cleanup. NWMA presented testimony to this 
Subcommittee in 2006 and 2007. As we have stressed in previous 
testimony and as we will emphasize today, the key to expediting cleanup 
of AMLs is to provide additional funding and to enact Good Samaritan 
liability relief for voluntary AML cleanup efforts. I will focus my 
testimony on the following points:
    <bullet>  AML issues predate environmental laws
    <bullet>  AML reclamation can be accelerated
    <bullet>  Need for Federal funding to accelerate cleanups
    <bullet>  Need for Good Samaritan liability relief
120 Years of Mining Precede the Enactment of Environmental Laws
    Table 1 shows a temporal history of mining and corresponding 
regulation in the western U.S. The left side of the table gives the 
history, and the right side gives the evolution of the environmental 
laws and regulations that affect mining. As you can see in the yellow 
top part of Table 1, mining in the western U.S. started almost 170 
years ago in about 1840. The enactment of federal and state 
environmental laws, shown in green, did not start until the 1960s, 
which is roughly 120 years later. As is readily apparent from Table 1, 
environmental regulations did not apply to hardrock mines before the 
1960s. This unregulated era of mining created the abandoned mines that 
are the subject of this hearing.
    The pre-regulation mining districts shown in the yellow part of 
Table 1--such as the California Mother Lode Gold Rush and associated 
coast range mercury mining; the Comstock Lode in Nevada; Central City, 
Colorado; Butte, Montana; the Black Hills of South Dakota; Socorro, New 
Mexico; and the Klondike in Alaska--tell the story of the developing 
West. These and countless other mining districts helped build, settle, 
and protect America. Although we cherish the history and heritage they 
represent, we are now left to deal with a difficult legacy of the 
safety hazards and environmental impacts this history has left behind.
    The wastes produced by mining and ore processing were usually 
deposited adjacent to the operating facilities or directly down-
gradient in the nearest valley or low spot. Much as domestic wastes of 
the time were sent to the nearest moving water body. Gravity was 
considered the best friend of miners and other industrial waste 
generators of the time. Once the commercial ore was exhausted or market 
prices fell below the cost of extraction and processing, operators 
commonly abandoned sites with little, if any, thought to reclamation or 
reuse of the land.
    While this lack of environmental protection and reclamation 
measures seems unacceptable when viewed through the prism of our 
modern-day commitment to protect the environment, it is important to 
understand that mines of this bygone era were no different than other 
industries of the time. Environmental protection simply was not on 
anyone's radar screen, and the long-term consequences of these mining 
practices were not recognized or understood.
    The environmental protection and bonding requirements for modern 
mines guarantee that today's mines will not become tomorrow's AMLs for 
two reasons. First, modern mines are designed, built, operated, and 
closed with the end in mind by using state-of-the-art environmental 
safeguards that minimize the potential for environmental problems to 
develop. Second, federal and state regulators require adequate 
reclamation bond monies in the event a mine operator goes bankrupt or 
fails to perform the necessary reclamation. The amount of required 
financial assurance is based on what it would cost BLM, USFS, or a 
state agency to reclaim the site using third-party contractors to do 
the work. By law, these reclamation bonds are reviewed and adjusted on 
a regular basis to make sure they keep pace with inflation and on-the-
ground conditions.
    In 1975, the Surface Mining and Reclamation Act was passed in 
California requiring all mining operations and exploration projects 
that disturb more than one acre to provide a reclamation bond. 
Nationwide, a combination of reclamation bonds and environmental laws 
and regulations ensures that the AML problem is a finite and historical 
problem and not one that will grow in the future.
How Do We Accelerate the Progress of Current AML Reclamation Efforts?
    Although the scope of the AML problem is large, state, and federal 
agencies in cooperation with communities, mining companies, and other 
private-sector interests are making steady progress in reclaiming AMLs. 
Thus, as we consider the best ways to tackle the AML problem, it is 
important to start from the perspective that the glass is not half 
empty. Progress is being made. The focus of the AML legislative 
dialogue should be to create policies that accelerate the pace of AML 
reclamation so that more sites can be reclaimed sooner rather than 
later.
    It is apparent that some western states have undertaken a number of 
successful AML reclamation efforts. States with active mining typically 
have the largest and most productive AML reclamation programs. States 
like Nevada use mining fees to fund some of their AML reclamation 
program. States with little or no mining typically have very poorly 
funded programs. California has a very progressive and effective AML 
program. However, there is virtually no current hardrock mining in 
California and the Office of Mine Reclamation has identified thousands 
of AML sites that need to be reclaimed. My two terms on the California 
State Mining and Geology Board has given me exposure to AML issues 
throughout the State.
Federal Funding is Needed to Accelerate AML Cleanups
    NWMA and other industry interests have long supported creating a 
federal hardrock AML fund using revenue generated from a net royalty on 
new claims to support, augment, and expand existing AML programs. To 
build the fund more rapidly, the fund should solicit donations from 
individuals, corporations, associations, and foundations.
    NWMA believes that states should to take the lead in administering 
the AML program. As our research shows, many states already have 
effective AML programs. We see no need to re-invent the wheel by 
creating a new federal AML bureaucracy. This bureaucracy would be an 
inefficient use of the monies collected and would reduce the amount of 
money available for on-the-ground remediation and reclamation. Because 
each hardrock AML site has unique geology, geography, terrain and 
climate, a uniform, one-size-fits-all program will not achieve optimal 
results. The state AML programs are in the best position to prioritize 
where federal AML funds should be spent within the state. Bridget 
Luther, one of the speakers today, represents California's AML program.
Good Samaritan Legislation is Critical to Facilitating Voluntary AML 
        Reclamation
    Although more funding is a key component of solving the AML 
problem, funding alone is not the best way to accelerate the pace of 
AML reclamation activities. Enacting Good Samaritan liability relief is 
also essential. Concerns about liability exposure stemming from the 
Clean Water Act (CWA), Comprehensive Environmental Response, 
Compensation, and Liability Act of 1980 (CERCLA or Superfund), and 
other laws are significantly chilling Good Samaritan AML cleanups.
    Under these laws, any mining company, state or federal agency, 
individuals or other entities that begin to voluntarily remediate an 
abandoned mine site could incur ``cradle-to-grave'' liability under the 
CWA, CERCLA, and other environmental laws, even though they did not 
cause or contribute to the AML environmental problem.
    Virtually every group who has looked at the AML issue has 
recognized and documented the legal impediments to voluntary cleanup of 
AMLs. Policymakers and independent researchers including the National 
Research Council, the Western Governors' Association, and the Center 
for the American West have urged Congress to eliminate these 
impediments.
    Many public agencies emphasized the importance of Good Samaritan 
liability relief in enabling them to expand the scope of their AML 
reclamation programs. In the absence of such relief, most agencies 
avoid sites with contaminated water, due to concerns about CWA 
liability exposure.
    Several Good Samaritan bills have been introduced in the past. We 
strongly support the H.R. 3203's approach to Good Samaritan 
legislation, which would accomplish many of the key Good Samaritan 
objectives shown in Table 2.
    The combined effect of a federal AML reclamation fund and Good 
Samaritan liability relief is the best way to accelerate the pace of 
AML reclamation. Good Samaritan liability relief will facilitate 
public--private sector partnerships, which we know is an important step 
in solving to the AML problem. I have discussed Good Samaritan 
liability relief with several public and private entities who have 
conducted or would like to conduct mercury remediation efforts.
    One example is Homestake Mining in Lake County, California. 
Homestake operated the McLaughlin Gold mine, which was the largest gold 
mine in California. While this mine was in operation, it yielded gold 
and many good jobs in Lake County. McLaughlin was operated under modern 
day environmental laws and has an adequate reclamation bond. This mine 
has been protective of surface waters or groundwater. However, it is 
located in a historic mercury mining district. Although, Homestake did 
not operate or profit from these legacy mines, it has responsibly 
reclaimed several historic mercury impacted sites, including mine 
openings, processing sites, and waste piles.
    Good Samaritan liability relief would allow other companies to help 
resolve the AML issue. It is not uncommon for modern day responsible 
mining companies to shy away from historic mining districts because of 
legacy issues. However, in many cases the best solution to an AML 
problem may be to have a responsible mining company access the 
remaining reserves and clean up the historic impact. Homestake is an 
example of a company that has cleaned up historical impact in 
California.
    A second example is the Contra Costa Flood Control District in 
Contra Costa County, which is where I live. The Mount Diablo Mercury 
mine has polluted the Marsh Creek watershed and an important reservoir 
owned by the District. Contra Costa County would like to more actively 
participate in cleaning up this mine and the watershed. However, they 
are hampered by the concern over what happened to the East Bay 
Municipal Utility District (EBMUD) when they tried to reclaim the Penn 
Mine in Calaveras County. EBMUD is a ``poster child'' for public 
agencies trying to do the right thing only to be hit with a huge 
environmental problem that they had nothing to do with. Although Contra 
Costa County has received some federal funding through the Army Corps 
of Engineers, the clean up process has been very slow due to an 
overpowering liability concern. Counties like Contra Costa need Good 
Samaritan relief.
    In addition to living in a county with AML issues, I am part of the 
Lac Courte Oreilles band of Ojibwa Indians Indian tribe that has 
suffered due to mining legacy sites. I have also been in contact with 
my Tribe. The tribal has legacy mining issues on the reservation and 
very low employment. Good Samaritan liability relief could prompt mine 
reclamation, provide good jobs, and restore my tribe's lands.
Conclusion
    The NWMA and I very much appreciate this opportunity to testify 
today and put AMLs into the proper historical perspective, to explain 
why AMLs are a finite problem and how today's environmental regulations 
and bonding requirements prevent the creation of new AMLs, to describe 
some of the progress that is being made in reclaiming AMLs, and to 
present our recommendations for moving forward. We believe the AML 
problem is manageable and solvable. We understand the problems that 
AMLs are creating, and we have the engineering, environmental 
protection, and reclamation techniques needed to solve these problems. 
But our AML tool kit is missing two essential tools--adequate funding 
and Good Samaritan liability relief for voluntary AML cleanup projects.
    So we conclude by asking for your help. Please add a federal AML 
fund and Good Samaritan liability relief to the AML tool kit. These two 
policies offer the best opportunity to accelerate the progress that is 
being made in abating AML safety hazards and remediating AML 
environmental problems. The NWMA stands ready to work with you and to 
help in any way we can to achieve what we all agree is an important 
goal--expediting AML reclamation.
    I thank you again for this opportunity to testify on this important 
issue and will be happy to answer any questions.
[GRAPHIC] [TIFF OMITTED] 53883.006

.eps[GRAPHIC] [TIFF OMITTED] 53883.007

.eps[GRAPHIC] [TIFF OMITTED] 53883.008

                                 .eps__
                                 
    Mr. Costa. All right. Thank you. I wanted to allow you to 
complete your thought, but we try to keep everyone within the 
same time frame.
    Our next witness, actually our last witness for this panel, 
but we are very pleased that she is here, Ms. Elizabeth Martin 
with the Sierra Fund, who has worked over the years, and she 
reminded me we had met a million years ago, and I said it has 
not been that long since I was here. It just seems like it.

                STATEMENT OF ELIZABETH MARTIN, 
            CHIEF EXECUTIVE OFFICER, THE SIERRA FUND

    Ms. Martin. Maybe it was 25.
    Thank you for inviting me to speak today. I represent the 
Sierra Fund, a community foundation in the Sierra which is 
working to increase investment in the people and places of the 
Sierra. For the last several years we have invested in helping 
to highlight and address what we call mining's toxic legacy.
    Much of what I am going to speak about today is in this 
book. I have brought two copies for each member of the 
Committee to look at.
    As you know, about 160 years ago they found gold in those 
there hills; previous to that for almost 200 years had been 
mining mercury on the coast, and you can see this is a map that 
shows the mercury mines on the coast, the gold mines in the 
Sierra, and the Klamath-Trinity. As you can see here, almost 
all of the watershed for the developed water system for the 
State of California, about 66 percent of the water flows from 
these areas, which are heavily contaminated from the 47,000 
abandoned mines that are in the state, the majority of those on 
Federal land, the majority of them gold mines, and the majority 
of them affecting our drinking water.
    When the miners came out, they turned over every rock. They 
pulled up every tree. They used these water cannons. This is a 
picture of hydraulic mining. You can see how tiny the people 
are. A huge volume of sediment was wiped out in the county that 
I serve. I am from Nevada County, where I am a former county 
supervisor and planning commissioner.
    Our gold country towns grew on top of these mines. Nevada 
County has literally hundreds of miles of abandoned tunnels 
under the ground. In Grass Valley alone, my house is on top of 
362 miles of contaminated tunnel water.
    The impact of the gold rush were multitudinous. The most 
important, most significant, and lasting impact has been the 
impact on the people of the area. Nearly 99.5 percent of the 
people that were living in Nevada County at the time the gold 
rush hit, the Maidu Tribe, were either killed or died of 
disease.
    I have worked closely and the Sierra Fund is proud that one 
of our top partners is the Maidu Tribe from Nevada County. 
Chairman Don Ryberg is sitting in the audience behind me and 
has accompanied me here today as one of the leaders of this 
effort.
    Of course, we live on top of a brownfield. There is 
arsenic, lead, chromium, asbestos and mercury. This picture 
shows what people have been talking about, how mercury 
contaminates the entire food web starting with the sulphur 
reducing bacteria, moving up through the system, 
bioaccumulating into the fish affecting not only the humans 
that eat the fish, but also the predators, the birds and the 
other mammals. Some of this has not yet been well studied.
    But we do know that almost every water body in our region 
is heavily contaminated with mercury. Again, none of this is 
naturally occurring. It is all left over from the mining era.
    We have enormous environmental impacts, abandoned mines, 
mine tailings. It was very common practice to take the gravels 
and sands that were left over after being crushed and treated 
with either chlorine, mercury or other sorts of methods. It was 
very common to take the crushed rock and use it to build gravel 
roads, schools, hospitals. We do not even know where much of 
this material is today.
    The Sierra Fund has worked with a large collaboration, 
which I will list at the end, to try to create solutions to 
address this problem. Our first and most important 
recommendation to this body is that we believe we need to 
establish a mining toxins working group.
    Many years ago you might remember the Sierra Nevada 
Ecosystem Project known as SNEP that was coordinated by the 
University of California, brought Federal and state scientists 
together to look at our Sierra. We believe a similar working 
group is needed. It needs to include both state and Federal 
agencies that do regulation, as well as science, university 
researchers.
    In fact, California State University at Chico has been our 
partner from the very first moment we began working on this. 
There needs to be involvement of local community and tribal 
people as well, multi-disciplinary, including health 
professionals.
    We agree with everyone you have heard from today there is a 
need for strategic research. We do not need to throw billions 
of dollars at the research. What we have identified, what we 
think some of the top priorities for research are, we are very 
interested in exploring methods for removing the methylmercury 
from our watershed.
    We are not at parts per billion where I am at. We have 
liquid mercury in our streams you can remove with a turkey 
baster. I just came back from the EPA Brownfields Conference. 
Those guys there had never seen this problem or heard of it 
before. It is quite unique, and it is a very important problem.
    We also want to know more about the health impacts of this 
exposure on our people.
    We are interested in seeing the Federal government help 
support medical education and outreach in our area. Many people 
do not know that the water is contaminated, and they do not 
know that the fish is not safe to eat.
    Finally, we have some recommendations for Federal programs. 
We also call for an inventory assessment and prioritization of 
all the abandoned mine lands. We know that the Federal water 
projects at Shasta and others, the Central Valley Project, are 
contaminated with mercury, and we want to see those assessed to 
figure out how we can operate those reservoirs and wetlands to 
reduce mercury methylation.
    We are supporting the reforms to 1872 Mining Act that have 
been defined here today, Mr. Rahall's bill as well as Mr. 
Lamborn's, and finally, we would like to see full funding of 
the CALFED mercury strategy, Phase 2.
    Here is a picture of our partners. As you can see, we had 
Federal and state agency people, and lots of people from the 
community, tribal people, scientists and, of course, California 
State University researchers.
    Thank you.
    [The prepared statement of Ms. Martin follows:]

   Statement of Elizabeth ``Izzy'' Martin, Chief Executive Officer, 
                            The Sierra Fund

    My name is Elizabeth ``Izzy'' Martin, Chief Executive Officer of 
The Sierra Fund. I am honored to be asked to participate in your 
Committee's field oversight hearing about the topic of ``Abandoned 
Mines and Mercury in California.'' The Sierra Fund's Mining's Toxic 
Legacy Initiative has developed a strategic approach to identifying the 
problems associated with legacy mining in California. We have worked 
with a broad range of stakeholders to build consensus around the policy 
directions needed to assess and remediate the impacts of the ``gold 
rush'' on the Sierra Nevada, in the headwaters of California.
Summary
    It is time to address the ongoing impacts of legacy mining in 
California. We urge your consideration of the following 
recommendations:
1. Increase Collaboration
    <bullet>  Support development of a Mining Toxins Working group that 
supports collaboration between tribal, federal, state and local 
governments and community members in addressing legacy mining issues.
2. Fund Strategic Research
    <bullet>  Support development of pilot research projects that 
explore methods for reducing methylmercury in the Sierra Nevada 
watershed.
    <bullet>  Support research into health impacts on Sierra residents 
of exposure to mining toxins.
3. Outreach and Education on Human Health
    <bullet>  Support regional medical education and outreach on the 
impacts of legacy mining toxins on public health, including mercury.
4. Direct and Fund Federal Programs
    <bullet>  Inventory, assess, and prioritize for remediation 
abandoned mines on all lands owned or managed by the federal 
government.
    <bullet>  Assess water projects, wetlands, reservoirs and other 
federal projects and put programs into place that ensure best 
management practices and appropriate technologies to minimize mercury 
methylation.
    <bullet>  Reform the Federal 1872 Mining Act needs to require 
meaningful mitigation of cultural and environmental impacts from 
historic mining, and reform ``Good Samaritan'' laws to provide 
incentives for cleanup.
    <bullet>  Support implementation of Phase 2 of the CALFED Mercury 
Strategy.
The Sierra Fund's Mining's Initiative
    The Sierra Fund's Mining's Toxic Legacy Initiative is rooted in our 
mission ``to increase and organize public and private investment in the 
people and places of the Sierra Nevada.'' Launched in 2006, this 
Initiative focuses on the impacts of historical gold mining activities. 
Working with partners from state, federal, and tribal governments as 
well as from the academic, health, and environmental communities, The 
Sierra Fund's report ``Mining's Toxic Legacy,'' published in 2008, is 
the first comprehensive evaluation of what happened during the Gold 
Rush, including: the cultural, health, and environmental impacts of 
this era; the obstacles in the way of addressing these impacts; and a 
strategic plan for taking action on the longest neglected environmental 
problem in the Golden State of California.
Mining in the Sierra Nevada
    The Gold Rush changed California demographics as indigenous people 
were dislocated and mining towns appeared and disappeared across the 
Sierra Nevada range. A less recognized consequence of the Gold Rush was 
the massive environmental destruction that took place, which plagues 
the Sierra to this day. Ever since gold was discovered in the Sierra 
Nevada in 1848, mining activities to extract gold, copper, asbestos, 
lead and other minerals from California's rich deposits have had an 
impact on the state's human and environmental health.
    While it has slowed down dramatically since the days of the Gold 
Rush, mining has left a lasting legacy of toxic contamination that 
threatens the health of humans and wildlife throughout California: in 
the rural areas of the Sierra where gold mining occurred; in the 
coastal mountain ranges where mercury was mined; and in downstream 
communities whose water comes from the rivers and streams of the mined 
region. Rebecca Solnit illustrates the magnitude of this impact in her 
article ``Winged Mercury and the Golden Calf'' (Orion Magazine, 
September 2006)
    The California Gold Rush clawed out of the foothills of the Sierra 
Nevada considerable gold--93 tons or 2.7 million troy ounces in the 
peak year of 1853 alone... In the course of doing so, everything in the 
region and much downstream was ravaged. Wildlife was decimated. Trees 
were cut down to burn for domestic and industrial purposes and to build 
the huge mining infrastructure that was firmly in place by the 1870s. 
...The earth was dug into desolation and later hosed out so that some 
landscapes--notably the Malakoff Diggins and San Juan Ridge near Nevada 
City--are still erosive badlands of mostly bare earth.
    But most of all, the streams and rivers were devastated. The myriad 
waterways of the Sierra Nevada were turned into so much plumbing, to be 
detoured, dammed, redirected into sluices high above the landscape, 
filled with debris and toxins. Water as an industrial agent was 
paramount, and water as a source of life for fish, riparian creatures, 
downstream drinkers, farmers, and future generations was ignored.
    Environmental Impacts: The Sierra Nevada is the headwaters for more 
than 60% of the developed drinking water for the State of California. 
Using placer, hard rock, and hydraulic mining techniques, millions of 
ounces of gold were extracted from the Sierra Nevada ``Mother Lode'' 
during the 19th century. Mercury, arsenic, lead, acid mine drainage, 
and other kinds of contamination left behind from mining threaten the 
water, plants, and people of the entire state.
    According to the most recent state estimate, there are 47,000 
abandoned mines in California. Abandoned mines have left behind toxic 
pits and acid mine drainage. Naturally occurring minerals including 
arsenic, lead, chromium and asbestos were disturbed, crushed, and 
distributed throughout the region as gravel for road construction. Much 
of the land impacted by these activities is now publicly owned by the 
federal government.
    Mining practices used substantial amounts of mercury, millions of 
gallons of which still pollute the Sierra landscape. Mercury was mined 
in the coast range, and brought to the Sierra Nevada in the form of 
``quicksilver'' specifically for use in gold mining. Gold was extracted 
through a process that mixed elemental mercury with mined gravel, and 
mercury has since been found in nearly every stream in Sierra gold 
country. Mercury also occurs in mill tailings along with other heavy 
metals.
    This mercury is routinely reactivated into the water through 
development, resource extraction and human activity, and reaches 
dangerously high concentrations in fish caught in the San Francisco 
Bay-Delta region and in low-elevation Sierra reservoirs and streams 
(C.N. Alpers et al, ``Mercury Contamination from Historical Gold Mining 
in California,'' USGS Fact Sheet 2005-3014, April 2005.) Although the 
presence of mercury in the Bay and Delta is a significant issue, the 
impact of exposure on Sierra watersheds is currently unknown, for lack 
of studies. This year, the Lakes Report from the State Water Resources 
Control Board Surface Water Ambient Monitoring Program, published May 
2009, found mercury to be the most commonly found contaminant of fish 
in the state's lakes.
    Health impact: Since most towns in the Sierra Nevada were founded 
around productive mine workings, downtown areas, parks, and school 
sites contain mine waste. Common mining toxins such as mercury, 
arsenic, lead and asbestos are known to cause severe human health 
problems with continued exposure.
    Mercury is a neurotoxin that accumulates over time in the flesh of 
fish and the humans and wildlife that eat them. Mercury contamination 
of fish has caused the State to issue warnings about fish consumption 
in Sierra water bodies that have been tested. There have been few 
studies of the impact of eating mercury-contaminated fish from this 
region, but recent research suggests the presence of observable health 
impacts in those who eat a lot of fish.
    Arsenic, lead and asbestos, naturally occurring in toxic materials 
crushed during the Gold Rush and left in massive tailings piles, have 
been found in dangerously high levels throughout the region and can be 
inhaled as dust particles when working or recreating in these areas. 
Exposure to arsenic, asbestos and lead in dust from crushed mine waste 
is a significant and largely unknown hazard for people living in the 
Sierra. Inhalation of dust is the primary way residents are exposed to 
toxins in the mine waste. Sensitive populations include people who work 
and recreate outdoors, especially young children.
    Despite the extensive evidence of potential exposure to these many 
toxins, human health studies have never been conducted in the Sierra 
Nevada to learn if there are health impacts resulting from this 
exposure. A survey of thirteen health clinics throughout the Gold 
Country documented that none of these clinics currently collect 
environmental health histories from their patients or provide 
information about mercury contamination of fish as part of their 
maternal health program, even though many serve areas where there are 
recently adopted advisories to limit fish consumption.
    Cultural Impact: The Gold Rush devastated the Native Peoples in the 
region. Forced relocation, disease, and outright murder shattered their 
villages and tribes. Toxic materials that remain from this era sever 
Native Californians from their traditional ceremonial activities such 
as fishing and collection of ceremonial plants, perpetuating the 
devastation begun over a century ago.
Obstacles to Solving the Problems
    A patchwork of government agencies and regulations on the local, 
state, and federal levels relate to mining toxin problems on both 
public and private property.
    The government is the largest landowner in the Sierra Nevada, and 
many of the lands affected are owned by public agencies, however, the 
state and federal governments have not established a clear and 
consistent plan for assessing and addressing the many problems 
associated with the impact of gold mining on public land. Public land 
managers such as regional Forest Service offices and BLM field offices 
are faced with costly environmental cleanup actions on severely limited 
budgets. Meanwhile, there are no incentives for voluntary private lands 
cleanup, and regulations regarding cleanup are not always consistent or 
understandable.
    There are some specific challenges that need to be better 
understood:
    <bullet>  Mercury contamination behind federally owned on-stream 
impoundments in mining regions, such the Shasta Dam (Bureau of 
Reclamation, Central Valley Project) and Englebright Dam (Army Corps of 
Engineers), requires thoughtfully designed reservoir management 
practices to decrease methylation, mercury mobility, and reactivity. 
Accumulation of sediment contaminated with mercury behind some 
reservoirs requires dredging out this excess material to maintain water 
storage capacity. Dangers associated with this procedure include re-
suspending and re-mobilizing toxins, and increasing mercury 
methylation.
    <bullet>  Flooding wetlands with mercury contaminated water can 
have a dramatic impact on mercury methylation. The design, 
construction, and management of wetlands to reduce methylation needs to 
be studied.
    <bullet>  Mine tailings and materials left over from dredging are 
not tested for arsenic or other heavy metals before being sold for 
aggregate. Though many of the materials dredged from reservoirs or left 
over from mining are known to be contaminated, the use of local 
aggregate fill is not effectively regulated for arsenic, mercury and 
other contaminants.
Recommendations for Action
    A strategic alignment among indigenous tribes, scientists, local 
landowners, businesses, government representatives, philanthropic, 
health and conservation organizations, and the community in the Sierra 
Nevada, based on mutual need and desire to find solutions, is the key 
to solving this vast problem. The Sierra Fund is calling for a new, 
strategic investment in research, education, and cleanup. State, 
federal, business and private philanthropic funding must be directed to 
the Sierra Nevada mining problem over the next several decades.
    The Initiative's Gold Ribbon Panel of tribal leaders, watershed 
scientists, medical professionals, and community members has identified 
four activities to begin to address mining toxin issues (see list, 
attached). Effective implementation of these recommendations requires 
new institutional relationships and funding. Our Gold Ribbon Panel 
recommended the following objectives:
1. Increase Collaboration
    Improving collaboration among key governmental, academic, and 
medical institutions to stimulate the implementation of this Initiative 
is crucial.
    Action Recommended: Support formation of a Mining Toxins Working 
Group including researchers: at the University of California and 
California State University; state and federal government land 
managers, regulators and scientists; tribal and local government; 
community leaders and others to ensure effective information exchange 
on these issues.
2.  Fund Strategic Research: `More information is needed on a number of 
        issues in order to inform policy and develop best practices.
    Actions Recommended: The federal government should develop grant 
programs to fund scientific inquiry by government, university and non-
profit organizations, into the following topics:
    1.  To identify the most effective methods for assessing and 
cleaning up the pollution distributed throughout the region, including 
better deployment of existing technologies and development of new 
technologies and best management practices. This should include 
development of pilot research projects that explore methods for 
reducing methylmercury in the Sierra Nevada watershed, such as the 
project proposed by the Nevada Irrigation District to test new 
technology for removal of legacy ``quicksilver'' mercury from on-stream 
impoundments in the region. Pilot projects that include careful 
monitoring of wetlands restoration are needed to learn about what works 
on the ground.
    2.  To study exposure and the human health impacts resulting from 
exposure to mining toxins and naturally occurring toxic minerals 
disturbed during the Gold Rush. There needs to be a much better 
understanding of what, if any, epidemiological impacts this exposure is 
having on the residents of the Gold Country. Community monitoring of 
mining toxins using high-quality scientific tools needs to be 
supported. The public needs access to all testing data in order to 
effectively participate in decisions about mine remediation.
3.  Improve Outreach and Education on Human Health
    Awareness of the potential human health hazards associated with 
mining toxins needs to be increased dramatically.
    Action Recommended: The federal government needs to improve 
regional medical education and outreach on the impacts of legacy mining 
toxins on public health, including mercury.
4.  Reform, Enforce and Fund Government Programs
    The complexity of the mining toxin problem requires evaluation of 
scientific information and policy solutions among a number of agencies. 
The federal government should assess their publicly owned land for 
mining toxins and develop plans to clean up or contain these wastes 
from contaminating the land and water of the state. Additional funding 
is critically needed to clean up legacy mining contamination.
    Solutions to the obstacles to cleanup of private lands must be 
developed and funding mechanisms for these identified. Legal mechanisms 
need to be explored to look for ways for downstream urban users to help 
pay for cleanup upstream in the Gold Country.
Actions Recommended: The following steps need to begin immediately:
    1.  Inventory, assess, and prioritize for remediation abandoned 
mines on all federally owned assets including those managed by the U.S. 
Forest Service and Bureau of Land management. Funding for remediation 
in the area needs to be increased. Hazardous materials recovered from 
cleanups need to be carefully disposed. This process needs to work 
closely with stakeholders to ensure cultural sensitivity and community 
engagement.
    2.  Assess water projects, wetlands, reservoirs and other projects 
of the Bureau of Reclamation, Army Crops of Engineers and other federal 
agencies, and put programs in place that ensure best management 
practices and appropriate technologies that address mercury methylation 
concerns.
    3.  The Federal 1872 Mining Act needs to be reformed to require 
meaningful mitigation of cultural and environmental impacts from 
historic mining. Good Samaritan laws must be reformed to provide 
incentives for private land cleanup.
    4.  Support implementation of Phase 2 of the CALFED Mercury 
Strategy. The CALFED Mercury Strategy Phase I provided useful 
information, but the strategy has yet to be fully implemented. Follow-
up is needed, including convening another panel of experts to revisit 
the Strategy, and to take a look at scientific and policy lessons 
learned.
In Conclusion
    California gold helped maintain the Union in the Civil War, 
sustained the nation during the banking ``panics'' of the late 19th 
century, and helped fight World Wars I and II. The Gold Rush brought 
immigrants to this country from all over the world with their strengths 
and dreams, and the attendant gifts of a culturally rich and diverse 
state.
    This enormous contribution of wealth to the nation should be 
recognized, as well as the costs that this intensive extraction left in 
its wake. The nation owes the gold fields of California, the people 
displaced from them, and the people who live on the pollution left 
behind its support in cleaning up mining's toxic legacy.
    Thank you for this opportunity to tell you about our concerns about 
mining's toxic legacy in California.
    Attachments:
    1.  Disclosure Requirement
    2.  TSF Mining Project Advisors
    3.  Abandoned Mines in California (Map)
    4.  Mining's Toxics Legacy (Executive Summary Report) full report 
can be downloaded from our Website: www.sierrafund.org/campaigns/mining
[GRAPHIC] [TIFF OMITTED] 53883.009

                                 .eps__
                                 
    Mr. Costa. Thank you, Ms. Martin, and for your succinct 
testimony, a little beyond the time, but it was all worth it, 
and as a constituent of Mr. McClintock's, I want to make sure 
you get the appropriate time.
    Ms. Martin. Thank you.
    Mr. Costa. I am going to try to quickly go through my 
questions here and see if we can get it all on my first round 
here.
    Do you think all four of you, based upon what you think has 
been cleaned up, that there are economic benefits to cleaning 
these up besides the health and safety issues?
    You both spoke of a couple of examples of clean-up. I do 
not know how much that generated in the economy for that clean-
up.
    Mr. Schneider. Well, it is certainly going to generate a 
lot of jobs, and one of the interesting things about clean-up 
is there is a limit on the number of companies that are able to 
do this at this point in time. If we have a consistent, ongoing 
source of funding, we will certainly develop more people to be 
able to accomplish the work in a more timely manner.
    Mr. Costa. Mr. Isham?
    Mr. Isham. I have been asked by a large major mining 
company to review some of the major mines in the Mother Lode 
District to look for high sulphide tails. High sulphide tails 
produce drainage here, but high sulphide tails at processing 
plants in Nevada are considered a fuel. So what is a waste 
product in California could actually be a fuel.
    Mr. Costa. So you think it could generate jobs and be 
beneficial to the economy.
    Mr. Isham. Yes, yes. Actually I would like Mr. Karl Burke 
to maybe touch on that a little bit.
    Mr. Costa. Quickly identify yourself and answer the 
question.
    Mr. Burke. Certainly. I am Karl Burke. I am Closure Manager 
for Homestake Mining Corporation at McLaughlin Mine, and I have 
worked on the program with J.C. to look at sources of sulphide 
or sulphur materials that we could export to Nevada and use in 
our autoclaves because the oxidation of those sulphides or 
native sulphur actually generates heat, which lowers our 
electrical needs and produces gold.
    We always look at situations where we can manage a source 
of materials such that we can take on some benefit from either 
gold or silver that is associated with the sulphides.
    Another benefit that we are talking about in this situation 
is that the Gold Strike Mine, which would be the area that I am 
most familiar with in our parent company, has state-of-the-art 
mercury removal equipment so that you are not only taking care 
of the sulphides that generate acid. You are taking care of the 
mercury that is associated with the ore, and the company could 
be providing a profit and more employment to its staff.
    Mr. Costa. Very good. Thank you.
    Mr. Schneider, when you showed us that map earlier that 
showed basically the Sacramento Valley drainage area, I know 
that was your focus, but do you think the Coast Range that also 
has a number of these issues gets the same amount of attention 
or funding for mercury or mine clean-up?
    Mr. Schneider. Well, the easy answer is no. I do not think 
that is the case, and I think a lot of the iconic areas tend to 
attract the funding, and I do not want to impinge on----
    Mr. Costa. What do you mean by ``iconic areas''?
    Mr. Schneider. Well the Sierra Nevada is pretty important. 
I mean, I spent a lot of time there, and we need to deal with 
that, and there are a lot of people living there, but the 
source of 50 percent of the mercury that is going into the 
Sacramento system actively now comes out of the Cache Creek 
drainage, and that just has to have a very high priority.
    And as I say, it is not just the mines. It is the sediment 
in there. There is the settling basin to deal with. It is how 
we study and implement techniques to stop or slow the 
methylation process.
    Mr. Costa. Supervisor Wilensky, I saw you nodding your head 
when Ms. Martin was talking about the lack of knowledge among 
folks who actually are either hobby fishers or they depend upon 
fishing to supplement their regular diet. Would you concur with 
that?
    Mr. Wilensky. Absolutely.
    Mr. Costa. Hit the mic, please. For the record we want to 
hear you.
    Mr. Wilensky. Absolutely. I think there are all kinds of 
ways we could.
    Mr. Costa. So you have Native Americans in your 
constituency there and others that are fishing, and you are 
saying that the majority of the population does not know about 
the potential contamination?
    Mr. Wilensky. I would say more than 90 percent are not even 
aware of this as an issue. There is very little awareness in my 
district, and the greater the poverty, the less awareness there 
is and the more need there is for subsistence fishing.
    Ms. Martin. I would like to point out that we hired Chico 
State School of Nursing to survey clinics in the Sierra. We 
found that not one of them was providing any information to 
their patients about limiting intake of mercury contaminated 
fish, including wild local fish which we know is contaminated. 
Not one of them included information in their maternal 
education program.
    So I would say there is a huge ignorance out there. I would 
also just like to add to your first question to Mr. Schneider 
about whether there is enough money available on either side of 
the valley. I would say no.
    Mr. Costa. No, I assume that is the case.
    Ms. Martin. We are not getting any money either. Most of 
the focus has been really on the Delta and not on the sources.
    Mr. Costa. Also, I mean, regardless of what happens with 
legislation, I am intrigued by the notion of two efforts, one, 
the volunteer effort that Mr. Wilensky talked about in his area 
and also the Good Samaritan, I think, efforts because, frankly, 
within either Federal law or state law, I think we need to 
increase our efforts to use that as a tool.
    Let me end up with you, and with the permission of my 
colleague here I will make this my final questioning. Ms. 
Martin, you talked about the Working Group on Mining Toxins. I 
guess, to give us a little more meat on the bone, what would 
such a group do? Where would you get your funding source? Who 
would be on it? How would it work in conjunction with the 
Federal and State agencies and local agencies?
    Ms. Martin. That is a great question. We just held a three-
day meeting bringing all of our partners together to talk about 
exactly how we would do that.
    The first piece is that, of course, any Federal agency 
folks that are going to be attending these meetings need to 
have it be part of their portfolio and cover it as part of 
their time.
    We think the University of California's Federal funding 
could be enhanced, as well as the Cal State system, which have 
been very, very helpful to us. What we see as the primary 
product is collaboration. At one of our first sort of informal 
meetings, we identified the problem with arsenic 
bioavailability, and that has been pursued by the State of 
California through EPA funding to understand how the arsenic 
affects us, especially those of us that are living on the 
tailings piles.
    We have identified the need for mercury research. In fact 
much of what you have been talking about here today has been 
people who have been part of our informal working group, 
including Mr. Humphreys, Dr. Alpers, Cy Oggins from Department 
of Conservation. But they have been doing this informally, and 
what I think would be helpful would be to have both the State 
and Federal government have an agreement on how to fund these 
two things, have it come out of both pockets, and make sure 
that the people who live on the tailings piles, including local 
government and the tribes, are involved in the working group 
and have an equal playing field.
    We believe there are funding sources.
    Mr. Costa. So that would be the basis of the effort there.
    Ms. Martin. Yes. This is some of it, and since this list 
was made, we have been working very closely with USDA, Forest 
Service, BLM, USGS. We have worked very closely with all of the 
State agencies and now also the Environmental Protection 
Agency.
    Mr. Costa. OK. I'm going beyond my time. I do not want to 
test my colleague's patience here, but just very quickly, a 
short response, and Mr. Isham, you might both want to comment. 
What is the appropriate role for the mining industry in solving 
these problems today?
    Ms. Martin. Another new partner for us has been Tygart 
Industries who joined us at our working group meeting, and we 
have also worked with miners in our community. I think that 
they are critical. Miners know more about removing mercury from 
sediments than anybody else on the planet. They understand the 
problem. I think they are fundamental to a solution.
    Mr. Costa. Mr. Isham, you would concur?
    Mr. Isham. Mining has the technical expertise to actually 
clean up the legacy issues of miners in the past. I believe 
they are crucial, and my association supports my opinion.
    Mr. Costa. Good. Well, I have exceeded my time, and Mr. 
McClintock has been very kind, and I will recognize him for his 
five minutes plus.
    Mr. McClintock. Well, as I said, I think I owed you a 
couple of minutes.
    Mr. Costa. And then at the end of his questioning we will 
conclude the hearing at that time.
    Mr. McClintock. Mr. Isham, if we eliminated all of the 
legacy issues, how much commercial interest would there be in 
reopening some of these mines, the gold mines?
    Mr. Isham. Like I believe you once said, there is a lot 
more gold in them there hills. The State of California is the 
golden state. The Mother Lode runs over 100 miles long. It is a 
precious commodity. It is what the caused the State of 
California to be----
    Mr. McClintock. So quite a bit then is what you are saying.
    Mr. Isham. There is a fair amount of hardrock activity.
    Mr. McClintock. My introduction to this was at the Idaho-
Maryland Mine which was closed many years ago. There is a 
company that now wants to reopen it. Among that company's 
contributions to the region, in addition to 600 high paying 
jobs, is a patented process by which they are able to convert 
the mine tailings into ceramic tiles on a very commercially 
viable scale.
    I assume that that means taking a lot of the residual 
mercury in those tailings and sequestering them now into tiles 
that would be harmless. So the question I am trying to zero in 
on is how much of that remediation would be occurring if we 
removed the legacy issue and all of the burdens associated with 
it?
    Mr. Isham. Actually a fair amount. I am glad you mentioned 
the ceramics. At a lot of these old mine sites there are what 
they call the waste rock piles. It is not really waste rock. It 
is basically crushed rock that did not contain ore. Out of that 
crushed rock is a very good source of aggregate.
    One of the problems that the State of California has is a 
lack of aggregate for its final recovery. Once the State of 
California becomes healthy again, they are going to needs 
roads. They are going to need bridges. They are going to need 
concrete. They are going to need aggregate.
    There is a lot of aggregate sitting at a lot of these sites 
in what is called the waste dumps. So there are the actual ore 
issues, and then there are the waste products that like the 
ceramics at the Idaho-Maryland are another valuable resource 
that the State of California needs.
    Mr. McClintock. Well, there is an old saying. If you beat a 
dog you will not know where it is, but you will know where it 
will not be, and it seems to me the same thing applies. One of 
the concerns I have is piling all of these additional burdens 
on companies that are trying to reopen these mines. You end up 
assuring they will not reopen them, and therefore, they will 
not be there to remediate the contamination.
    That is a concern that I have with H.R. 699, its 
predecessor. It seems to me that we are adding burdens to 
companies that we really ought to be encouraging to come in and 
through the natural process of commercializing these or 
reopening these mines, to clear away a lot of the 
contamination.
    What are your thoughts on that?
    Mr. Isham. Many of the members of my association look at 
some of these older sites in California, and they would like to 
come in to say they are very concerned with the liability 
issues of these legacy components. There are abundant resources 
in the State of California. They would create some very good 
jobs. They would clean up many of the problems within the 
state. The Lamborn bill, H.R. 3203, would be a great help in 
allowing some of these activities to take place and start.
    Mr. McClintock. But again, the testimony we had earlier was 
that at least the way the EPA is currently looking at it, if 
there is a profit motive involved, they are not interested in 
granting that Good Samaritan relief. That seems to me 
counterproductive.
    Mr. Isham. It does take a little money to get things going, 
and you have to expect industry to make some money to produce 
these products and create jobs, which is a tax base for many of 
the communities, many of the states, and the royalty fees. The 
State of California gets, I believe, a dollar for each ounce of 
gold reported in the state. The more ounces of gold that are 
recovered, the more dollars that would go to the Office of Mine 
Reclamation, which Ms. Luther recently suggested.
    Mr. McClintock. So it may be the more that we relieve these 
burdens that are impeding the reopening of these mines, the 
more we are doing to discourage cleaning up the contamination 
associated with them.
    Mr. Isham. Somebody could say that.
    Mr. McClintock. I think I just did.
    Mr. Isham. Thank you.
    Mr. Costa. All right. Thank you very much, Congressman 
McClintock and Kathy and Wendy and staff, Marcie, for the good 
work that you have done here.
    I want to thank the members of this panel for giving us 
that local perspective of an issue that I think is very 
important not only here in California but around the country. 
Your references toward suggestions on how we can do a better 
job than we have done in the past as it relates to clean-up of 
abandoned mines and the impacts of waters of not just 
California, but waters of other states throughout the Union, I 
think, will be helpful, and we will look forward to your 
continued input and advice. The collaboration efforts, I think, 
I am very focused on, and in terms of how we can do a better 
job.
    I want to thank the second panel as well, the State 
agencies, and it was good to have folks that we have worked 
with in the past, and the first panel with the Federal 
agencies.
    I want to thank those of you here in the audience for 
participating in one fashion or another, and as we plan the 
rest of this year may each and every one of you have a 
wonderful Thanksgiving with your family and your friends, and 
we will just continue to work very hard on behalf of the people 
of California and our nation. These are challenging times, but 
what we have going for us is the tremendous resource of 
American ingenuity and the American spirit, and at the end of 
the day I put my faith and trust in all of that that you embody 
and reflect and represent.
    So thank you. Thank you very much on behalf of my 
colleague, Congressman McClintock, and our staff.
    This Subcommittee on Energy and Minerals is now adjourned.
    [Whereupon, at 12:36 p.m., the Subcommittee meeting was 
adjourned.]

    [Additional material submitted for the record follows:]
    [A letter submitted for the record by Sherri Norris, 
Executive Director, California Indian Environmental Alliance, 
follows:]
[GRAPHIC] [TIFF OMITTED] 53883.010

.eps                                ------                                


    [NOTE: The documents listed below have been retained in the 
Committee's official files.]

Abbott, Jim, Acting State Director, California State Office, Bureau of 
        Land Management, U.S. Department of the Interior, Map from 
        Department of Conservation: ``Abandoned Mines on Bureau of Land 
        Management Lands,'' including pictures of mine sites
Alpers, Dr. Charles, Research Chemist, U.S. Geological Survey: U.S. 
        Geological Survey Fact Sheet: ``Mercury Contamination from 
        Historical Gold Mining in California,'' by Charles Alpers, 
        Michael Hunerlach, Jason May and Roger Hothem, October 2005
Baggett, Arthur, Board Member, State Water Resources Control Board, 
        State of California Environmental Protection Agency:
    <bullet>  Diagram: ``Transport and Methylation of Mercury'': 
October 2005 USGS Fact Sheet (Mercury Contamination from Historical 
Gold Mining in California)
    <bullet>  PowerPoint Presentation titled ``Abandoned Mines and 
Mercury in California,'' prepared for the hearing, November 23, 2009
Luther, Bridgett, Director, Department of Conservation, State of 
        California Natural Resources Agency: Set of documents from the 
        Department of Conservation titled ``California's Estimated 
        47,000 Abandoned Mines;'' ``California's Abandoned Mine Lands 
        Program Fact Sheet: Abandoned Mine Inventory and Remediation;'' 
        ``California's Abandoned Mine Lands Program Fact Sheet: Stay 
        Out--Stay Alive!'' and ``OMR Environmental Hazard Remediation & 
        Reclamation Projects,''
Martin, Elizabeth, Chief Executive Officer, The Sierra Fund: Executive 
        Summary of the Sierra Fund, ``Mining's Toxic Legacy: An 
        Initiative to Address Mining Toxins in the Sierra Nevada,'' 
        published March 2008
Schneider, Bob, Board Member and Senior Policy Director, Tuleyome: 
        PowerPoint Presentation titled ``Abandoned Mines and Mercury in 
        California,'' prepared for the hearing, November 23, 2009
Wilensky, Hon. Steve, Supervisor, Second District, Calaveras County 
        Board of Supervisors, State of California, PowerPoint 
        Presentation titled ``Abandoned Mines in Calaveras County'' 
        prepared for the hearing, November 23, 2009

                                 <all>

</pre></body></html>
